<html>
<title> - NOMINATION OF THE HONORABLE PORTER J. GOSS TO BE DIRECTOR OF CENTRAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 108-777]
[From the U.S. Government Publishing Office]




                                                        S. HRG. 108-777 
 
                          NOMINATION OF THE HONORABLE 
                       PORTER J. GOSS TO BE DIRECTOR OF 
                              CENTRAL INTELLIGENCE 
-----------------------------------------------------------------------------

                                     HEARINGS 

                                    BEFORE THE 

                       SELECT COMMITTEE ON INTELLIGENCE 

                                      OF THE 

                               UNITED STATES SENATE 

                           ONE HUNDRED EIGHTH CONGRESS 

                                 SECOND SESSION 

                                     -------

                            SEPTEMBER 14 AND 20, 2004 

                                     -------

         Printed for the use of the Select Committee on Intelligence 


                             U.S. GOVERNMENT PRINTING OFFICE 
                                     WASHINGTON : 2005 
-----------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office 
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001 



                          SELECT COMMITTEE ON INTELLIGENCE 
                                     -------

                            PAT ROBERTS, Kansas, Chairman 

                JOHN D. ROCKEFELLER IV, West Virginia, Vice Chairman 



ORRIN G. HATCH, Utah                           CARL LEVIN, Michigan 
MIKE DEWINE, Ohio                              DIANNE FEINSTEIN, California 
CHRISTOPHER S. BOND, Missouri                  RON WYDEN, Oregon 
TRENT LOTT, Mississippi                        RICHARD J. DURBIN, Illinois 
OLYMPIA J. SNOWE, Maine                        EVAN BAYH, Indiana 
CHUCK HAGEL, Nebraska                          JOHN EDWARDS, North Carolina 
SAXBY CHAMBLISS, Georgia                       BARBARA A. MIKULSKI, Maryland 
JOHN W. WARNER, Virginia 

                          BILL FRIST, Tennessee, Ex Officio 
                   THOMAS A. DASCHLE, South Dakota, Ex Officio 

                            BILL DUHNKE, Staff Director 
                     ANDREW W. JOHNSON, Minority Staff Director 
                           KATHLEEN P. MCGHEE, Chief Clerk 


                                  C O N T E N T S 
                                                                     Page 

Hearing held in Washington, DC, Sept. 14, 2004 
Statement of: 
Durbin, Hon. Richard J., a U.S. Senator from the State of Illinois....... 45
Goss, Hon. Porter J., Nominee to be Director of Central Intelligence ..... 7
Graham, Hon. Bob, a U.S. Senator from the State of Florida................ 6
Nelson, Hon. Bill, a U.S. Senator from the State of Florida................5 
Roberts, Hon. Pat, Chairman............................................... 1
Rockefeller, Hon. John D. IV, Vice Chairman................................3 

Supplemental Material: 
79 
53 
15 
82 
Chart presented by Senator John D. Rockefeller IV........................ 15
Washington Times Op-Ed by Senator Saxby Chambliss........................ 53
Letter from Cynthia Thomas, President, TriDimension Strategies .......... 79
Senate Select Committee on Intelligence Questionnaire for Completion 
by Presidential Nominees..................................................................82
Glynn, Marilyn, Acting Director, Office of Government Ethics, letter to 
the Honorable Pat Roberts................................................................. 108 
Goss, Hon. Porter J., letter to John Rizzo dated September 1, 2004 ..... 109 
Financial Disclosure Report of Hon. Porter J. Goss...................... 108 
Responses to QFRs from Hon. Porter J. Goss to Senator Robert J. Durbin ..148

Hearing held in Washington, DC, Sept. 20, 2004 

Statement of: 
Goss, Hon. Porter J., Nominee to be Director of Central Intelligence ... 173 



                        NOMINATION OF THE HONORABLE 
                     PORTER J. GOSS TO BE DIRECTOR OF 
                           CENTRAL INTELLIGENCE 

                       TUESDAY, SEPTEMBER 14, 2004 
                                 SENATE OF THE UNITED STATES, 
                                 SENATE SELECT COMMITTEE ON INTELLIGENCE, 
                                                           Washington, DC. 

The Select Committee met, pursuant to notice, at 10:04 a.m., in 
Room SH-219, Hart Senate Office Building, the Honorable Pat 
Roberts, (Chairman of the Committee), presiding. 

Committee Members Present: Senators Roberts, Hatch, DeWine, 
Bond, Lott, Snowe, Hagel, Chambliss, Warner, Rockefeller, Levin, 
Feinstein, Wyden, Durbin, Bayh and Mikulski. 

                 OPENING STATEMENT OF THE HONORABLE PAT ROBERTS, 
                                    CHAIRMAN 

Chairman ROBERTS: The Select Committee will come to order. 
The Senate Select Committee on Intelligence meets today to consider 
the nomination of the Honorable Porter J. Goss to be the Director 
of the Central Intelligence Agency. 

Congressman Goss, on behalf of the Committee, I would like to 
congratulate you on your nomination and I thank you for appearing 
today. 

The Committee would also like to welcome the Senior Senator 
from Florida, when he arrives, and the Junior Senator from the 
State, my predecessor as Chairman of this Committee, Senator Bob 
Graham, and my colleague on the Armed Services Committee, Senator 
Bill Nelson. So gentlemen, thank you for being here today in 
support of Congressman Goss. 

The role of Director of Central Intelligence is of paramount importance 
to the security of this Nation. It is also one of the most 
challenging jobs, if not the most challenging job, in the Executive 
Branch as of today. 

This Nation, as everybody knows, is currently engaged in a war 
where intelligence defines the front line. We are not fighting 
against nation-states but against a network of desperate terrorist 
groups, who operate not only in the shadows, but at times right in 
our midst. Whether in Afghanistan, Iraq or here at home, defeating 
this enemy depends largely upon the ability of our intelligence 
services to locate, to penetrate and to destroy these terrorist cells. 
In short, we are involved in a world war which requires timely and 
actionable intelligence to assure victory and the safety of the American 
people. 

The Director of the Central Intelligence Agency is responsible for 
producing this intelligence. As we fight the threat posed by Islamic 
terror, there remains unabated numerous other worldwide threats 
against which our Nation must also guard. Among them are these: 
the development of nuclear programs by adversary regimes such as 
exist in Iran, also in North Korea; the steady growth of communist 
China into an Asiatic power and its greater influence over Taiwan 
and the region; and the continued worldwide expansion of WMD 
technology. 

The Director of Central Intelligence is also responsible for producing 
intelligence to keep policymakers, both in the Administration 
and in Congress, informed about many other threats. 
If that isn't daunting enough, Congressman Goss has been nominated 
for a position which is not likely to exist for much longer. 
The President and many in the Congress now support the creation 
of a new national intelligence director. There is now a great deal 
of discussion among my colleagues on how best to ensure that the 
creation of a national intelligence director is something more than 
just a name change. 

Most of the debate outside this Committee has centered on how 
to grant increased authority to the new national intelligence director 
while leaving undisturbed the structural status quo. Many on 
this Committee simply believe you can't really get there from here. 
In other words, it will take significant structural change to effect 
real reform. 

I believe strongly that we must create a new structure that accommodates 
the diverse activities of the various intelligence agencies 
by giving direct responsibility and control of the primary intelligence 
disciplines--the collection and the analysis and the research 
and the acquisition and the tactical support--and the corresponding 
agencies who are in charge of those disciplines to a 
truly empowered national intelligence director and his assistants. 

True empowerment includes both budget authority and the authority 
to direct and control the activities of the intelligence agencies
--to direct and control. One without the other will once again 
leave us, in my opinion, with an intelligence head who can neither 
succeed nor be held accountable. This would be an unacceptable 
outcome. 

We don't know how or when reform will be enacted. Until then, 
we need a strong Director of the Central Intelligence Agency with 
the necessary skills to manage a community which is in dire need 
of a leader. The unique background of Congressman Goss will serve 
him well as he meets these and many other challenges while directing 
our intelligence community. 

For over 40 years, Porter Goss has been serving his Nation, his 
State and his local community of Sanibel, Florida. Whether as an 
Army intelligence officer, a clandestine CIA case officer, a newspaperman, 
a county commissioner, U.S. Representative, or Chairman 
of the House Intelligence Committee, he has done his duty 
with skill, with honor and with integrity. 

His experience, I think, makes him uniquely suited to serve as 
the Director of Central Intelligence. The President, in my view, has 
selected an outstanding public servant to be his principal adviser 
on intelligence and we look forward to working with him as the 
next Director of Central Intelligence. 

At this time, I would like to recognize the distinguished Vice 
Chairman of the Intelligence Committee for his remarks. 

Senator Rockefeller. 

            STATEMENT OF THE HONORABLE JOHN D. ROCKEFELLER IV, 
                                 VICE CHAIRMAN 

Vice Chairman ROCKEFELLER: Thank you, Mr. Chairman. 

Good morning, Congressman Goss. Good morning, Senator 
Graham and Senator Nelson. Welcome all. 

You are very well known to this Committee in your role as 
Chairman of the House Intelligence Committee. Now we have to 
deal with you as a Congressman and as a potential future CIA Director 
and perhaps beyond that. 

You have a long and distinguished career as a public servant. I 
applaud your willingness to undertake the possibility of this extremely 
difficult and complicated job of Director of Central Intelligence. 
And, as you know better than most, the United States intelligence 
community is at a crossroads. 

The documented intelligence failures prior to the terrorist attacks 
of September 11th and leading up to the war in Iraq have 
left the intelligence community's credibility bruised--not bloodied, 
but bruised--and its reputation tarnished. The community's objectivity, 
independence and competency have been called into question. 

As a result, a bipartisan call for reform has steadily grown to the 
point where I believe that the Congress can and should, if allowed 
by the Senate and House leadership, pass landmark legislation to 
create a stronger and more effectively-managed intelligence community 
before we adjourn. It can be done. If you give Congress 
enough time to do something, we'll do nothing. If you don't give us 
enough time, we can sometimes get some things done. 

The work of the intelligence community, however, of course, does 
not stop during this period. We're at war in Afghanistan. We're at 
war in Iraq. We're in a global war against terrorists around the 
world. The men and women of the Central Intelligence Agency and 
other intelligence agencies are a central part of the America's ability 
to prevail on the battlefield in various places and to stop terrorists 
before they carry out their murderous plots either abroad or 
here. 

The next Director of the Central Intelligence Agency will be the 
most important ever confirmed by the United States Senate. Never 
before in the 57-year history of the intelligence community has 
there been a need for a Director of Central Intelligence with unimpeachable 
character, proven leadership and management experience, 
and a strong national security set of credentials. 

The new Director will face no fewer than four simultaneous 
changes, in my judgment--waging an unrelenting offensive clandestine 
campaign against al-Qa'ida and other terrorist organizations 
around the world; supporting the ongoing military operations 
in Afghanistan and Iraq; managing an intelligence community in 
a state of transition; restoring the intelligence community's lost or 
tarnished credibility. The next Director of Intelligence must be ex- 
traordinarily qualified in order to carry out these and other national 
security tasks. The stakes are simply enormous. 

Perhaps most importantly, in this Senator's view, the next Director 
of Central Intelligence must be nonpartisan, independent and 
objective. The standard is not mine, although it is; it's what the 
law requires. 

The very first responsibility of the Director of Central Intelligence 
under the National Security Act requires the Director to 
provide national intelligence to the President, to the Congress, to 
the Executive Branch of the military that is ``timely, objective, 
independent of political considerations and based upon all sources 
available to the intelligence community.'' 

Congressman Goss, having reviewed your record closely, I do 
have a number of concerns about whether your past partisan actions 
or statements will allow you to be that type of nonpartisan, 
independent and objective national intelligence director that our 
country needs. That's what this discussion will be about--tough, 
but fair. And these questions need to be put. 

You have made a number of statements relative to intelligence 
matters, many in the past year, that are highly, in my judgment, 
partisan and display a willingness on your part to use intelligence 
issues as a political broad sword against members of the Democratic 
Party. Now, at the appropriate time, I will ask you to explain 
the purpose of some of these statements and to substantiate the 
claims that you make in them. As I say, my questions will be 
tough, but I hope, pray and believe that they will be fair. 

During the course of this hearing, I will also have a number of 
questions about your views on reforming the intelligence community, 
how it is to be done, and the bill that your proposed earlier 
this year. 

As I noted earlier, I believe intelligence reform should be the top 
priority of the Congress. It remains a question whether it will be 
allowed to be in these remaining few days or weeks that we have. 
And I need to be assured that you appreciate the need for the reform 
necessary, and that you are prepared to embrace it, if confirmed. 

I will want to spend some time discussing your views on a number 
of recent and ongoing investigations, as well, some of which we 
discussed in our very productive meeting yesterday, including both 
the joint congressional and the independent 9/11 Commission investigations, 
this Committee's inquiry into prewar intelligence into 
Iraq, and the criminal investigation in the outing of CIA employee 
Valerie Plame. 

Your record as a Member and then also Chairman of the House 
Intelligence Committee is another area I want to explore with you, 
including your involvement with the Cox Commission's dealing 
with the People's Republic of China and espionage at the Department 
of Energy's national laboratories. 

In short, we have a lot to talk about. Again I want to say that 
I think my questions are going to be thorough and at times tough. 
The importance of this position for which you are nominated, in my 
judgment, requires no less. And I'm proud that you're here and I 
look forward to hearing what you have to say. 

Chairman ROBERTS: Thank you, Senator Rockefeller. 

I now recognize the distinguished Senior Senator from Florida, 
the past Chairman of the Committee, for any remarks he would 
like to make in regard to the nominee. And while I have the opportunity, 
I would like to thank Senator Graham for his years of service 
in the Senate. He has earned the admiration and respect of all 
of our colleagues. 

Senator Graham. 

               STATEMENT OF THE HONORABLE BOB GRAHAM, 
          UNITED STATES SENATOR FROM THE STATE OF FLORIDA 

Senator GRAHAM: Thank you very much, Mr. Chairman, for those 
very generous remarks. 

I am delighted to be here again with colleagues for whom I have 
a special affection. I am also here in order to introduce you to a 
man that you already know, but hopefully provide some additional 
perspective. 

Let me state at the beginning that I am not unbiased. I believe 
that Porter Goss is an exceptional human being and will be an exceptional 
head of our Central Intelligence Agency. I want to first, 
however, introduce an important part of why Porter Goss is the 
man that he is. He is joined today by his wife Mariel and their son 
Chauncey. And I would like to ask if they would stand and be recognized. 

[Applause.] 

Senator GRAHAM: Adele and I, who also joins me, are very fond 
of Porter and Mariel, and we recognize the sacrifices which the 
family has made in order for Porter to be able to spend so much 
of his adult life in public service. 

Mr. Chairman, I've known Porter Goss for well over two decades, 
and I can tell you from personal experience that he is uniquely 
qualified to be here today as the President's nominee to serve as 
the Director of the Central Intelligence Agency. 

First, he is a man of great character, unusual intelligence, a tremendous 
work ethic and an outstanding personal and professional 
standard of integrity. As Governor of Florida, I came to know Porter 
when he served first as Mayor of Sanibel, Florida. In the early 
1980s, the county of which Sanibel is a city, Lee County--Fort 
Myers is the county seat--decided to undertake the construction of 
a new airport. It was probably the largest public works project in 
the history of that county. 

Unfortunately, shortly into that project, three of the five members 
of the county commission were indicted for corruption. In that 
circumstance, as Governor, I first had the responsibility of suspending 
them from office, and then the second responsibility of 
finding three good people who could step into those vacancies and 
complete this important project and restore the integrity of local 
government in the eyes and souls of the people of Lee County. 

Porter Goss was one of those three people. Not unexpectedly, he 
soon rose to be the Chairman of the Lee County Commission. And 
over the course of his service, he did both; he completed the airport, 
which is now a great asset for his community and our State 
and Nation, and second, he rebuilt the public confidence in their 
local government. 

Party affiliation did not matter then. What was necessary was 
good men and women who could carry out a difficult task. And my 
colleagues, I believe party affiliation does not matter today. 

The challenge that Porter Goss, on a much magnified scale, will 
face as the Director of Central Intelligence is very analogous to the 
challenge that he faced 20 years ago in restoring integrity to his 
local community and completing a very complex project. 

Second, in addition to those personal qualities, when it comes to 
the intelligence community, Congressman Goss has, in my judgment, 
a balanced perspective, a perspective gained both as an insider 
and then as an outsider. For a decade, early in his career, 
Congressman Goss served our Nation in both Army and the CIA. 
He knows firsthand the value and the risk of clandestine operations. 

Since he's been in Congress, and especially as a Member of and 
Chair of the House Permanent Select Committee on Intelligence, 
he came to know the agencies from an oversight capacity. 

Some have said that he's too close to the intelligence agencies, 
that he will be too protective of the status quo. Most of you served 
with Porter and myself on the Joint Inquiry into the events of 
9/11. I believe you would join me in saying that, from that experience, 
Porter is a man who will be independent in his judgments 
and unflinching in his criticisms where he believes they are necessary. 

Mr. Chairman, I have been critical of the intelligence failures 
that led to 9/11 and the war in Iraq. I have also been critical of 
the Administration for its lack of leadership toward reform in the 
three years since September the 11th. 

But at this occasion, I want to commend President Bush for the 
nomination of Congressman Porter Goss. I am confident that he 
will not be part of the problem, but a leader in taking us toward 
principled, thoughtful solutions when it comes to reforming the intelligence 
community. 

I strongly recommend your recommendation of confirmation of 
Porter Goss. 

Thank you, Mr. Chairman. 

Chairman ROBERTS: We thank you, Senator Graham. 

It's my privilege now to recognize the distinguished Junior Senator 
from Florida for any remarks that he might wish to make. 

              STATEMENT OF THE HONORABLE BILL NELSON, 
         UNITED STATES SENATOR FROM THE STATE OF FLORIDA 

Senator Nelson: Thank you, Mr. Chairman, Mr. Vice Chairman, 
Members of the Committee. 

I think we need intelligence reform. I think we need it now. And 
I think Porter Goss is the man to lead the effort. 

This is a uniquely gifted individual and I think the Vice Chairman 
of the Committee has pointed out very rightfully that this is 
a position that all of us have to feel is nonpartisan and is independent 
and critical in their judgment. 

I can tell you this Member of the Senate certainly believes that 
by virtue of the lack of information and misinformation that this 
Senator received with regard to the intelligence leading up to the 
Iraq war, but a most recent example that Porter is going to have 
to deal with is to get the sufficient assets on the ground that can 
penetrate hostile regimes such as North Korea, so that we are not 
in this Never-Never Land of not knowing what an adversary will 
do, particularly an adversary that may possess the nuclear weapon 
and all of that implication to the security interests of the United 
States. 

So I'm here to echo all the reasons that Senator Graham has 
given you, but I'm here to give you my own personal observations 
of Congressman Goss as someone whose public life has been illustrative 
of being nonpartisan, fair and independent. Those characteristics, 
in this town that is so highly charged partisan, not for the 
good of this country, especially at this time, are sorely needed in 
a Director of Central Intelligence. And that's why I wanted to come 
to you and tell you why I support Porter Goss. 

Thank you, Mr. Chairman. 

Chairman ROBERTS: Senator Graham and Senator Nelson, thank 
you very much for your testimony on behalf of your colleague and 
for your very strong statements. They certainly show significant bipartisan 
support. 

While my colleagues from Florida are welcome to stay, you may 
wish to simply get out of the line of fire while you have the chance. 
I thank you very much for your participation and I hope that Ivan 
the Terrible turns into Ivan the Meek. You've already had enough 
of that in Florida and we share your concern. 

I now recognize the nominee for his opening statement. 

           TESTIMONY OF THE HONORABLE PORTER J. GOSS, NOMINEE 
                 TO BE DIRECTOR OF CENTRAL INTELLIGENCE 

Mr. GOSS: Thank you, Mr. Chairman, and thank you for your 
comments. 

Good morning, Mr. Chairman, Mr. Vice Chairman, Senators, ladies 
and gentlemen. I am obviously very honored to be appearing 
before this Committee as the President's nominee to be the next 
Director of Central Intelligence. I'm humbled by the confidence the 
President has expressed in me and my ability to carry out the obligations 
of the office to which I have been nominated. 

I wish to thank exceedingly Senator Graham and Senator Nelson, 
my home-state Senators, for their very gracious introductions. 
I appreciate their support and their very kind words. 

I look forward to today's hearing and the opportunity it presents 
to discuss with you the very important issues facing our Nation, 
particularly the intelligence community. 

As much as I look forward to this opportunity, I have to say, honestly, 
that I never expected to be in this seat before you. Of course, 
I never planned to be a Congressman or a Lee County Commissioner 
or the Mayor of Sanibel, for that matter. 

As for my representation of my constituents from the 14th District 
in Florida, I've given my best to them for the past 15-plus 
years, and at times, perhaps, I've engaged in debate with a little 
too much vigor or enthusiasm. I've tried, however, to the best of my 
ability to engage my colleagues on both sides of the aisle fairly and 
with the utmost respect for their position and their perspective. 

Rest assured, however, that I do understand completely the difference 
in obligations the position of DCI carries with it and that 
which the role of Congressman carries. These are two completely 
distinct jobs in our form of government. I understand those distinctions 
and, if confirmed, I commit myself to a nonpartisan approach 
to the job of DCI. 

As noted, I've been a Congressman from Florida. This is my 
eighth term in Congress. During the last seven-and-a-half years, 
I've been privileged to serve as the Chairman of the sister Committee 
in the House of Representatives, the Permanent Select Committee 
on Intelligence in the House. 

I've served with several very distinguished Ranking Democrats 
well-known to this Committee--Norm Dicks of Washington, the 
late Julian Dixon of California, Nancy Pelosi, who has risen to the 
position of House Minority Leader, and most recently with Jane 
Harman of California--each of them, able, committed and valuable 
Members of Congress. 

I'm proud of my record of service to the Nation in that capacity 
and the record of cooperation, objectivity and the nonpartisan approach 
taken together with them on the serious issues facing the 
Nation and the intelligence community. 

I have served as a Mayor and County Commissioner. I worked 
in the Directorate of Operations at the CIA in the 1960s as a clandestine 
services officer. And while in the Army, I was trained and 
worked as a photo interpreter. Each of these opportunities has 
challenged me and enabled me to serve my country in unique ways. 
If confirmed, I will be given another unique opportunity to serve 
my country. 

The challenges facing the intelligence community today are varied 
and extremely complex, as well described in the opening statements 
of the Chairman and Vice Chairman. Most important among 
them is countering the terrorist threat to our Nation. 

In addition, the intelligence community cannot lose sight of its 
other responsibilities; it must work tirelessly and continuously to 
provide our diplomats and our policymakers, both in the Executive 
Branch and Congress, with information that informs the development 
of public policies across a very broad range of topics. 

With regard to terrorism, the intelligence community's task is 
most urgent. It must strive to detect, deter and disrupt future terrorist 
attacks on the United States. 

As Americans, we are confronted by a brutal enemy who prefers 
to murder innocents, who continues to strike our military men and 
women, who bombs our embassies and who is committed to the destruction 
of not only our economy, but our way of life. In this battle, 
good intelligence is crucial. We must deliver a solid, reliable 
product for our decisionmakers. 

When I look back at my time as clandestine services case officer 
with the CIA during the Cold War, I can say that the mission of 
the intelligence community was very clear--to obtain the plans and 
intentions of our enemies, our adversaries and their associates before 
they could attack the United States. We knew our enemy then. 

The mission for the intelligence community has not changed. We 
must determine our enemies' plans and intentions before they attack 
the United States; that is the core business. 

Our human intelligence capability must improve if we are to continue 
to exercise our responsibilities in this challenging time. Our 
analytical depth and our scope of coverage must increase if we're 
to provide context and texture to the information that is collected. 
Our national technical means must be protected and reinvigorated. 
Investment in these areas will be required. 

Intelligence needs to be shared with those who need to know. 
This includes our State and local law enforcement authorities for 
homeland security purposes and our Federal law enforcement officials 
as well. Information sharing must improve if we are to improve 
our capabilities against our most imminent threats. 

We must also improve our intelligence capabilities in the proliferation 
arena. We need to develop sufficient language skills and 
a depth to be able to accomplish all of our mission objectives in a 
timely fashion. I agree wholeheartedly with the 9/11 commissioners 
that the intelligence community management must foster and nurture 
imagination throughout the intelligence community and not 
stifle it. 

And there are no easy fixes to these complex challenges. If confirmed, 
I look forward to working together with this Committee to 
find ways to improve our capabilities to carry out our mission in 
the defense of liberty and freedom. 

The job to which I've been nominated, the DCI, is a capabilities 
job. It is not a policy job, and I know that. The DCI must provide 
precise intelligence and it must provide objective intelligence. 

In order to do this, the DCI must have the capabilities and resources 
available to gather that intelligence. Objective and precise 
intelligence is only possible if the intelligence community's leadership 
is itself objective, independent and clear in its commitment to 
these ideals. 

I am committed to these principles. If confirmed, I pledge to be 
forthright and objective in the presentation of intelligence information 
to you and to the policymakers of the Executive Branch. 

And, finally, I want to say a few words about the dedicated men 
and women in the intelligence community. During my years as 
Chairman of HPSCI, I've come to know the successes that they've 
achieved and the extraordinary efforts that they have performed in 
the service of this Nation. They serve quietly, with integrity and 
with the utmost dedication to our Nation, its security, its people. 
The people of this great Nation are indebted to their sacrifice, their 
commitment and their work. 

And most importantly, my role as husband and father defines 
me. I have a wife, who has been introduced, who has sacrificed 
much to allow me to serve. Mariel and I were looking forward to 
a quiet retirement, but we both understand the call of public service 
and duty to our country. In this time of war, when duty calls, 
we find ways to serve. This is my way. I'm eternally grateful to 
Mariel for her steadfast support and continued strength. 

Mr. Chairman, Mr. Vice Chairman, Members of the Committee, 
again, thank you very much for this opportunity. I'm now prepared 
to take your questions. 

Chairman ROBERTS: The Committee will now proceed to questions. 
Each Member will be recognized by the order of their arrival. 
Each Member will be granted 10 minutes. And, if necessary, we 
will have a second round. 

Now, Congressman Goss, there's been considerable concern 
raised about the CIA's alleged involvement in the interrogation of 
detainees in Afghanistan and Iraq. Now, I'm not going to ask you 
to discuss in an open hearing the specifics of the CIA's possible involvement 
in any of the interrogations, but can you commit to us 
that as the DCI you will ensure that the CIA's activities do comply 
with all applicable law, and that the CIA will cooperate with the 
relevant investigations, including by the Department of Defense, 
the Department of Justice and the Congressional Committees? 

Mr. GOSS: Yes, sir, I can strongly commit to both of those in affirmative 
``yes'' answers. 

Chairman ROBERTS: Do you agree to appear before the Committee 
here or in other venues when invited? 

Mr. GOSS: Yes, sir. 

Chairman ROBERTS: Do you agree to send intelligence community 
officials to appear before the Committee and designated staff when 
invited? 

Mr. GOSS: Yes, sir. 

Chairman ROBERTS: Do you agree to provide documents or any 
materials requested by the Committee in order to carry out its 
oversight and its legislative responsibilities? 

Mr. GOSS: Yes, sir. 

Chairman ROBERTS: Will you ensure that all intelligence community 
entities do provide such material to the Committee when requested? 

Mr. GOSS: Yes, sir. 

Chairman ROBERTS: Do you agree to provide such other information 
that the Committee may require in order to carry out its oversight 
and its legislative responsibilities? 

Mr. GOSS: Yes, sir. 

Chairman ROBERTS: Mr. Goss, will you be a nonpartisan DCI? 

Mr. GOSS: Yes, sir. You have my word on that, Mr. Chairman. 

Chairman ROBERTS: Mr. Goss, your intelligence reform proposal, 
H.R. 4584, has been criticized by some as a threat to civil liberties. 
That criticism is based on a provision in the bill modifying the prohibition 
on CIA exercise of any, ``police subpoena or law enforcement 
powers or internal security functions'' by opening up the possibility 
of such activity if ``permitted by law or as directed by the 
President.'' 

Has your proposal been characterized accurately in this regard? 

Mr. GOSS: No, sir, Mr. Chairman. I don't think that it's accurately 
characterized that way. 

If you'll permit, the purpose of that particular piece of legislation 
language was to open the door on a debate that must happen. This 
was done at a time, of course, when I was a Member of Congress 
and Chairman of the Committee and confronting the recommendations 
of the 9/11 Commission Report, which call for a blurring of 
the line between foreign intelligence and domestic intelligence collection 
for the first time. 

That deserves, in my view, a full, rigorous debate and full attention 
in the Congress of the United States. It is a very huge departure 
from what we've done in the past and the question is before 
us, how do we do domestic intelligence? How do we safeguard lib- 
erties, but how do we protect people? And I think Congress must 
be in that debate. 

Chairman ROBERTS: Do you support CIA performance of domestic 
law enforcement powers? 

Mr. GOSS: I do not believe that the foreign intelligence apparatus 
should be used domestically. I do believe law enforcement must be 
properly prepared with the adequate safeguards to protect us in 
this country and to protect our civil liberties. 

Chairman ROBERTS: You have already touched on this, but if you 
could briefly summarize, what did you hope to accomplish with this 
legislative proposal, other than to simply begin the debate? 

Mr. GOSS: At the time, it was to begin the debate, because it's 
a debate we had avoided, in my view, in Congress. We've raised 
this before in the Committee. 

At this time, my reason for emphasizing it and being very glad 
to receive this question is because I believe the DCI, whoever it 
will be--and certainly if I am nominated, I will be coming to you 
for guidance and clarity on how we proceed with dealing with that 
business with our intelligence and law enforcement capabilities. 

Chairman ROBERTS: In Steve Coll's book ``Ghost Wars,'' there is 
a quote that is attributed to the former DCI, Bob Gates, who said 
this: ``Bill Casey had not come to the CIA with the purpose of making 
it better, managing it more effectively, reforming it or improving 
the quality of intelligence. Bill Casey came to the CIA primarily 
to wage war against the Soviet Union.'' 

Mr. Goss, why, primarily, do you want to be the DCI? 

Mr. GOSS: Mr. Chairman, the reason is simply because I believe 
I can improve our capabilities. 

We need better product for our policymakers, we all know that. 
I believe the answer to getting that better product is rebuilding our 
eyes and ears, our capabilities in HUMINT, and reviewing the way 
we do business in our analytical areas. There obviously are some 
shortfalls there you yourself have pointed out in a very excellent 
product by this Committee, with the group-think issue on the 
WMD report. We have fragility in our national technical means 
which needs attention. 

These are all matters which must not wait. They must happen 
now. Intelligence is our first and best defense, especially in a preemptive 
global war that we are in. And I believe that we have the 
obligation to make the investment, which is actually a modest investment 
compared to some of the other investments our country 
makes. 

Chairman ROBERTS: This Committee has longstanding concerns 
about the National Reconnaissance Office's inaccurate cost estimates 
for satellite acquisition. Routinely, the National Reconnaissance 
Office's cost group sends Congress cost estimates that are far 
below any actual cost to procure intelligence satellites. Cost estimates 
that are prepared by independent groups outside the National 
Reconnaissance Office are much more accurate. 

To solve this problem, last year, Congress enacted and the President 
signed a law requiring that independent cost estimates be performed 
by either the Community Management Staff or the Department 
of Defense for all intelligence community programs costing 
over $500 million. It also required that the President's budget not 
exceed the projected levels in the independent cost estimate. 

Now, the National Reconnaissance Office is evading compliance 
with the law by insisting that its cost group estimates meet that 
law's requirements. I believe that the NRO is wrong. 

Will you assure the Committee that if confirmed you will budget 
to independent cost estimates produced by the Community Management 
Staff or the Department of Defense in accordance with the 
independent cost estimate law reported by this Committee and enacted 
in 2003? 

Mr. GOSS: Mr. Chairman, I shared your frustration with the 
problems that the ICE was used to resolve, is intended to resolve. 
I supported ICE. It is the law. I intend to comply with the law if 
I'm confirmed. 

Chairman ROBERTS: Mr. Goss, there's a saying attributed to John 
Paul Jones: ``Men mean more than guns in the raiding of a ship.'' 
Let's talk about the men and women in the intelligence community 
workforce, as you did in your opening statement. 

During your chairmanship, the House Permanent Select Committee 
on Intelligence has been adamantly opposed to a compensation 
reform pilot program enacted two years ago for the Central Intelligence 
Agency. Just as adamantly, the former Director, George 
Tenet, supported the pilot program and, in fact, had taken steps to 
make the program permanent. 

Where do you stand on CIA compensation reform? And I'll just 
leave it at that. And then I have one final question. 

Mr. GOSS: I believe that it must happen. My concern with the 
package as it was being handled was that we didn't have an opportunity 
to review the pilot program. I think the results of the pilot 
program on comp reform are extremely important, because it's such 
a unique workforce. You're absolutely correct, sir. The people are 
what intelligence is about. 

And they are unique the way they do their work. And I think 
we've got to get it right. I stand for a comp reform, but I want to 
make sure it's the right comp reform. 

Chairman ROBERTS: Let's talk about OPTEMPO in the remaining 
time that I have. What will you do to ensure that the men and 
women in the CIA's workforce receive the best training possible 
even during this time of very high tempo operations? 

Mr. GOSS: Mr. Chairman, thank you. 

There's no question that we have got good training facilities that 
are in further need of expansion and modernization. Further, we 
have programs--one would be the Roberts scholarship program, as 
a matter of fact--that provides in-training capabilities for some of 
our good men and women to enhance their capabilities and get 
them more focused on the needs we have today. 

There are a number of programs out there. We are requiring 
now, as a result of the work, I think, of the Oversight Committees, 
the NRO Commission, a lot of review that is going on. I found that 
in the past few weeks as I've introduced myself around the community. 

And I believe that we are going to have to invest more in some 
training programs. The will is there. The people want the opportunity. 
They would like to have things like competitive analysis-- 
those opportunities. There just aren't enough resources. There 
aren't enough analysts. 

So I think it's a combination of getting resources on the target 
that are the most important priority targets, and then making sure 
that we've got the right mix of people, the right diversification, to 
deal with the threats as they exist today and then providing them 
encouragement, career path and training to go do their job. And it's 
certainly a doable program. 

Chairman ROBERTS: I apologize to the Members of the Committee 
for going overtime. 

Senator Rockefeller. 

Vice Chairman ROCKEFELLER: Thank you, Mr. Chairman. 

Representative Goss, as I noted in my opening statement, I feel 
very strongly, as in our discussion last night, that the next Director 
of the Central Intelligence Agency has to be a person who has attributes. 

Attributes are not always changeable from one year to another. 
Attributes are, sort of, part of the make-up of how a person is or 
can be--it doesn't necessarily have to be, but can be. Those attributes 
have to be nonpartisan, independent and objective. 

On March 8th of this year, you co-authored an intelligence oped 
piece called ``Need Intelligence? Don't Ask John Kerry.'' In it, 
you made a number of highly charged partisan, in my judgment, 
allegations, and here are a few. ``When Democrats controlled the 
Congress, the cuts were deep, far-reaching and devastating to the 
ability of the CIA to do its job to keep America safe.'' 

During the Clinton years, ``the intelligence community was given 
a clear message that if they failed in politically risky operations, 
which presumably could yield the best information, there would be 
no backing from the Clinton White House or the Democratic-controlled 
Congress.'' 

And then you targeted Senator John Kerry, who you claim ``was 
leading the way to make deep and devastating cuts in the intelligence 
community's budget, and was leading efforts in Congress to 
dismantle the intelligence capabilities of the Nation.'' 

A few months later, in a June 23, 2004, statement on the floor 
of the House, you claimed the Democratic Party did not support the 
intelligence community. In the same floor debate, in June, you said, 
``My comment is that when there was opposition to intelligence and 
year after year efforts to cut the intelligence budget, they did come 
from the Democratic side through the period of the 1990s.'' 

I have a number of questions about these statements and claims. 
As you know, it's very difficult to talk publicly about budget 
issues. They are classified. But I want to present some facts to the 
extent that I can do so and ask how these fit into your statements 
and whether you stand by these statements. 

First, let's look at whether the Democrats under President Clinton 
were guilty of not supporting the intelligence community as you 
claim. During the first two years of the Clinton Administration, the 
intelligence budgets declined. This was a period of deep cuts in almost 
all areas of government as we tried to grapple with the legacy 
of the previous 12 years of, frankly, uncontrolled deficits. 

Over the next six years, however, the Clinton Administration 
budget requests increased every single year. During that six-year 
period, 1996 fiscal to 2001 fiscal, Republicans controlled both 
houses of Congress and the Congress cut the President's request in 
1996, 1997, 1998 and 2001. In 1999, the Republican-controlled Congress 
initially cut the intelligence budget, but then passed a large 
one-time supplemental appropriation. 

In fiscal year 2001, the Republican-controlled Congress returned 
to its pattern of cutting intelligence funding. After the 9/11 attacks, 
the Congress once again passed an emergency supplemental funding 
bill. By that point, the Democrats had a majority in the Senate. 

Now, you voted for every intelligence authorization bill and every 
defense appropriations bill during this period. So you must've 
thought that underfunding President Clinton's request was at least 
within some acceptable range. 

Now let's look at exactly what Senator Kerry proposed in 1994 
and contrast that with the bill, H.R. 1923, introduced by Representative 
Solomon with you listed as the primary co-sponsor. 

In 1994, Senator Kerry introduced a bill to cut the deficit by $45 
billion over five years. 

I'm having charts put up. In my 20 years in the Senate, I've 
never used a chart before. That's a rather boring chart because 
that was all the CIA said I could do. But we can discuss this. 

[Laughter.] 

Vice Chairman ROCKEFELLER: I'm not gifted artistically. 

Chairman ROBERTS: Are you sure it's not a Mondrian painting? 

Vice Chairman ROCKEFELLER: That was a good line, Pat. 

[The chart referred to follows:] 

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

Vice Chairman ROCKEFELLER: Now, let's look at exactly what 
Senator Kerry proposed. He introduced a bill to cut the deficit, as 
I said, by $45 billion over five years. Again, you will recall the Congress 
at that time was searching for ways to undo the 12 years of 
uncontrolled deficits. Senator Kerry's proposal would have rescinded 
$1 billion from the 1994 intelligence appropriations and 
then increased intelligence spending over the next four years by 
the inflation rate. 

Your proposal in 1995 would have cut not less than 4 percent of 
the personnel from all intelligence agencies in each of the next five 
years. 

I have a chart that shows what each of these proposals would 
have done to intelligence spending in the aggregate had they been 
enacted. The top left line--and I hope this has been distributed to 
the Members--is what would have been spent had Senator Kerry's 
legislation been enacted. And I can make it no more complicated 
than that, can't put any numbers, because, again, of the CIA classification, 
which you understand very well. 

The lower line, which is red, is what would have happened to intelligence 
spending had your proposal become law. I intended to 
show how these two proposals compared to the actual spending, 
but, again, the CIA told me that I couldn't do that. And I will attempt 
to do that if we have a classified session. 

Now, after the initial cut in 1994, Senator Kerry's proposal would 
have provided significantly more funding for intelligence than was 
appropriated by the Congress, controlled by the Republicans that 
Congress, beginning with the fiscal year 1996 budget. 

Your proposal, on the other hand, after the initial year where it 
would have been higher than the actual spending, but still lower 
than Senator Kerry's suggested level of spending, would have resulted 
in dramatically lower intelligence funding. 

In fact, John Kerry's proposal would have resulted in $8.8 billion 
over that period of time in more spending for intelligence than your 
bill. And worse, all of the cuts you proposed in 1995 would have 
been achieved by firing 20 percent of America's intelligence officers. 
In fact, had we followed your plan, sir, the intelligence community 
would have had tens of thousands of fewer intelligence officers 
in 2000, fewer intelligence collectors in the CIA, the NSA and elsewhere, 
fewer intelligence analysts across the community, fewer intelligence 
officers in the military services, fewer counterterrorism 
officers in the FBI. 

The Goss plan would have made, using your own words, ``deep 
and devastating cuts in the intelligence community budget,'' I'm 
forced to conclude. But this year, an election year, you chose to 
level that charge against the Democratic Party as a whole and 
John Kerry by name on the floor of the House. 

So my questions simply are, how do you reconcile these facts 
with your charge that it was the Democrats that did not support 
intelligence? Do you stand by your claims? And why did you feel 
it necessary, in terms of this question of being nonpartisan and all 
the rest of it, did you feel it necessary to do that? 

Mr. GOSS: Thank you, Mr. Vice Chairman. 

Your opening question I think was the question of if a person has 
attributes, are they so intense that they can't be changed, or so 
much of the foundation? 

I think my colleague from Florida, Senator Graham, made it very 
clear that I have had times in my life when I have been very nonpartisan. 
I prefer nonpartisanship. And frankly, what comes more 
naturally to me is nonpartisanship. I don't mean bipartisanship, I 
mean nonpartisanship. And certainly in national security that 
would be very, very critical. That's the way I've tried to run the 
Committee. 

My public record is my public record. Today I am before you as 
a candidate for a nomination to a job where it would be entirely 
inappropriate to make anything that looks like a partisan comment. 

So my answer to your question, sir, respectfully, would be the 
record is the record. It is true there is a record and anybody is welcome 
to look at it. I have made a commitment to nonpartisanship 
if nominated to the DCI job. Thank you, sir. 

Vice Chairman ROCKEFELLER: Mr. Chairman, my time has expired. 
Thank you, sir. 

Chairman ROBERTS: With apologies to Senator DeWine, I want 
to make a point of clarification to answer a question in my own 
mind. 

Is this the same 1995 bill that Jerry Solomon, who was a very 
unique Member of Congress, born about 10 yards offside in regards 
to fiscal discipline, every year would introduce his balanced budget 
amendment? And as a Member of the Rules Committee, he was 
Chairman and you were on the Rules Committee, and this was not 
your bill, but you did co-sponsor it, and that this bill never even 
came to a vote because Chairmen like myself, then the Chairman 
of the sometimes powerful House Ag Committee, became very disturbed 
when I learned about this budget. 

And so, at least it was proposed, but it never came to a vote. Is 
that correct? 

Mr. GOSS: Mr. Chairman, the record speaks for the record, as I 
said to the Vice Chairman. I think you've read it properly. 

Chairman ROBERTS: Senator DeWine. 

Senator DEWINE: Congressman Goss, thank you very much for 
being with us. 

You have been, throughout your career, a strong proponent of 
human intelligence. You and I have had discussions in the past 
about our concern about human intelligence. I wonder if you could 
tell us where you think the Agency is and the community is today 
in regard to the building back up of human intelligence and where 
we are today. 

I wonder if you could also comment--the former DCI, Tenet, estimated 
that it would take at least five years to get where we should 
be in regard to HUMINT. I wonder if you could comment about his 
perspective on that. 

And in doing so, I wonder if you could also talk about the issue 
of the use of NOCs. This is something that I've been concerned 
about. If you'll recall, when we had our joint investigation into September 
11th, I actually filed supplemental comments where I 
talked about the use of NOCs and I thought that we should be 
using them more in the community. I wonder if you could talk 
about that as well. 

Mr. GOSS: Senator, yes, on a scale of 10, we're about three on 
build-back. In terms of years, I don't believe five is enough, but I 
can report some good news, that in my estimation that we have 
some that we will be able to bring on before five years is up. But 
the great bulk of what we need is more than five years out there, 
in terms of global eyes and ears coverage on the core mission, 
which is close-in access to the plans and intentions of the enemy, 
the mischief-makers, and other things we need to know in this 
country for our national security. 

It's a long build-out, a long haul. It's been started. It needs continuous 
monitoring, attention, pushing and help. And it's certainly 
going to take the help of this Oversight Committee, as well as all 
the management on the Executive side. 

On the question of how we do our business overseas, I want to 
be very careful what I say in an open session. 

Senator DEWINE: I understand that. 

Mr. GOSS: But I do agree with your observation that different 
types of platforms and different ways of doing business are entirely 
not only relevant, but necessary. And I believe that that is now understood 
in the community. It is certainly my position, very close 
to yours, that that's the type of business we're going to have to do. 

I am looking for innovation. And I believe that the type of the 
target and what I call the adjustment of the capability requires 
dealing in different ways with the enemy. 

Senator DEWINE: One follow-up question in regard to human intelligence. 
So what you're telling us is that you believe that it's 
going to take more than five years to get where we need to be in 
regard to that. 

Mr. GOSS: That's my estimate, sir. I will admit that I've only 
been doing homework for a couple of weeks, but in my previous position, 
combined with that homework, that would be my estimate. 

Senator DEWINE: That's a rather frightening answer, but I appreciate 
your candor. 

Mr. GOSS: Candor's important, sir, especially with an Oversight 
Committee. 

Senator DEWINE: Absolutely. 

Let me ask another question in regard to a general policy issue. 
And I understand this is a policy issue, and I understand the job 
that you're up for. But use of supplementals is something that is 
very bothersome to me, and I believe it inhibits us from doing our 
job. But in the job that you will be, we hope, heading into, I believe 
it will also pose some problems for you in doing your job. 

I wonder if you can comment about that in general, understanding 
that you would be part of a budget team and that you 
won't be making all of those decisions. 

Mr. GOSS: Senator, I won't make a policy comment, but I will 
make a manager's comment. If confirmed, I assure you that my 
management style would not be based on supplementals. I like to 
do more comprehensive planning. I like to have a better idea of 
what the tooth-to-tail ratios are on some of these activities. Very 
hard to do that with supplementals. 

Understanding what the OPSTEMPOs are going to be, the kinds 
of things we're going to be engaged in is, obviously, predictive. But 
I think that you have a better chance of getting your efficiencies 
and your resources in the right place, in the right time, in the right 
amount if you have a plan rather than if you're just ad hocing it 
with sups. 

Senator DEWINE: I think there's a general consensus among at 
least the Senate Intelligence Committee that we have not historically 
done as good a job in oversight as we should have. I think 
there's some institutional problems connected with that. I wonder 
if you could possibly comment on what as the future CIA Director 
you could do to help us do our job in oversight. 

Mr. GOSS: Senator, a lot of recommendations about oversight-- 
I believe this Committee labeled the oversight dysfunctional. I paid 
a lot of attention to that in my former position, of course. 

I don't think it's appropriate for me today to talk about how the 
Congress of the United States ought to solve its oversight problem. 

Senator DEWINE: That was not my question. 

Mr. GOSS: I agree. And I wanted you to understand why I was 
not going to go there. 

I do think oversight is a critical, complementary part of the arrangement. 
I think it takes candor with the DCI or whoever is 
leading the intelligence community, the elements of the community. 
It takes understanding. 

This is complex business, as you well know. Just learning the 
jargon of this business takes a degree of education and getting used 
to. And I worry a lot that we always have a supply of knowledgeable 
Members of Congress on the Oversight Committees who can 
participate in the constructive and innovative, creative solutions 
we're needing to have to deal not only with the management, but 
with the policy questions of how we apply the capabilities. Because 
I don't ever want to be put in the position, if I'm confirmed, of 
building capabilities for the wrong policies. 

Senator DEWINE: If I could follow up, you sat where we are sitting 
and you sat there for quite a while. 

Mr. GOSS: Yes, sir. 

Senator DEWINE: And you, I'm sure, have some of the frustration 
that at least this Member has felt in trying to get answers from 
the Agency, at least from some of the witnesses in the Agency. 
What can you do to alleviate some of that problem? 

Quite candidly, not all of the witnesses that come before this 
Committee are as forthcoming as you are today, Mr. Goss. What 
are you going to do as the leader of that team to make sure that 
the people who come up here have as their mission to be not only 
as open to answer the questions that are specifically narrowly 
asked, but trying to be as forthcoming as possible? Sometimes we 
get the impression that you've got to ask just precisely the right 
question, and if you don't ask it the exact right way, you're not 
going to get the right answer. 

You set the culture. You're going to set the culture for this team. 
How are you going to do that? 

Mr. GOSS: Senator, I share your frustration from my past position. 
If you confirm me as DCI, you are going to get just as candid 
presentations from every member of the community that are before 
your Committee as you get from me. 

Senator DEWINE: And your commitment to us is that that will 
be part of your mission, to drive that culture down through your 
team and to hold people accountable to do that? 

Mr. GOSS: Yes, sir, that will be the standard. And if there are 
complaints about it, there will be ways to deal with it. 

Senator DEWINE: We have also been very frustrated, of course, 
with the National Intelligence Estimate in regard to Iraq and the 
weapons of mass destruction. 

A very general question, but I think important question, is you've 
looked at this, you've studied it. What were the lessons that you 
learned from this failure and what are you going to do to ensure 
that the next major NIE that is produced by the community does 
not have that kind of problem? What have we learned? 

Mr. GOSS: I think the two major things we learned is we didn't 
have enough collection. Obviously, we all know we didn't have that 
close-in access for plans and intentions. Therefore, we didn't have 
enough for the analysts to work with. And what they did work with 
they did not work with in a creative enough way. I believe that the 
WMD report that your Committee has put out has basically hit just 
about every possible point you could hit on that. 

I know that the community, even before your report came out, 
on the analytical side has started to go back and talk about why 
they have not had the necessary remedies to group-think, as your 
Committee expressed it, why they've not had more competitive 
analysis, why they have abandoned some of the tradecraft, why 
they have been not doing some of the things that should have been 
done. 

So I know that there is a bit of energy and a bit of vision already 
being expended. That needs to be reinforced. 

I don't think there's any question now in hindsight that it wasn't 
our best possible job by any means. I think people did it honorably, 
sincerely, but the way I characterized it in my letter to the Committee 
was they didn't test conventional--excuse me, to the community, 
my letter to the community back last September, I think 
it was, co-signed with Ms. Harman--was they didn't test conventional 
wisdom enough. 

There are questions in the caveating, all of those kinds of questions, 
so that the reader, the consumer of the product, clearly 
knows what is known, what is not known and what is predictive. 
I think those things help the product consumer very much as well. 

So I think those are the areas of understanding there, now it's 
the question of employing it. And we need some more analysts, I've 
got to tell you that, too. 

Senator DEWINE: Thank you very much. 

Thank you, Mr. Chairman. 

Chairman ROBERTS: Senator Wyden. 

Senator WYDEN: Thank you, Mr. Chairman. 

Mr. Goss, I have always enjoyed working with you. We go back 
to our House days, and I always try to be bipartisan in this field. 
Senator Lott and Senator Snowe and I are, for example, trying to 
overhaul the way government documents are classified. 

But I will tell you this morning, I am very troubled and have serious 
reservations about your commitment to intelligence reform. 
And I want to be very specific about why that's the case. 

As eight-year Chairman of the Committee, you essentially had a 
front-row seat to terrorist attack after terrorist attack--the embassies 
in Africa, the USS COLE, 9/11. You served on several commissions, 
the Joint Inquiry into 9/11 during 2001 and 2002, the Brown 
Commission. You saw all of these terrorist attacks. You were part 
of these various commissions advocating change. 

You were in the Congress for 16 years, introduced scores of bills, 
but it wasn't until a few months ago that you introduced any legislation 
at all to reform the intelligence community. Why wouldn't 
you have acted earlier if you were serious about intelligence reform? 

I mean, for example, when we were dealing with the Homeland 
Security bill, why wouldn't you have said, ``We'd better be dealing 
with intelligence reform right now too, because the system is broken''? 
Why did you wait until just a few months ago to introduce 
legislation on intelligence reform? 

Mr. GOSS: Senator, as I've said, the record is the record and 
there is no question that I am in the public record as a Member 
of Congress appropriately trying to espouse what I thought were 
the right views about intelligence, which indeed include reform. 

I don't think there's any question about my commitment to reform. 
I'm totally committed. I wouldn't be sitting here if I didn't 
think we were going to have reform in the intelligence community 
and the opportunity. 

The questions that frustrated me the most, honestly, looking 
back, are the questions of audience. It was hard to get attention 
and, if I failed, it was perhaps in getting attention. And I think 
there was a lot of frustration on the Committee that we weren't 
able to get the attention for some of the things we thought needed 
to be done. 

In fact, I think if you look at Chairman Roberts' bill that he has 
put in and go back to, I think it was, 2002, you would find in the 
HPSCI authorization bill, which is where we did put all our legislation, 
as you know, you would find in that legislation a recommendation 
that the intelligence community consider a reform 
that actually looks sort of similar to the bill that Senator Roberts, 
I understand, put out. 

Senator WYDEN: I would only say to you, Mr. Goss, you were 
Chairman of the Committee. You were in a position to get attention 
to this issue, and yet you didn't do it. And your answer today is, 
``Well, I'm committed to reform.'' And we're supposed to accept you 
at your word, and essentially look at this record of eight years and 
literally 16 years in a favorable way. 

I'm not there yet. And I'm going to be here through this entire 
hearing, but you're going to have to show me in the course of these 
hearings a commitment to reform specific instances, because you 
didn't give me an example, a concrete example, of how you were 
committed to intelligence reform just now. 

And the second area I'd like to get into deals with this bill in 
June. And I want to know specifically whether you favor today 
what is in your June 16th bill, which is giving the CIA the power 
to arrest American citizens in the United States. Do you favor that 
provision that was in your bill? And I just would like a yes-or-no 
answer. 

Mr. GOSS: No. 

Senator WYDEN: You do not favor that provision? 

Mr. GOSS: No, sir, I've already answered that question for Chairman 
Roberts. 

Senator WYDEN: You did not answer that question specifically. 
You, in my view, talked generally about it, but I appreciate your 
answer, so we're clear that that 57-year-old ban--that's what's on 
the books now with respect to the prohibition on the CIA arresting 
Americans in the United States--you will not favor changing that 
as CIA Director? 

Mr. GOSS: The CIA should have no arrest powers in the United 
States of America. 

Senator WYDEN: A question dealing with the commitment, again, 
to take on the tough issues and challenge the Agency is the focus 
of this question. 

The Senate has cooperated with an ongoing Department of Justice 
inquiry into the shooting down of an American missionary 
plane in Peru. This was a matter, as you'll recall, that in a program 
that the CIA was involved in, an American missionary and 
a baby were killed. The Senate is cooperating fully in that inquiry. 
Has your Committee fully cooperated in that inquiry and shared 
documents on the investigation? 

Mr. GOSS: To the best of my knowledge. 

Senator WYDEN: I think you'd better check again. It is our understanding 
that the Committee has not cooperated, is not sharing 
documents. And the reason that I feel this is important is it goes 
to your willingness, looking at the past, to take the Agency on. 

The Senate has been willing to do it. The Senate has been willing 
to say that we're going to cooperate with the matter. And my understanding 
is that the House is not fully sharing documents in 
this matter. And I consider it important. 

The next area I'd like to ask you about involves political accountability. 
You have said in the past that the Agency is risk-averse. 
And I think that's an important statement, and one that I largely 
share. The reason that I think that may be the case is that when 
things go wrong, the Agency takes the hit and political officials, 
particularly in the Executive Branch, get off the hook. 

I'd like to know what you would do to support political accountability 
so as to give your agents more confidence in terms of being 
willing to take risks. 

Mr. GOSS: Risk-aversion is a very important part of this, and rebuilding 
the morale and giving people the latitude to do the jobs 
and standing behind them is just plain good leadership and good 
management. And that, surely, is something that I have in mind 
and, if confirmed, will practice. 

My attitude toward the intelligence community and, I guess, my 
alma mater, the CIA, is one of tough love. I very much want to see 
our men and women in the intelligence community succeed in their 
work for not only their own sake, but for the safety of all Americans. 
That is our first defense, in my view, of our national security. 
So I think all the motivation and all the forward lean on this that 
could be out there is very, very important. 

I will stand up for what is fair and just on behalf of the people 
of the intelligence community. And I will hold accountable those 
people who are out of bounds. I believe that accountability works 
both ways. Those should be celebrated who do good work and those 
who don't need to be corrected. 

Senator WYDEN: Why did you vote against the 9/11 Commission, 
the creation of it? 

Mr. GOSS: Sir, the record will speak for the record. I believe that 
I did support the composition of the 9/11 Commission. 

Senator WYDEN: But you were opposed to it originally. 

Mr. GOSS: Senator, my reason for opposing it was the same as 
some of my colleagues in this chamber. I did not believe that a simultaneous 
investigation would be in the best interest of getting 
all the facts out in a very straightforward way and getting an efficient 
investigation done. 

I did very much support the idea of a sequential investigation, 
very much understanding that we would never, in our Joint Inquiry, 
get it all done, and said so many times in the Joint Inquiry. 
The record will be clear on that. 

But actually I am very proud--I'll accept some paternity for the 
setting up of the 9/11 Commission and the fact of the way we set 
it up so that they came up with a bipartisan, good-quality book 
which I would recommend to every American, at least the first 338 
pages which deal with what happened. I believe that it is a fine 
product. And I, frankly, think there will be more of the mosaic in 
the future filled in. 

Senator WYDEN: I think it's an excellent product. 

I'm concerned that if you had had your way, at least originally, 
we wouldn't have had the product, and that's what troubles me. 

Let me ask you, if I might, about Ahmed Chalabi, because you 
led a party-line vote to reject an amendment that would have authorized 
an inquiry into dealings with Ahmed Chalabi. Now, this 
was even after allegations that Chalabi had leaked U.S. military 
secrets to Iran. You said, ``I would say that the oversight has 
worked well in matters relating to Mr. Chalabi.'' I find that very 
hard to believe. 

Do you still feel that oversight has worked well with respect to 
Ahmed Chalabi? 

Mr. GOSS: Yes, sir, I do. 

Senator WYDEN: As Director of the CIA, would you initiate an investigation 
into whether an assumed American ally provided intelligence 
information to an adversary? 

Mr. GOSS: Of course, if it were credible. 

Senator WYDEN: And why do you believe that the system worked 
well with respect to Mr. Chalabi? 

Mr. GOSS: I believe the issues about Mr. Chalabi, which are extensive, 
have been generally well understood. I think that all of the 
questions have been raised and I think the appropriate investigations 
that follow on are taking place. I don't think oversight gets 
much better than that. 

Senator WYDEN: Mr. Chairman, my time has expired. 

I would just say to Mr. Goss that, despite my affection for you, 
the answers you're giving me today suggest that it's going to be 
business as usual at the Agency if you're confirmed. Now, I intend 
to be here throughout the day. I hope we'll actually have a second 
hearing. I hope you can convince me otherwise. 

My time has expired, Mr. Chairman. 

Chairman ROBERTS: Senator Levin. 

Senator LEVIN: Thank you, Mr. Chairman. 

Let me add my welcome to Mr. Goss. 

This nomination is being considered in a context, as a number 
of colleagues have pointed out, of proposed reforms following failures 
of intelligence before 9/11 and following massive pre-Iraq failures 
of intelligence. To my mind, at least as important is the structural 
reforms which are under consideration and even arguably 
more so in terms of importance, is the need to assure the independence 
and objectivity of intelligence analysis. 

A more powerful national intelligence director with greater authority 
over intelligence budgets and personnel could be appropriate, 
with a big ``if''--if that increased power is used to help ensure 
the independence and the objectivity of intelligence analysis 
and if it's not used--as it must not be used--to promote policy. Intelligence 
is not supposed to be promoting policy. It's supposed to 
be informing policymakers and I just don't want a more powerful 
national intelligence director to be a more powerful yes man, for 
whatever Administration is in power. 

I don't want someone who says that something is a slam dunk 
when it isn't to the President of the United States. I don't want 
someone who says publicly something that is different from what 
the classified material says, thereby supporting policy of an Administration 
with those kind of public statements. 

And that's what I have to become comfortable with relative to 
your nomination--not to you personally, but to the nomination that 
we're talking about to this job and whether you are the right person 
for this job, given the statements which you have made, the positions 
which you have taken relative to a number of intelligence 
matters. 

You were quoted yesterday in The Washington Post as saying 
that you would not use the term ``failure'' to describe the intelligence 
lapses before 9/11. Was that accurate? 

Mr. GOSS: I think it's partially, in context. I think I added some 
other words. 

Senator DEWINE: Were there significant intelligence failures 
prior to 9/11? 

Mr. GOSS: In the sense that the intelligence did not prevent the 
attack, yes. In that sense that the intelligence was not the full 
problem, no. 

Senator LEVIN: But would you use the term ``failure'' relative to 
the 9/11 intelligence? 

Mr. GOSS: In the contemporary sense that our intelligence failed 
us, I would. 

Senator LEVIN: As a matter of fact, the report that we all issued, 
the two Committees issued, uses the word ``failure'' over and over 
and over again. But you seem to have some reluctance, or you did 
relative to that interview, to use the term. I'm glad you're willing 
to use the term. 

Now, what about prior to Iraq? Would you say that there were 
massive intelligence failures prior to the Iraq war? 

Mr. GOSS: Are you referring to the WMD, the material that was 
given to our---- 

Senator LEVIN: The 500-page report of this Committee. Would 
you say that there were massive intelligence failures prior to Iraq? 

Mr. GOSS: I would say there were intelligence failures. The degree 
question is probably going to be in the eye of the beholder. 
They were certainly significant, and they were not up to standard. 

Senator LEVIN: In your eye, were there significant failures? 

Mr. GOSS: Yes, sir. In my eye, there were significant failures in 
our intelligence, in the product that was delivered, and that's why 
the product has to be better. 

Senator LEVIN: All right. The product that the CIA delivered? 

Mr. GOSS: The product that the intelligence community delivered, 
sir. 

Senator LEVIN: And would that include the CIA? 

Mr. GOSS: Yes, sir, of course. 

Senator LEVIN: And were there significant failures in the public 
comments of the Director of the CIA, in terms of his statements 
about what the intelligence showed? Would you say there were inaccuracies, 
omissions, distortions and failures on the part of CIA 
Director Tenet in his public statements, many of which were analyzed 
in that 500-page report, by the way? 

Mr. GOSS: I believe that Director Tenet spoke forthrightly with 
what he truly believed at the time. 

Senator LEVIN: You think that he distorted? 

Mr. GOSS: I don't think he had the full--I don't think he distorted 
intentionally, no. 

Senator LEVIN: Do you think he omitted? 

Mr. GOSS: I don't know that, sir. 

Senator LEVIN: Do you think he exaggerated? 

Mr. GOSS: I don't know that. 

Senator LEVIN: And did you read our report? 

Mr. GOSS: Yes, sir. 

Senator LEVIN: Do you agree with our report? 

Mr. GOSS: Yes, sir. Generally, I've read obviously a huge report. 
It has a lot of blackout in it, as you very well know, redaction. Too 
much probably. And I've read all 117 of your conclusions. I'm sorry 
there weren't some recommendations to follow. Perhaps there will 
be.

Senator LEVIN: Well, hopefully there will be. That's phase two, 
apparently. 

Chairman ROBERTS: It's the Roberts bill, by the way. I just 
thought I'd, you know, toss that in. 

Senator LEVIN: This is one of the conclusions in that report, that 
most of the major key judgments in the intelligence community's 
October 2002 National Intelligence Estimate called ``Iraq's Continuing 
Programs for Weapons of Mass Destruction'' either overstated 
or were not supported by the underlying intelligence reporting. 

Mr. GOSS: I think I agree with that. 

Senator LEVIN: Now, you were also quoted in yesterday's Post as 
saying that--after saying that you would use the word ``failure'' to 
describe the intelligence lapses before 9/11--that's what The Washington 
Post said you said--you then are quoted as saying the following: 
``I don't like to see the left wingers splattering mud on an 
agency that's done some very fine work.'' You allegedly said that 
in 2002. Was that an accurate quote? 

Mr. GOSS: I have no idea if it's an accurate quote or not in 2002. 
I don't know what the context was. I do believe that we need a 
forthright, nonpartisan look at our intelligence weaknesses, failures 
and needs. 

Senator LEVIN: Does that reflect your views, however? 

Mr. GOSS: Which? 

Senator LEVIN: That quote. 

Mr. GOSS: That what? 

Senator LEVIN: You don't like to see the ``left wingers splattering 
mud on an agency''? 

Mr. GOSS: Let me put it this way, Senator. I don't believe that 
anybody should be unfairly criticizing men and women who are 
working in our intelligence community, particularly when we're at 
a time at war, unless there is real justification for it. 

Senator LEVIN: And do you think that that 500-page indictment, 
in effect, of the failures of the CIA represents splattering mud on 
the CIA? 

Mr. GOSS: No, sir. And that certainly was not the context of that 
quote. 

Senator LEVIN: But you don't remember making that quote? 

Mr. GOSS: No. 

Senator LEVIN: Your statement to Senator Rockefeller, on the 
numbers that he gave to you, is that the record is the record. 
That's an unacceptable answer, because if the record's inaccurate, 
it seems to me you ought to correct it. As a matter of fact, you said 
to the Chairman when the Chairman quoted from something in 
your record, you said that--and this is just a couple of minutes 
ago--''Mr. Chairman, the record is the record. You read the record 
properly.'' 

Did Senator Rockefeller read the record properly? 

Mr. GOSS: I think Senator Rockefeller read the record properly, 
and came to the conclusions he came to. 

Senator LEVIN: And do you disagree with any of the numbers-- 
there's no numbers there, but do you disagree with the statements 
that he made? These are very factual statements about what you 
supported as a Member of the House, and with intelligence cuts, 
comparing the bill that you co-sponsored to the proposal of Senator 
Kerry. Is that inaccurate in any way? 

Mr. GOSS: The record is accurate to the best of my knowledge, 
Senator. 

Senator LEVIN: Are his statements accurate? 

Mr. GOSS: Senator Rockefeller's statements? 

Senator LEVIN: Yes. Comparing the bill that you co-sponsored 
with the proposal of Senator Kerry, is that statement of Senator 
Rockefeller accurate? 

Mr. GOSS: Senator Rockefeller's statements are what he believes. 

Senator LEVIN: I want to know what you believe, not what he believes. 
I know what he believes, he just stated it very forthrightly. 
I need to know what you believe forthrightly. 

My question is, do you believe that those statements comparing 
Senator---- 

Mr. GOSS: Senator, I believe---- 

Senator LEVIN: I want to finish my question. 

Mr. GOSS: Sorry. 

Senator LEVIN: Do you believe that the statements of Senator 
Rockefeller comparing what was in your bill to what Senator Kerry 
proposed are accurate? Do you believe it was accurate? 

Mr. GOSS: The record is the record, Senator. And I don't believe 
that it is appropriate in any way, shape or form for me to get involved 
in anything that could be considered a debate about partisan 
matters. 

Senator LEVIN: I couldn't agree with you more. Let's talk about 
facts and numbers. That's what the two charts were. They were 
comparing numbers, without having the specific numbers, comparing 
the level of expenditures for intelligence. 

It's a very factual question, it's a very objective question. We're 
looking for objectivity, we're looking for independence. It's not going 
to be good enough for you to say, ``The record's the record,'' when 
you don't want to deal with the record, but when you do want to 
deal with the record, then comment on it. That isn't going to be 
good enough, at least for this one Senator. 

And this is not something, again, which is personal between us. 
It is something which is very essential to me, that we have confidence 
that whoever that director is in whatever Administration is 
going to be objective and independent and is going to call it as he 
sees it. 

And now the question that Senator Rockefeller asked, and I'm 
going to try to get you to answer, is whether or not that comparison 
of levels of spending that compared your bill, the bill that you 
co-sponsored, with what Senator Kerry proposed was an accurate 
representation. That is my question. And it's essential we get an 
answer to that question. 

Mr. GOSS: Senator, I believe that Senator Rockefeller believes 
what he said, and the record is clear on what my record is. The 
facts speak, the record, they're no different in the record. They 
speak for themselves. 

Senator LEVIN: They don't speak. You're speaking for them is 
much more significant at this moment for this Senator than just 
simply saying, ``The record speaks for itself.'' And I don't understand 
the reluctance in some cases to say ``Yes, that is an accurate, 
factual statement,'' where in other cases you are perfectly willing 
to say, ``No, I did say that,'' or, ``I didn't say that.'' 

For instance, you gave an answer to Senator Wyden saying you 
don't support something, even though the way the bill reads it 
might be interpreted the other way. It's just a direct question. And 
the reluctance troubles me to give a direct answer to a factual 
question--what your belief is, whether that is an accurate representation 
of the facts. 

Mr. GOSS: Senator, you've asked me what my belief is. 

Senator LEVIN: Do you believe it's an accurate representation? 

Mr. GOSS: I believe that the chart that Senator Rockefeller put 
up, as vague as it is, which has no facts on it, is put up there in 
good faith by Senator Rockefeller to make a point of the way he 
sees it. I believe people can interpret the record in different ways. 
That's why I'm not going to try to interpret the record. 

I made a very firm commitment that I would be nonpartisan and 
objective and straightforward and candid, and if nominated and if 
confirmed that I would take this job and deal with it and step away 
totally from my former job and let the record speak for itself. 

Senator LEVIN: Thank you. 

Vice Chairman ROCKEFELLER: Mr. Chairman, I just need simply 
to interrupt to say that I have all of the figures, and would be 
happy to sit down and go over those with you, if that's appropriate. 
But I have all of the figures about those bills. I just could not bring 
them before this open forum. 

Mr. GOSS: I understand that. 

Senator LEVIN: Perhaps we can then get an answer after you've 
reviewed those figures. We haven't gotten it now, and I don't believe 
that therefore meets the test you've just given, which is being 
candid and being open and forthright. Your answer does not meet 
that test. 

Chairman ROBERTS: Senator Warner. 

Senator WARNER: Thank you, Mr. Chairman. 

Congressman Goss, I welcome you and your lovely wife and join 
those in commending both of you for the willingness to take on 
what appears to be a very arduous and extraordinarily challenging 
new post. 

I want to be up front with you and tell you exactly where I'm 
coming from as we propose here in the Congress the legislative 
changes with regard to our intelligence structure. I want to be respectful 
of our President. I think he's taken some strong initiatives 
through Executive Orders and other ways. 

But I come back to my own personal convictions about the Central 
Intelligence Agency. I was privileged 35 years ago to enter government 
service as the Under Secretary and Secretary of the Navy, 
and I have continuously, except for a brief hiatus when I was running 
for the Senate, worked with that Agency. I think it is one of 
the most extraordinary institutions in our overall government. 

It is composed of individuals unlike those found in many other 
agencies of government. And you, having been in the ranks there 
in your career--distinguished career--I believe you share that and 
that's one of the strongest reasons I want to be a supporter for you 
in this post. 

I feel that if we go through this legislative change, whatever it 
may be at the moment, I personally am going to do everything I 
can to strengthen the integrity and the professionalism and the effectiveness 
of the CIA, and let no one try to crack it and break its 
morale, which could cause a disaffection of this extraordinary group 
of professionals that are serving all over the world, in many places, 
as you well know, taking personal risks equal in every respect to 
those of the men and women of our armed forces. 

So, having said that, I listened carefully as our distinguished 
Chairman and Ranking Member and others talk to you about your 
background and your ability to be bipartisan or nonpartisan or 
however it is--we use those phrases interchangeably rather loosely 
up here. 

But the fact that you're an elected official and perhaps the second 
only in history to take the post to which you've been assigned 
I think is a great credit, because you bring an extraordinary knowledge 
of government and the dynamics which make government 
work. 

And I think if you look back over many of your predecessors, a 
number of whom I had the privilege of knowing personally and 
working with, while they may not have been elected officials, they 
were no fools when it came to politics. And I'm confident that you 
can fulfill this post without ever suffering any accusations of being 
political. 

The Chairman opened the discussion with reference to the ghost 
detainee issue. I had extensive briefings on Friday from the Agency 
and I participated with the Chairman and other Members of this 
Committee yesterday on the subject of the ghost detainees. And 
you gave very clear answers. 

But I want to clarify something in the record. I want to go back 
to an Associated Press story of September 3 this year. 

``Washington: Porter Goss, tapped as the next CIA Director, says 
the Senate lacked, quote, 'balance in its public hearings in investigating 
the Iraq prison scandal and should not have plucked military 
commanders from the field to question them about the 
abuse.' '' 

Now departing from this momentarily, as Chairman of that Committee, 
I indicated to the Secretary of Defense in a letter a number 
of witnesses who we felt should come before the Committee at 
times convenient and in no way to interfere with their military duties. 

The Secretary called me personally and said General Abizaid and 
Sanchez are in Washington. They're available and we had them as 
witnesses. They were not plucked from their duties. They came at 
the direction of the Secretary in connection with their appearances 
here in Washington on other matters. 

But I continue: ``During one interview in May, the eight-term 
House Republican and Floridian said he couldn't count the number 
of ongoing prison abuse investigations, but, 'We've got the circus in 
the Senate, which is always the likely place to look for the circus.' 

``Even though I say that lightheartedly, I do honestly question 
whether or not they have balance over there on this issue.' '' I continue 
your quote: ``It seems to me pulling the general in charge of 
the troops in a hostile combat situation back to explain something 
that they don't need him for and he doesn't have the answers to, 
and he could get the information through subordinates anyway, it 
seems to me to be some very stylish interpretation of oversight,' 
Goss said, 'and probably unnecessary, and perhaps not helpful to 
the war effort. I am not comfortable with what the Senate is doing,' 
he added.'' 

I think this is an appropriate time, in light of the questions by 
the Chairman with regard to this ghost detainee issue, which I consider 
a very serious one, along with the whole subject, that I believe 
that the Senate has treated very conscientiously. And it's interesting 
that the House Armed Services Committee was somewhat 
dismissive of the issue in the beginning, but subsequently that 
Committee has conducted just about every single hearing that the 
Senate has had on the subject in a very thorough and professional 
way. 

So I don't mean to dwell on that, but if you want to say a word. 

Mr. GOSS: Senator, thank you for the opportunity. 

In the first place, I did not know of your conversation, in your 
capacity as Chairman, with the Pentagon. Had I known that, I 
probably would not have made that statement. In fact, I certainly 
would not have. 

My statement was based on dealing with members of the military 
who were witnesses who had appeared before our House Committee, 
and they were concerned that we were getting in the way 
of their first jobs. That was why the statement was made with regard 
to do we need our people here or there. And I think that your 
clarification of that illuminates it for me, and I think you are right. 

With regard to the question of needing to investigate, obviously 
we needed to investigate. My issue then was the question of how. 
Back then, in May, there was quite a feeding frenzy going on in 
the media over the very sensational photographs that were out 
there, which, unfortunately, our Committees had the responsibility 
of overseeing, and they were--disgusting is not a strong enough 
word. 

But putting the perversion aside and going to the issue of our 
Committee, my worry about balance was the question of the balance 
between getting it right on interrogation, which is a critically 
important tool for intelligence, having professional interrogators 
able to do their work--professional interrogators. Torture is never 
tolerable, and it's not anything that a professional interrogator 
uses. 

Senator WARNER: I think I accept your answer. 

Mr. GOSS: Thank you, sir. 

Senator WARNER: In terms of the role of the CIA Director in this 
coming legislative environment, again, I want to work on a provision 
along these lines. And that is, I'm a firm believe that competitive 
analysis and differing views are some of the pillars of strength 
in our intelligence system. I want to preserve that, at the same 
time supporting the President's initiative for a NID. 

But on the assumption there will be instances where the CIA Director 
could have a strong, personal, differing view than that held 
by the NID, I'd like to have it written in law, if necessary, that 
that individual, be it yourself or successors, has the opportunity to 
go directly to the President and provide those views. 

Let me give you an example. When I and many others worked 
on the Goldwater-Nichols Act--and yesterday in that seat sat Colin 
Powell, former Chairman of the Joint Chiefs--we wrote in that 
while the Chairman is the principal military adviser to the President, 
if one or more of the other uniformed service chiefs have differing 
views, they can have access to the President to express those 
views in the presence of the Chairman or however it was done. 

Something along those lines, I think, is needed for your post. And 
I wonder if you share that view. I might say Colin Powell said that 
he was intrigued with it, and he felt it was worthy of careful examination. 

Mr. GOSS: Senator, I think it's a very important observation you 
have made. How the reorganization comes out, and how the network 
is stitched together, and how the intelligence community is 
stitched together and what are the positions is unclear to me, and 
it will be the job of the Congress. It will not be my job. 

But you asked me specifically do I think there should be the opportunity 
of the person who is in charge of dealing with our clandestine 
services and our intelligence product that makes up, basically, 
the most important briefings the President and his national 
security people get--do I think that that person should have the 
ability to talk to the President of the United States? Yes, sir, I do. 

Senator WARNER: Thank you very much. Well, I hope that we 
will provide that in a way, if necessary, in law. 

Mr. GOSS: Thank you, sir. 

Senator WARNER: The President, 24 hours a day, seven days a 
week, needs intelligence. You know that full well. The military, certainly 
in the tactical level, likewise needs it 24 hours a day. 

Now, assuming we enact a new law, I'm concerned about how we 
implement and transform the present system in such a way, at a 
time when this Nation is at war, we don't lose a single heartbeat 
and it is not perceived by any adversary now is the time to strike 
America because they're reshuffling this intelligence system. 

What guidance could you give the Congress with regard to how 
we may incorporate that in law, or certainly report language, so an 
orderly transformation does not leave a single heartbeat, a weakness, 
in our system? 

Mr. GOSS: Sir, that will be your job. And it would be probably 
inappropriate for me to tell you how I would like my job description 
carved out. 

But I will be very candid and say I totally agree that there can 
be no slippage, and we must not lose sight of the fact that the 
warfighter, to support our military operations when we are at war, 
must have every possible priority and consideration. We know 
there's frictions between the national consumer and the military. 
Those are an area which I hope that the Senate and the House 
would take a very close look at and provide provision when we are 
at war, whether it's a conventional war or a SOLIC-type war, lowintensity 
conflicts. 

I think those are distinctions that need to be looked at in clarity 
of how we proceed and deal with our organization so that it is flexible 
and can get the capabilities on the target to enhance our national 
security. 

Senator WARNER: I thank the witness. 

Chairman ROBERTS: Senator Feinstein. 

Senator FEINSTEIN: Thanks very much, Mr. Chairman. 

Good morning, Mr. Goss. 

I would like to go back to Senator Warner's question about your 
comment that, ``We've got the circus in the Senate, which is always 
the likely place to look for the circus.'' And this is still the oversight 
body for the intelligence community, and as such I think there 
needs to be some mutual respect between this Committee and whoever 
is DCI. What you're saying by that comment is certainly a 
lack of respect not only for this Committee, but this body. 

How can there be mutual respect, how can we carry out our oversight 
responsibility with you as a DCI that believes we are a circus? 

Mr. GOSS: Senator, I certainly do not believe that the Senate is 
a circus or this Oversight Committee is. 

The comment that I made to the reporter over the media frenzy 
that was going on over the sensationalism of the pictures at the 
time was very simple. It was not made as a serious comment. It 
was not meant as a serious comment. And it was not reported as 
a serious comment. It was light-hearted jesting about our rivalries 
that go back and forth on the Hill. 

I then amplified that to say, but I am concerned about balance, 
because I am so concerned about our interrogation as a weapon we 
must have. As you very well know in your position, you have seen 
the value of good professional interrogation and what it has meant 
to the safety of Americans at home and abroad in recent months 
and years. 

To lose that because of the extraordinary abuses that were going 
on and the failure in the media to understand the distinction between 
prison guards who may have gotten out of control, or allegedly 
have gotten out of control and some of who clearly did get out 
of control and have been properly convicted and there are investigations 
ongoing, and our professional interrogators who we need 
to do the job was the point I was trying to make. 

I was worried that that balance would swing over and that sensationalism 
would cause a stop in our interrogation, which was my 
main problem. 

Senator FEINSTEIN: Let me ask you about another light-hearted 
comment and this has to do with the outing of a clandestine agent, 
namely Valerie Plame. And you said, ``I would never take lightly 
a serious allegation backed up by evidence that there was a willful
--and I emphasize 'willful'; inadvertent is something else--willful 
disclosure and I haven't seen any evidence. Somebody sends me 
a blue dress and some DNA, I'll have an investigation.'' 

Do you believe that's an appropriate comment as the Chairman 
of the House Intelligence Committee? 

Mr. GOSS: I don't think it was my best comment ever, for sure. 
I think it was made to a provocative remark to me about the difference 
between evidence and allegation. It's not something I'm 
proud I said at all. But I think the point I was trying to make is 
that evidence is different than allegations. 

Senator FEINSTEIN: Okay. The question is what kind of a message 
that sends to the clandestine community when you're going to 
be their number one authority figure? 

Mr. GOSS: If you're referring to do I take seriously the investigation 
about the leak, the answer is indeed I do. And when I was the 
Chairman of the Committee, I assure you we had numerous of the 
right people from the Administration come up and explain to us exactly 
what was going on. 

I did exactly what I have done in every investigation, I think 
without exception, as the Chairman and as a Member of the Committee 
over the 10 years that I've been there, which was have a 
quiet, closed hearing to get the facts; learn that the proper investigation 
was being taken by the proper people; demand that a re- 
port be given back to the Committee for the Committee's deliberation 
when the report was concluded. 

That was the record. Some of that is closed, obviously, and I cannot 
go any further in it. But we await that report. 

Senator FEINSTEIN: Thank you very much. I'd like to move on. 

Mr. GOSS: Yes, ma'am. 

Senator FEINSTEIN: This morning every Member of the Committee 
received a letter from a 22-year veteran of the Agency. He 
is a serving CIA officer. He made 10 points. I'd like to read one of 
the points and ask you to tell me what you will do about it. 

``In the CIA's core U.S.-based bin-Laden operational unit today, 
there are fewer Directorate of Operations officers with substantive 
expertise on Al-Qa'ida than there were on 11 September. There's 
been no systematic effort to groom al-Qa'ida expertise among Directorate 
of Operations officers since 11 September. 

``Today the unit is greatly understaffed because of a hiring freeze 
and the rotation of large numbers of officers in and out of the unit 
every 60 to 90 days, a process in which experienced officers do less 
substantive work and become trainers for officers who leave before 
they're qualified to support the mission. 

``The excellent management team now running operations 
against al-Qa'ida has made repeated, detailed and on-paper pleas 
for more officers to work against the al-Qa'ida and have done so for 
years, not weeks or months, but have been ignored.'' 
What would you do? Because I'm one that believes the capture 
of Bin Ladin, the removal of al-Qa'ida from the face of the Earth, 
really should be a number one mission of this Agency and this says 
that there is the al-Qa'ida unit, which is not really functioning as 
it should be. 

Mr. GOSS: Senator, I don't know whether that reference is to the 
CTC or to an area division or to some other component. 

Senator FEINSTEIN: The CIA. 

Mr. GOSS: Yes, ma'am. I'm going to take that to mean it is part 
of the CIA Directorate of Operations and answer it that way. 
I largely agree with that. I don't know whether it's factually accurate, 
but it is similar to the conclusions that our Committee, 
which I'm no longer on, and, obviously, I'm not speaking on behalf 
of that Committee. 

But that did lead us to write our authorization bill this year with 
some very sharp language that went very much to those points 
that caused some considerable uproar at the time. Frankly, it was 
very similar to language that your Committee reported in your 
WMD as well. So I think there is agreement there's a problem. 

One of the reasons that I sit here before you today seeking your 
confirmation is so we can continue to rebuild the HUMINT services 
properly. They are our best bet for dealing with the war on terrorism. 

It is very hard to use some of our national technical means 
effectively against terrorists. HUMINT is our best capability. 
It needs to redesigned. We need to have people who can speak 
the language, blend into the culture, spot the people, understand 
what motivates people in those cultures. All of those things need 
to happen. That takes training, that takes time, it takes resources. 
It takes different platforms, different ways of doing business. 

That is very much why I am looking forward to this job if I am 
confirmed. I believe I can make that happen. 

Senator FEINSTEIN: Let me follow up on that. 

I'm one that believes the NIE was deeply flawed, and virtually 
every time there was a difference of view--whether it was on the 
aluminum tubes, whether it was on the UAVs, whether it was on 
mobile biological weapons labs--the CIA view prevailed and the 
CIA view was wrong. 

One of the things that bothers me very much is that the Secretary 
of State was put out before the world at the United Nations 
with deeply flawed data. And he used that data, and particularly 
on the mobile labs, when our investigation showed that it was a 
flawed operation to gather those sources from the beginning and 
never should have happened that way. 

What will you do to specifically change the collection and analysis 
methodology in the preparation for an NIE? 

Mr. GOSS: Thank you. Part of the answer to that is the management 
of the integration and the fusion of information. It is a question 
of co-locating people from different agencies into the different 
disciplines to try and make sure that they have people talking to 
each other. That's a big part of it. 

The second part of it is the tradecraft, testing the conventional 
wisdom, competitive analysis, those kinds of things that are properly 
pointed out--avoiding group-think if you will. And some of 
that is ongoing, and I would submit to you that there is a paper 
from the DO which I would like to provide for you if you're interested 
on some of the steps that are being taken. 

But it goes much further than just dealing with the management. 
It goes to the question of how many analysts do we actually 
have who speak the language, who know the cultures to do the jobs 
and these things. And the answer is, frankly, not enough. 

I don't want to give aid and comfort to our enemy today by telling 
you how bad I think this problem is, but I can tell you right 
now we're borrowing analysts from places we shouldn't be borrowing 
analysts from to do jobs. They're probably not as good at 
what they're being borrowed for, and they're leaving a gap for what 
they're good at. 

That's not smart. And that worries me. And that's happening 
both at our DO and our analytic divisions, and that's got to stop. 

Senator FEINSTEIN: Do you believe that analysts should have 
more of the source data? 

Mr. GOSS: Yes, ma'am. 

Senator FEINSTEIN: Which is a real problem. And do you also believe 
that perhaps they should have station experience? 

Mr. GOSS: I believe it's very helpful. The question is that they 
haven't had the time or the people or the slots; there's a lot of logistics 
reasons why they haven't. 

In a better world, absolutely they should have that, and certainly 
there needs to be better working relationships, understanding, I 
will say cross-talking between the DO, the DI. 

And, obviously, analysis should drive collection. It shouldn't be 
we have a collector somewhere say this is what we're interested in. 
It should be, we have an analyst who wants this, this is what I 
want a collector to get. That's the right formula. 

And you're right. I mean, your Committee's paper did an excellent 
job pointing this stuff out. 

Senator FEINSTEIN: Thank you, my time is up. 

Chairman ROBERTS: Thank you, Senator. 

Senator Hagel. 

Senator HAGEL: Mr. Chairman, thank you. 

Mr. Goss, welcome. We are grateful to you and Mariel for offering 
yourselves once again at an important time in the history of 
our country. 

I have no questions regarding circuses or any references to circus 
or county fairs, but I do want to talk a little bit about some things 
that you have discussed here this morning. 

Each of us, and certainly you, Mr. Goss, understand that we are 
living at a very transformational time in the history of the world. 
That is requiring essential United States Government agencies to 
be radically transformed. We are in the midst of that today and 
have been and will continue to be working on this over the next 
few weeks in the intelligence community, reforming our intelligence 
community, restructuring our intelligence community. This 
transformation in the world today has presented new challenges, 
new threats, new possibilities. 

And with that as the context, I would be very interested in getting 
your sense of the larger view. And you referenced it a couple 
of times in your statement when you said, ``Intelligence needs to be 
shared with those who need to know. This includes our State, local 
law enforcement authorities for homeland security purposes, and 
our Federal law enforcement officials. Information-sharing must 
improve if we are to improve our capabilities against our most imminent 
threats.'' 

Within that context, how do you break out information sharing, 
as you have noted here, within the domestic structure of our government 
today? You talk specifically about local law enforcement. 
We're not doing that very well. In fact, I don't know how much of 
it we are doing. 

How do we integrate into the overall intelligence community fabric 
domestic and foreign intelligence? How does that work? We're 
talking about intelligence-sharing this morning, we talked about it 
yesterday, you have dealt with it for seven years as Chairman of 
the House Intelligence Committee. 

Then, in addition to that, how then do we integrate the tacticalstrategic 
intelligence dynamic into this overall new 21st Century 
agency intelligence community that you are going to have an awful 
lot to do with, and you will play a very significant role if you're confirmed, 
in helping shape and mold that? 

Mr. GOSS: That is going to be primarily the most critical task of 
the community management aspect of the job of DCI or national 
intelligence director or whatever the job finally is. 

The question of the horizontal coordination, collaboration and exchange 
of both tactical and strategic information and the vertical, 
down through the State and local, down the working level, is what 
this is all about. Blending in, getting over that line that we have 
always had, this is different than the wall between intelligence and 
law enforcement, but it's like it. 

Our whole intelligence apparatus is set up as the National Foreign 
Intelligence Program. It's all overseas. Now we have a domestic 
Homeland Security Department. They do law enforcement and 
they stop terrorism from happening. But the information may come 
from overseas, or the information may come from local people. 

What we have to have is a place to deal with that information. 
But we have it. It's called TTIC. It's being set up--the Terrorist 
Threat Integration Center. It's a fusion place. It's a house of exchange 
of information. It doesn't have capability to go do something. 
That's why we have a national counterterrorism center that 
is being considered. 

And that's why we have a very thorny question which is raised 
both by the 9/11 Commission--and as some of the Senators asked, 
alluding to some of my legislation--how do you join that piece together 
where you have actual information being used by law enforcement 
or surveillance people in the United States of America 
against Americans? That's a policy question that you all are going 
to have to answer, and I hope that your answer is very clear for 
the people in the Executive Branch. It has to be clear. I don't know 
the answer to that. 

There are a number of proposals out there to deal with it. The 
issue has been raised by virtually everybody, and it has to be dealt 
with. I think it's critical to the success. And everybody has to understand 
what that is. 

Then comes the technical problem, sir. And there is some good 
news here. We are beginning to understand ways to share information. 
We're using tearsheets. We're beginning to talk about ways to 
get information down to the local level, training people to receive 
information at the local level, ways to sanitize or partially sanitize 
information so that it can be shared with more people. DIA has 
done a good job using taggants on some of the information so people 
can go back and see what levels of access are available for a 
given nugget of information. Those kinds of tools and modernization 
techniques are beginning to happen. They're not in place. 

We desperately need an enterprise architecture that has an assured, 
secure mechanism for the intelligence community and its 
customers to talk together in a way that you can do all of the business 
you need to do on behalf of the intelligence community--and 
that is classified information, quite often, the exchange between-- 
and then have a customer be able to reach in there to a safeguarded 
level where there's no threat to sources, methods, ongoing 
investigations, liaison relationships or things like that. 

That is a long way away, but it is so necessary. 

And one of the requests, if I am confirmed, that I am going to 
be continuously making of the Oversight Committees is continued 
support for enterprise architecture. Because we've got some agencies 
now that can't even do their work inside themselves on a secure 
basis, as you very well know. 

Then they have to be able to find interoperability with other 
agencies. Then you have to be able to stitch that network together. 
And then you have to be able to deal with your customers, not all 
of whom can have access to all of the sources and methods, obviously. 

You've put your finger on probably the toughest management 
question we've got, and it's going to take some time and the cooperation 
of all of us to get that fixed. And we've got to do it. 

Senator HAGEL: I would hope, Mr. Goss, that you will be very active 
in this and take significant initiative. Because we play a role-- 
and you have been through this--but we don't understand it as 
well as you understand it, and your colleagues. And we are, to 
some extent, guided, as is your Agency, by the end-user's needs, by 
what you have to say about this. 

Mr. GOSS: Thank you, sir. 

Senator HAGEL: Let me ask you, in following along the same line 
of questions here, you mentioned this, it's been brought up in some 
exchange this morning: human intelligence. You noted the critical 
essence of human intelligence. 

Can you tell this Committee any specific thoughts you have 
about what you would do to address this issue if confirmed? You 
mentioned reaching out, obviously, for more linguistics, more new 
21st Century dynamics as part of the collection process, the analysis 
process, but programs--anything specific to this issue that you 
are thinking about now? 

Mr. GOSS: Yes, sir. Definitely, some specific things. 

I believe there is too much management at headquarters, specifically. 
It has gotten too patterned. I don't want to use the word ``too 
bureaucratic,'' but maybe it's the right word. And I think that has 
stifled some of the innovation, some of the creativity and, frankly, 
some of the risk-taking in the field. I think some of the exact procedures, 
which I will not go into in open session, need to be modified 
about how people in the field are allowed to go about their business. 
I think that's a very easy example. 

But there's a more basic problem than that. That's a simple fix. 
That's a stroke-of-a-pen fix. Reassurance that people will be supported 
in the field, building the morale, those are more leadership 
issues, that has to happen. The training has to happen. 

Training costs money. We need a lot more people and I can't emphasize 
enough that if you don't have case officers that can deal 
with the culture and the language, you're not going to get much. 
It really is important to have that. And so one of the very specific 
things I'd ask you to look at is the efforts that are being made with 
the national flagship language program, the National Security 
Education programs to take some of our existing people and bring 
them into an area where we need to employ them and give them 
the skills, the background, the culture, the language that we also 
deal with, the language question more head-on than we have. Because 
it is a major weakness. We may have the best interrogators 
in the world, but if you can't speak the language, or she can't speak 
the language, it doesn't do us a whole lot of good. 

Senator HAGEL: Do you favor making the aggregate intelligence 
community budget public? 

Mr. GOSS: Sir, what do you mean by the aggregate, the top line? 

Senator HAGEL: Yes, how much we spend. 

Mr. GOSS: My preference is no, sir, for a very simple reason. It 
served us well not to put that top line out when we were in what 
I will call a bipolar stand-off with the Soviet Union. I'm not sure 
what the future holds. 

One of the things that kept the Soviets off balance, we know 
now, was they weren't quite sure how much we were committing, 
what we really had, what we were really doing. And my view is 
that if I had a preference, I think the day may come when we find 
ourselves in another, sort of bipolar situation, maybe it'll be 
tripolar, with other great nations that are emerging. 

I don't think it's a critical question. To me it's not a deal-breaking 
type question, but that would be my preference. 

If it is ever revealed--and whatever your decision on that will be, 
obviously, I will follow the law if I'm confirmed--but if it is revealed 
I hope it would be clear what it was that we were talking 
about when we say we are revealing the intelligence budget and 
how it is managed, how the oversight of that works in Congress, 
because I fear, if confirmed as the DCI, that I had to come back 
to you with a number that was one number that was public out 
there, which wasn't the real number I was dealing with, that sooner 
or later there would be stories written about that. 

So I think the connection of the decisions you make on how you 
do your oversight with regards to the budget and intelligence 
amounts is related to what you're asking me. 

Senator HAGEL: Mr. Goss, thank you. 

Mr. Chairman, thank you. 

Chairman ROBERTS: Mr. Goss, Senator Bayh is next. We have 
come through eight of the Senators who are here for the hearing, 
eight of the 16, and he is willing and I would suggest to you that 
this would be an opportunity for a five-minute break, if you so 
choose. Or if you do not choose to do that, we can press ahead. 

Mr. GOSS: Sir, I would be very pleased to have a five-minute 
break, maybe a three-minute break if that's sufficient for you. It's 
sufficient for me, I think. 

Chairman ROBERTS: In the Senate, a three-minute break turns 
into a five-minute break, that turns into a seven-minute break, as 
you well know, so the Committee stands in recess for five minutes. 

Mr. GOSS: Thank you, sir. 

[A brief recess was taken.] 

Chairman ROBERTS: The Committee will come to order. 

Chairman ROBERTS: Senator Bayh. 

Senator BAYH: Thank you, Mr. Chairman. 

Thank you, Mr. Goss. I would like to begin by echoing the sentiments 
of many of my colleagues here today who have recounted 
their positive personal interactions with you. That certainly has 
been my experience. And I appreciate your willingness to continue 
your service. 

I have two lines of inquiry. The first deals with some of the questions 
and concerns raised by a couple of my colleagues touching 
upon the issues of independence and the possibility of undue partisanship. 

As I understood your opening statement, you seem to be indicating 
that there are different standards of conduct for Members of 
Congress, the elected branch of government, who by necessity are 
involved in the political process, and those in the Executive 
Branch, particularly something as sensitive as the Director of Central 
Intelligence, where a different standard of involvement would 
apply. And that seems to be a reasonable position to take. Have I 
characterized your opening statement correctly? 

Mr. GOSS: Yes, sir. 

Senator BAYH: With that in mind, I'd like to ask you about something 
that was referenced I think by Senator Rockefeller. And 
that's this op-ed piece that you authored with Congressman Young 
on March the 8th in the Tampa Tribune entitled ``Need Intelligence? 
Don't Ask John Kerry.'' 

That seems pretty partisan to me, almost--knowing you a little 
bit--almost out of character. With that in mind, I'd like to ask you, 
were you requested or was it suggested to you that you write this 
by someone affiliated with the White House or the President's reelection 
efforts? 

Mr. GOSS: Senator, I don't remember the exact circumstances of 
how that came to pass. I believe I had made some statements on 
the question of sufficiency in intelligence that were quoted back to 
me, and I don't remember exactly how all of that blended together, 
who were the participants. I'd have to check for the record on that 
and get back to you. I just simply don't recall. 

Senator BAYH: I would appreciate it if you would. It raises the 
question, if this was just sort of a deep-seated concern about Senator 
Kerry's position on these issues and you did that on your own, 
that's one thing. If you did it at the behest of someone else for political 
reasons--which is not, of course, unheard of--that might 
suggest a level of partisanship or lack of independence that the 
Committee might find to be relevant to these proceedings. 

You would certainly agree that by your own standards an article 
like this would be inappropriate for the DCI. 

Mr. GOSS: Absolutely. Absolutely, sir. I make that loud and clear. 

Senator BAYH: With regard to the reorganization that's been suggested 
of the community; there have been different proposals that 
have been floated. We find ourselves in an unusual position today 
where you're being nominated to serve in an office that may be 
substantially altered in a period of weeks, a handful of months. So 
I'd like to ask you about your views on some of the issues that have 
been raised here. 

And let me back up just momentarily. You had your own proposal. 
As you know, Brent Scowcroft had been asked to do a study, 
had come up with some recommendations. Those recommendations, 
as I understand it, are still classified. I find it hard to understand 
why they're still classified. One of our colleagues has suggested 
that he's going to offer an amendment to declassify the Scowcroft 
Report. 

Would you support declassifying Brent Scowcroft's recommendations 
about intelligence reform? 

Mr. GOSS: Senator, I have not seen the alleged Scowcroft reform. 
I don't know what the report is, whether it was ever concluded or 
not. I've heard about it, of course, and I don't know that it would 
be a proper---- 

Senator BAYH: Well, if you haven't read it, then I can't ask your 
opinion about whether it should be declassified. 

But suffice it to say he's obviously a nonpartisan figure, has some 
interesting thoughts about intelligence reform. And as far as I 
know, there's nothing in his report that couldn't be shared with the 
American public. 

Mr. GOSS: Senator, what I would say is the job I seek, if I am 
confirmed, obviously, should be involved with the questions of the 
security of our country and the capabilities for the intelligence 
product that we get. The questions of how we reorganize the intelligence 
community, how it is reorganized, is going to be pretty 
much up to the legislators in this country to decide what they want 
it to look like. 

Senator BAYH: Well, let me ask you about a couple of the specifics. 

As I understand, the proposal that you had suggested, which was 
embraced by many members of the community, as I understand it, 
would have tried to flesh out the powers, make real the powers, of 
the DCI as they were envisioned in 1947. We sort of made the DCI 
the head of the intelligence community, but never really empowered 
the DCI to exert the kind of leadership that now appears to 
be necessary. 

And the other approaches that have been suggested by the 9/11 
Commission, now by the Administration, by the Chairman of this 
Committee, would involve the creation of a national intelligence director, 
the so-called NID. 

What about your approach empowering the current DCI is superior 
to the recommendations for the creation of a NID? 

Mr. GOSS: Senator, I think the legislation is pretty clear. The 
reason that I proceeded that way with the legislation was to signify 
that I understand that one of our very biggest problems in the intelligence 
community is that we have a loose confederation of agencies 
rather than an efficient network of agencies that's delivering 
product. I believe there should be sort of a top to the pyramid instead 
of 15 different tops to it, if you will. 

Senator BAYH: But why the DCI model as opposed to the NID 
model? 

Mr. GOSS: I believe the DCI model came pretty closely right out 
of the issue of the DNI recommendation that our Joint Inquiry did. 
I thought it was the purest and closest way to do that. 

There is obviously a difference between a DNI, a NID and a DCI. 
These are very subtle nuances that get into complexities, as you 
very well know, sir. 

Senator BAYH: Well, can I ask you about a couple of them before 
my time expires? The whole issue of budget control, and this does 
get into the weeds a little bit, but it's important if we're going to 
have, as you say, someone coordinating, bringing coherency to all 
the different agencies, it's important we don't just, as we did in 
1947, put that on a piece of paper, but we empower the individual 
to actually accomplish that mission. 

Let's talk about budget control. The 9/11 panel would authorize 
the NID to actually create the budgets in consultation with the 
agencies. The Administration's proposal would have the agencies 
create the budgets and then be approved. And this sounds a little 
bit like it's inside baseball but, as you would well know, the people 
who are actually creating the budgets in the first instance are exercising 
more control and authority than if someone's just in a position 
of passing approval on it. 

Do you have a thought about whether the NID or the empowered 
DCI should have the ability to create the budgets for the agencies 
as opposed to just approving them? 

Mr. GOSS: Senator, I have a thought and I had a thought, and 
they're different and I don't mean in any way to be disrespectful. 

The thought I had was that I felt that the national foreign intelligence 
budget program should be handled by a centralized figure. 
I've called it the DCI in my bill. That was what I had. What I have 
now is basically, I am going to, if I am confirmed, play the cards 
that are dealt to me on this subject. 

Senator BAYH: What about paramilitary operations? Some have 
suggested that those be consolidated in the Pentagon. Others believe 
that we need to keep a robust capability within the clandestine 
services of the intelligence community. Do you have an opinion 
about that? 

Mr. GOSS: I do have an opinion about that. Again, that is subject 
to whatever you all decide you wish to do. I think there are pluses 
and minuses to virtually all of the recommendations in here, mostly 
pluses. I think that is one of the area where there is a recommendation 
that does have some minuses to it that I do have 
some concern about. 

Senator BAYH: My final question, as I see my time is about to 
expire, we had an unfortunate situation where your predecessor, 
before I believe--if I'm not mistaken, Mr. Chairman--before 9/11 
was in a position--George Tenet called for actually a declaration of 
war upon al-Qa'ida and Usama bin Ladin. I think those are words 
that he used--``declaration of war.'' And yet, subsequently, in testimony 
it came out that the head of the National Security Agency 
was unaware of that fact. This was emblematic of the kind of lack 
of coordination and communication that existed at that time. 

Now, you may have touched upon this in your response to Senator 
Hagel's question. How do we prevent that sort of lack of coordination 
from occurring again? This is not down in the bowels of 
the department some place. We have the Director of Central Intelligence 
declaring war; one of the chief collectors was unaware of 
this fact. How do we keep that from happening? 

Mr. GOSS: I think that is the principal driving factor for most of 
the energies that we see that are now being engaged at all levels 
and in all branches of government in Washington to deal with the 
network problem. 

As I said, instead of having 15 agencies out there doing their 
thing, we've got to have a different kind of management that has 
something at the top that can control that. That's a solvable problem. 
It just takes the direction to do it. If I am confirmed, I assure 
you that I recognize that the preponderance of what is being asked 
of a DCI is to get the network going. 

Senator BAYH: Thank you, Mr. Goss. 

Thank you, Mr. Chairman. 

Chairman ROBERTS: It is the decision of the Chair and the Vice 
Chair to proceed as we go along until we at least come to the conclusion 
of the first round, and probably the second round. I would 
advise Members to inquire of the chair as to where they stand in 
order of appearance for questioning so they can get a quick bite to 
eat. 

I would say, Mr. Goss, if you have someone in the audience that 
is very favorable to you that can prepare you a bite to eat, we could 
take another five or 10 minutes on down the road here. 

Mr. GOSS: Thank you, Chairman. 

Chairman ROBERTS: With that, let me recognize Senator Mikulski. 

Senator MIKULSKI: Thank you, Mr. Chairman. 

And, Mr. Goss, I want to welcome you and your wife, whom 
we've known from various trips and travels. We want to welcome 
you to this hearing. As you know, we've worked together. I have 
a great deal of respect for you. We've worked together on the Joint 
Inquiry Committee and others. We've traveled on those NATO 
CODELs to see how we could end the Cold War. 

So know that when I look at my criteria for this position, it 
would be, number one, competence; number two, integrity; number 
three, commitment to the mission of the Agency; and number four, 
independence. 

I know that you are competent from both your work as a CIA 
agent, and your work chairing the Committee. There is no doubt 
that you're a man of integrity; your work in Congress and your 
record speaks for that. And I believe you're devoted to the mission 
of the Agency. And that's good news. 

But I'm going to ask the questions related to independence. 
We're only 49 days from an election. And my question would be, 
will Porter Goss be an independent voice at the CIA, willing to 
speak truth to power to whomever is President and also to the Congressional 
Oversight Committees which we ourselves, hopefully, 
will be reforming ourselves? 

Let me tell you, everyone's talked about your attack on John 
Kerry and those partisan articles. I'll come back to that in a 
minute. But one of the concerns I had was about investigation in 
your tenure as Chair of intelligence leaks. 

You've stated that you're absolutely on the side of employees to 
make them the best that they can be. Yet there was the outing of 
a CIA agent, Valerie Plame. And then when you were asked whether 
you would be investigating this or whether you felt that this was 
a matter of being compromised, you said that before you would do 
anything, that you needed to see the blue dress with DNA on it before 
you would take any action. 

Well, that was really a very snotty answer, quite frankly. And I 
was surprised about your attitude in that case and also the fact 
that this involved a CIA agent, the outing of which is, as you know, 
an egregious, and, if proved and prosecuted, a criminal matter. 

Could you tell me why you didn't investigate that, and in fact-- 
I'm not going to ask you if you said that, if you care to comment 
on that--because that's a cameo of being willing to be independent 
because it gave the appearance of being dismissive and really kind 
of, if you will, pardon the brusqueness of this, but shilling for the 
White House. 

Mr. GOSS: The answer to your question that I previously answered 
on that subject before, it was not a well-chosen remark, and 
it's not one that I'm proud of. 

The question about investigation, however, is a very serious matter. 
And I believe, as I've testified already, that the investigation 
is fully warranted--the best possible investigation. I believe very 
strongly in the Intelligence Identity Protection Act. It's true that 
we've had, I think, maybe one or maybe no successful prosecutions 
in whatever it is, the 25, 30 years that that's been out there. 

That has frustrated me. I assure you, my record will speak as 
Chairman of the Committee and I have many comments on that. 
I always have practiced the same thing the whole time I was the 
Chairman--regardless of whatever Administration; it's not a factor
--that we would have behind closed doors a presentation of the 
facts of whatever the problem was and then we would have the 
professional people do the investigation, in this case, a professional 
investigation by the Department of Justice using the system of referral, 
which is the right system, was underway. 

We were reassured that it would happen. We were then reassured 
that they had brought in a top-notch prosecutor and this 
would be exhausted until the end and that they would report back 
to us relevant information to the Committee in our portfolio to deal 
with. And that's where we left it. 

Senator MIKULSKI: So you supported a vigorous investigation? 

Mr. GOSS: Yes, ma'am. 

Senator MIKULSKI: And you regret the remark? 

Mr. GOSS: I regret the remark. The remark was not about the 
investigation. I was trying to make a distinction between an allegation 
and evidence, which is somewhat different. I was not trying to 
say---- 

Senator MIKULSKI: But I was trying to get to your state of mind 
about these things. 

Let's go to, really, a situation. We're 49 days from the election. 
Either John Kerry or George Bush is going to be President. Let's 
talk about independence with President Bush should he be reelected 
and then I have a question should John Kerry be elected. 

We had a previous CIA Director who said when President Bush 
said to him, ``Is there more information about this Iraq?''--again, 
I'm paraphrasing--and he said, ``Oh, Mr. President, this is a slam 
dunk.'' 

I have here this Select Committee investigation that we did that 
showed that it was a dunk. It was not a slam. 

Then this is the same CIA Director that sat behind Secretary 
Powell at the U.N., one of the most esteemed and trusted men in 
the world, who then put forth the reason why we needed to go to 
war on what we now know was evidence that was flimsy, dated 
and dubious. The CIA Director was sitting behind. 

What would you do that was different? How would you be an 
independent voice? Because it seems that group-think existed not 
only in the analytical department, but enlisted by the very Director 
of the CIA as he engaged in conversations with the highest level 
of the White House and, in fact, let the President of the United 
States down when he asked him that question. 

Mr. GOSS: I believe, as I have said, Senator, that getting a better 
product to our policymakers is what this is about. That means 
using the full network of the intelligence community, the resources 
and capabilities, to develop that product and present it in an unvarnished 
way to the President of the United States. I think that's 
the job. I think I understand that is the job. 

Senator MIKULSKI: Well, let's then go to how that job was being 
done. The ombudsman at the CIA went to the Director and said, 
I'm getting feedback from the employees that they're being hammered 
in a way that would predetermine their analysis, the repetitive 
questioning. 

My question to you, when an ombudsman would come to you like 
that while they're doing the national intelligence estimate, preparing 
information for the President or other policymakers--well, 
number one, I presume you support a CIA ombudsman. And, then, 
second, what would you have done in that situation? 

Mr. GOSS: Senator, I would and I did check to find out how much 
of this--what is the truth of this. Was there undue, unfair pressure? 
And just as your Committee investigated that question, our 
Committee did as well. Our Committee is not finalized yet. As you 
know, I left the Committee--appropriately--when the President 
made the nomination. But I have total confidence in the Committee. 

I believe that the issues that are involved in fact-checking and 
getting everything right are self-evident. You have to do all of that. 

Senator MIKULSKI: But here comes the ombudsman--let's put 
this Iraq matter over here. There's another matter. We don't know 
what the issues are that lie ahead over the next several years. 

Say you're the CIA Director, your ombudsman comes to you, and, 
again, regardless of who is President, this issue comes up, that the 
analytical or the professional staff feels that they are being hammered 
in a way to skew the analysis and recommendations they 
give. What would you do about that? 

Mr. GOSS: I would deal with it very directly. It is inappropriate 
to try and shape the intelligence. There's no question. 

And I want to make it very clear that the intelligence product 
has to be the best product that the analysts can produce for us 
with the best possible collection. Outside interference in that process 
cannot be tolerated. 

Senator MIKULSKI: So you would go to the highest level, even if 
you saw that? 

Mr. GOSS: If I felt there were interference in the product or tampering 
of the product, of course I would go to any level to say that's 
not going to happen. 

Senator MIKULSKI: I appreciate that answer, and I accept your 
word. 

Mr. GOSS: Thank you, ma'am. 

Senator MIKULSKI: I accept your word. Because, again, as I said, 
I believe that you do come to the Committee with integrity. 

My last question: Say John Kerry's elected. Do you feel that you 
could serve with John Kerry? 

Mr. GOSS: Of course. That would be up to President-elect Kerry's 
decision. But, of course, I believe I can serve, do the job as the DCI 
that I've been nominated for, for any Administration. 

The job is a capabilities job. The question of who is the President 
is relevant only in one aspect, and that is whether or not the President 
would be comfortable with a DCI who happened to be a Porter 
Goss, because I do believe that comfort level and that chemistry is 
very important to preserve the access. It is the one place where the 
intelligence community really plugs into the policymakers. 

Senator MIKULSKI: I thank you for your answers and I appreciate 
the conversation. And again, I need you to know I have a great 
deal of respect for you and again, admiration for your wife. 

We know that when we are called, you had a whole other life 
that you planned two years ago before 9/11. You had another life 
planned that you thought you were going back to and so we just 
want to pay our respect to her, as well. 

Mr. GOSS: Thank you for your kindness. 

Chairman ROBERTS: Senator Durbin. 

             PREPARED STATEMENT OF HON. RICHARD J. DURBIN, 
           UNITED STATES SENATOR FROM THE STATE OF ILLINOIS 

Mr. Chairman, we meet today to consider the nomination of Congressman Porter 
Goss to serve as the next Director of Central Intelligence (DCI). This nomination comes at a truly historic moment. Three years after the September 11, 2001 terrorist attacks against the United States, the Congress is--hopefully--about to legislate into law what may be the most significant and far-reaching intelligence reforms since the U.S. Intelligence Community was created after World War II. These reforms will likely be based in large part on the recommendations of the 9/11 Commission. 

Clearly, no position is more important than that of the individual who must lead the entire Intelligence Community--to date, that has been the Director of Central Intelligence; but under the current reform proposals, this will become the new position of the National Intelligence Director (NID). Mr. Goss has been nominated to be the next DCI, but this is a position that may only exist for several more months. 

It will be important for us on this Committee to learn the nominee's views on what this role should be in this post-9/11 world, and what it should evolve into as part of the intelligence reform effort. 

Given this unique historical moment, l believe that it is more important than ever that the next DCI be non-partisan and firmly committed to meaningful intelligence reform. I have known, and worked with Mr. Goss for a number of years in Congress and consider him a good man and a patriotic public servant. However, there are a number of concerns I have with his nomination for this important post, and I look forward to having these concerns addressed in the course of these confirmation hearings. 

In exploring Mr. Goss' views and record, I am interested in knowing his views 
on, and level of commitment to, intelligence reform--and particularly to the reforms recommended by the 9/11 Commission. 

Mr. Goss has also served as the Chairman of the House Intelligence Committee 
for almost 8 years--the second longest tenure in that position in the almost 30 years that the House of Representatives has conducted formal oversight of the Intelligence Community. The Chairman of a congressional committee has considerable power in determining what issues the committee will focus its oversight efforts upon, and the manner in which it will conduct this oversight. I will be interested to know more about the nominee's accomplishments in intelligence oversight. I believe that this oversight record will be a reasonable gauge of his likely effectiveness in managing 
the Intelligence Community during this highly challenging transitional period. 

I also note that the nominee has made a number of public comments regarding 
the Democratic nominee for President--as well as other Democrats--questioning 
their commitment to intelligence and national security. I look forward to learning more about the nominee's views on these issues, as well as his views on the importance of nonpartisanship as an essential attribute for an effective intelligence professional--particularly for the head of the U.S. Intelligence Community. 

Mr. Goss, welcome to the Committee and I look forward to these hearings. 
Senator DURBIN: Congressman Goss and Mrs. Goss, thank you for being with us today. 

One of the significant differences between the House and the 
Senate, of course, is this nomination process, and I will tell you 
that I've come to believe since 9/11 and my service on the Intelligence 
Committee that next to the President's Cabinet and lifetime 
appointments to the Federal courts, this appointment to the CIA 
is one of the most serious and most important assignments that we 
have to consider. 

Intelligence is literally our first line of defense in the war against 
terrorism, and that's why this nomination hearing has to be taken 
so seriously and your appointment taken more seriously than many 
others. 

I've said publicly that you are a good person. My service with you 
convinces me of that. There are a multitude of appointments in this 
Administration that you would be excellent to be part of, but I will 
tell you today that I come to this nomination with two very fundamental 
questions. 

And that is whether you're the right person for this job, in light 
of what's happened to America on 9/11 and in the invasion of Iraq. 

And I look to two or three specific things. 

Number one, are you reform-minded? Do you have it within you 
to really undertake what will be titanic battles to reform intelligence 
in America, which I think is long overdue? 

Secondly, will you be nonpartisan. And I think you've said from 
the outset that that is one of the most important elements in your 
service in this position if you are nominated. 

Now I will tell you this, Mr. Goss, because I know you and I 
know your competence. Whoever briefed you for this hearing and 
said that when you get in a tight spot over something you have 
said or done, keep repeating ``the record is the record,'' did you no 
great service. That is a dismissive comment that you never should 
have included, I think, in your comments before this Committee. 

It basically tells us that you're not prepared to answer or discuss 
some important things about you and your background and your 
beliefs. And that leaves us, as Senator Wyden has said, at a real 
disadvantage, when it comes to answering these fundamental questions. 

On the issue of partisanship, I have to tell you, Vice Chairman 
Rockefeller's presentation about the budget figures speak for themselves. 
You made some allegations about John Kerry and about the 
Democrats, which when they're compared to your own record don't 
stand up. They were entirely partisan and, not that we all aren't 
guilty of it from time to time, but I think you should have given 
us a little more in terms of how you got into that fix and why you 
were asked to take on this aggressive partisan role when it came 
to John Kerry. 

But even more important than this election, which will come or 
go, is the whole question of your loyalty to the Administration at 
times when serious questions were raised about the political misuse 
of intelligence. This whole question of Ahmed Chalabi, to say 
that oversight worked well on Chalabi is to ignore the obvious. 

Chalabi was dismissed as a non-credible person by the CIA and 
the State Department's INR while he was being used as the leading 
witness and expert by the Defense Intelligence Agency. Now to 
say that oversight worked well, one of those agencies was wrong. 
And history has shown us that the Defense Intelligence Agency 
was wrong. 

Ahmed Chalabi is now under investigation for perhaps treason 
and this man who was posted to sit behind the First Lady at the 
State of the Union Address is an embarrassment to us. And to say 
that oversight worked there, I don't think is appropriate. 

On the Valerie Plame incident, I'm not going to recount your 
statement, which you have said you regret. And we all make statements 
we regret, but you said what you were looking for, the point 
you wanted to make was this was about evidence, not about allegations. 

The evidence was Robert Novak's column. That was the evidence. 
This woman, this professional, literally had her professional career 
and her life in jeopardy, because someone, according to Mr. Novak, 
in the White House disclosed her identity. I don't know what more 
evidence you'd like or want to initiate an investigation, but you 
didn't do it. 

On the Abu Ghraib scandal, to criticize the Senate for being a 
circus, I wish the House would've looked at this scandal as aggressively 
as the Senate did. Again, it was an episode during the Bush 
Administration which could have brought embarrassment to the 
President during an election cycle. And you chose, as Chairman of 
the House Intelligence Committee, not to get involved, raising 
questions again about whether or not you could be nonpartisan in 
this position. 

On your commitment to reform, you were part of the 1996 Commission
--Aspin, Brown and Rudman Commission. And, as Senator 
Wyden has said, even after the 9/11 Commission vote, there's no 
evidence that you've introduced significant reform legislation until 
just three months ago. 

You voted against the creation of the 9/11 Commission when the 
White House opposed it. When you lost that vote on the floor, and 
the White House changed its position, you embraced it. That was 
what many in your party did. But it doesn't show the commitment 
to reform that many of us are looking for. 

Also, I have to really look at your Committee, House Intelligence 
and Senate Intelligence, and say that we have been accused of not 
being reform-minded. This 9/11 Commission Report--which we 
have all praised to high heaven, and should--on page 420 says congressional 
oversight for intelligence and counterterrorism is now 
dysfunctional. 

Now that happened on our watch, Congressman, while you were 
Chairman and while I served here. What did we do to show a commitment 
to reform? 

Let me be specific in the question that I think may get to the 
heart of this, as far as I'm concerned. We now have allegations that 
there is at least an alternative, if not a rogue, intelligence operation 
at work in the Department of Defense under Mr. Douglas 
Feith. 

Do you feel the Department of Defense under Secretary Rumsfeld 
and Assistant Secretary Wolfowitz, specifically DIA and Mr. Douglas 
Feith, have gone too far in creating an alternative intelligence 
effort, specifically in their lionizing Ahmed Chalabi and in the dogged 
efforts which they made to try to legitimize some meaning in 
Prague involving Mohammad Atta? 

Mr. GOSS: The issue of Mr. Feith's position, I believe he's not actually 
in the intelligence community. I think he's in the policy side 
of the community. And I'm not sure that as DCI, if I'm confirmed, 
that my portfolio goes that far into the Secretary of Defense's territory. 
That's a question I'm just going to have to explore further. 

I've already said very clearly that I do believe that there can be 
no policy contamination of the intelligence product. Intelligence informs 
policymakers, not the other way around. Now, do I believe 
any Cabinet Secretary has the right to go out and do his business 
or her business the way they see fit, subject to appropriate oversight 
on the Hill? The answer is, of course, subject to following the 
laws of the land. 

Do I feel that oversight as it applied to intelligence worked in the 
Chalabi case? The answer is yes, for this reason. We found out in 
the Oversight Committees that there was a question with the 
sourcing. The information that came through that channel was not, 
in my view, sufficiently vetted or explained. 

Senator DURBIN: But Mr. Goss, we found out after we invaded. 
We found out after we had committed 140,000 troops. We found out 
after hundreds of Americans lost their lives. To say that oversight 
worked is to ignore the obvious. Years ago, the CIA dismissed 
Ahmed Chalabi while he was being feted and elevated by this Administration 
as a reliable person. 

Oversight did not work. We ended up in a war that he is frankly 
laughing at us over. He told the British press: ``So we didn't find 
weapons of mass destruction. I achieved what I wanted. American 
troops are in Iraq, and Saddam Hussein is gone.'' Oversight didn't 
work. 

Mr. GOSS: Senator, I agree with you on your observation, which 
I think is what you're implying, that we did not have enough good 
sources in Iraq. I certainly do agree with that. And I would not consider 
Mr. Chalabi a great source. 

Senator DURBIN: So let's go back to my first question. Here is the 
DIA lionizing Mr. Chalabi, trying to create this link between al- 
Qa'ida and Saddam Hussein, at war with the CIA in terms of its 
sources and its presentations. I want to know this: If you become 
the Director of the CIA, what will you do about this rogue intelligence 
operation in the Department of Defense? 

Mr. GOSS: Senator, I certainly would not want to characterize 
anything as a ``rogue intelligence operation'' unless I had ample 
evidence and much more background information than I do. But if 
there were a rogue activity going on that was in any way tarnishing 
or affecting the product that I am responsible for providing 
to the very, very important customers that the community has, if 
I'm confirmed, obviously I would deal with it rather directly. 

Senator DURBIN: Are you familiar with what I've talked about 
here, this competition and this friction between the Defense intelligence 
operation and the CIA? You must be familiar with this. 

Mr. GOSS: Senator, of course, I am aware that there are different 
views in many of the agencies about the consensus of opinions that 
the intelligence community comes up with and delivers. I think 
that's healthy to have competitive analysis going on. 

It's when that competitive analysis is no longer part of the teamwork 
that that would be a problem. 

Senator DURBIN: Do you think it went too far when it came to 
Mr. Feith's efforts and the DIA's efforts to create the scenario that 
led to the invasion of Iraq, that misled not only the Administration, 
but the American people about the reality on the ground in that 
country? 

Mr. GOSS: I simply don't have the answer to that. It would require 
a judgment on facts that I don't have and didn't have as the 
Chairman of the Committee. 

Senator DURBIN: As Chairman of the House Intelligence Committee, 
you don't have an opinion as to whether they went too far? 

Mr. GOSS: Senator, I'm no longer the Chairman of that Committee. 
And you have stated your concern about my independence 
and my nonpartisanship. And I don't think it's appropriate for me 
to go down that road. 

Senator DURBIN: I will just tell you if you were candid with me 
in that answer, it would convince me that you will be nonpartisan. 
But the fact that you reserve judgment whenever it gets close to 
being critical of this Administration continues to trouble me. 

I yield, Mr. Chairman. 

Chairman ROBERTS: Senator Hatch. 

Senator HATCH: Well, you certainly have a better understanding 
of what the Senate is like now than ever before with some of the 
questions that you've had. And that's part of the reason why we go 
through these confirmation processes, is to test people to see if they 
do this job. 

Now, I have absolutely no doubt in my mind that you're qualified 
for this job. 

Mr. GOSS: Thank you. 

Senator HATCH: I know you personally. I know the experiences 
that you've had. I know the price that you've paid. I know the price 
your wife has been paying just to have you in Congress. Can you 
imagine being head of this Agency? 

I saw the same type of criticisms of George Tenet when he served 
in a very, very distinguished way, the best he could, day and night, 
and did an awful lot of good things that will never be known by 
this country. It's true, isn't it, that the CIA, people who work for 
the CIA never really get the credit for the good things that they 
do, right? 

Mr. GOSS: Yes, sir. 

Senator HATCH: As a matter of fact, many of them risk their 
lives for you and me and really everybody else in the world without 
people really knowing that they do that, right? 

Mr. GOSS: Yes, sir. 

Senator HATCH: You were one of those at one time, right? 

Mr. GOSS: That was a long time ago, sir. And I don't think my 
life was ever in real danger, but that was the job, yes sir. 

Senator HATCH: But you would have been willing to risk your life 
as an employee of the CIA, is that correct? 

Mr. GOSS: Yes, sir. 

Senator HATCH: Just like all the rest of them are willing? 

Mr. GOSS: Yes, sir. 

Senator HATCH: Now, as a Member of Congress, you've been 
criticized here for being a little bit critical of the Senate. What a 
horrible thing to do. I mean, my gosh, we're perfect over on this 
side of the Hill, as you know. And it is very irritating from time 
to time to have Members of the House speak the truth about the 
Senate. 

I'm only joking, but the fact of the matter is, we all make comments 
about each other, and that's part of the give-and-take that 
we have around here. 

The question is: Are you competent for this job? The answer is 
yes. 

Are you a person who has the background for this job? The answer 
is yes. 

Do you have a lot of experience in the intelligence community? 
Of course, the answer is yes. You've not only been Chairman of the 
House Select Committee on Intelligence, but you've had experience 
with the CIA. And you know the good things about the CIA, and 
you know the bad things about the CIA. 

And I've seen great CIA Directors, and I've seen some that aren't 
so great. And there is at least one popping off right now that you 
can't believe who wasn't really very good, acting like he's the authority 
in the whole world. 

Now, I just want you to know that this is a tough job, you know 
it's a tough job, and I know you can do it. 

Mr. GOSS: Thank you, sir. 

Senator HATCH: Let me just ask you a few questions. You know, 
a primary lesson drawn by many investigators of the September 
11th terrorist attacks was that law enforcement and foreign intelligence 
information was not shared at the analyst level. Now, some 
statutory barriers to the sharing of information have been removed 
by the USA PATRIOT Act and intelligence authorization legislation. 

Now, what is your assessment of how effectively information is 
being shared today by components of the intelligence community at 
the working level? And how would you propose to enhance information 
sharing among the various agencies so that we don't have another 
9/11, or at least we have the best chance of avoiding another 
9/11? 

Mr. GOSS: I would say that it is certainly better than it was, but 
it is not good enough. More work needs to be done. I've seen evidence 
of that myself in the past few weeks. 

As for how we're doing the fusion, we are trying very definitely 
to do co-location, we are trying to get the agencies to interchange 
their analytical people, we are trying to make sure that agencies 
that are very weak in terms of analysts are being supplied analysts 
from other agencies that have those analysts, so that not only do 
we have strong agency analytical capabilities within the individual 
agencies, but we have those analysts working coherently, coordinated 
comprehensively with the fusion center, the TTIC, which is 
the place where the information basically goes round and around 
on the horizontal level and vertically up and down to the local law 
people. 

I think this is a very doable proposition, Senator. It's a question 
of sticking to it and forcing this down into the ranks. The natural 
tendency, as you know, is to cheer for the team, the esprit de corps 
of your Agency. You have to overcome that and make people understand 
it's the totality of the product that we need for the community 
that we all put our imprimatur on and that we're proud of. 

We've got a ways to go on that yet. 

Senator HATCH: Can we rely on you being bipartisan in this position, 
being helpful to both sides of the political equation? 

Mr. GOSS: Yes, sir. Of course. 

Senator HATCH: Can we rely on you giving the President the best 
solid advice you can, whether he or she wants to hear it or not? 

Mr. GOSS: Yes, sir. 

Senator HATCH: You're not afraid to say what the real situation 
is?

Mr. GOSS: Not at all, sir. 

Senator HATCH: And you commit to doing that? 

Mr. GOSS: Yes, sir. 

Senator HATCH: You're a tough enough guy that if you find people 
that aren't doing their job, you're willing to get rid of them or 
at least move them to someplace where they can do their jobs? 

Mr. GOSS: Yes, sir. 

Senator HATCH: You're willing to travel the world and to take the 
time and to put in the effort to be able to do this job? 

Mr. GOSS: Yes I am, sir. 

Senator HATCH: You know it's an overwhelming job? 

Mr. GOSS: I surely do, and I'm looking forward to guidance from 
the Oversight Committee on what all the parameters of the job will 
be when you get through with the reorganization. 

Senator HATCH: Should the intelligence reform effort underway 
now in Congress address the relationship between the DCI and the 
FBI Director? 

Mr. GOSS: It might have to. It depends on which direction you 
go. That would be your decision. I think it's critically important 
that all members of the community work closely together. And I 
think Director Mueller is doing a fabulous job of showing some improvements. 

Equally, the DCI, whoever he or she may be, or whatever the 
title is, the NID, has to be able to work with Homeland Security 
people and the Defense people and the State Department people. 
These are all critical elements. 

Senator HATCH: In your opinion, do you believe that the counterintelligence 
mission should be taken away from the FBI and placed 
in another agency within the intelligence community? 

Mr. GOSS: No, sir. I've supported CI in the FBI. I think that's 
a function--they have a very competent division down there that 
needs to be beefed up a little bit. We've also got the executive function, 
the NCI-Ex function, for the overall community network. I 
think it's a question of building robustness in both places. 

Senator HATCH: The 9/11 Commission Report recommends creation 
of a national counterterrorism center designed to reduce duplication 
of effort on counterterrorism operations and analysis and 
to ``put someone in charge.'' 

Of all the disparate counterterrorism functions across the 15 different 
intelligence agencies and, as the 9/11 Commission Report 
says, ``responsibility and accountability were diffuse.'' Do you believe 
that arranging the community around core mission areas and 
national centers of intelligence is a good way to consolidate, align 
and assign responsibilities within the intelligence community? 

Mr. GOSS: Yes, I do. It's been tried and proven that it does work, 
at least at the agency level. I think it will work at the community 
level. 

Senator HATCH: What national intelligence centers would you 
recommend, besides the NCTC, the National Counterterrorism 
Center, to ensure that we're informing the community, that is truly 
able to predict and warn of the threats of tomorrow? 

Mr. GOSS: Sir, in addition to the NCTC, which terrorism is the 
biggest threat right now, I honestly believe we should be looking 
very closely at some work that has already been started and probably 
should be brought to completion of a WMD national center. I 
think the center template does work for those kinds of 
transnational threats. 

Senator HATCH: Okay. 

What would be your top priority issue? How do we ensure that 
the intelligence community is prepared to confront it with regard 
to terrorism? 

Mr. GOSS: Sir, we need to rebuild the eyes and ears and get them 
out there. It's basically more eyes and ears, more good information 
coming in, better screens to deal with the all-source information for 
our analysts, and making sure that we've got an action capability 
to disrupt once we've got the actionable intelligence. And all of that 
is in process, but it's not in place. 

Senator HATCH: Okay. Do you think you can help get that done? 

Mr. GOSS: Yes, sir, I do. 

Senator HATCH: You're going to need a lot of backing to be able 
to do that. 

Mr. GOSS: Yes, sir, I'm going to need the help of this Committee 
if I'm confirmed. That's for sure. 

Senator HATCH: Well, you'll need the help of the current Administration 
or any future Administration. 

Mr. GOSS: Any Administration, yes, sir. 

Senator HATCH: Okay. 

I, for one, have known you a long time. 

Mr. GOSS: Yes, sir. 

Senator HATCH: I've watched you on the Intelligence Committee 
over there. I've seen you lead out in ways--I've seen you do all 
kinds of investigations. I've seen you do all kinds of intelligence 
analysis over there. I haven't seen you shirk your responsibility in 
any way. We all wish we could do more. We all wish we could accomplish 
every investigation in every possible way. 

I just want you to know that I'm proud that you're willing to 
take this job. It's a tough job. No matter what you do, you're going 
to have criticisms. And no matter what you do, you won't be able 
to fully explain it to the public at large. And you'll have to sit there 
and take it time after time. And some of the criticisms are irresponsible 
criticisms, as you know. And some of them may even 
come from the United States Senate. I know that's hard to believe, 
but it could happen. 

And so I have every confidence that you're going to make a great 
CIA Director. And I'm going to support you with everything I have, 
and I hope everybody else on this Committee will also. I think your 
comments have been very candid, very straightforward. And I personally 
appreciate it. 

Mr. GOSS: Thank you very much, Senator. 

Chairman ROBERTS: Senator Chambliss. 

Senator CHAMBLISS: Thank you very much, Mr. Chairman. 

Mr. Goss, you and your wife, Mariel, survived Charley and 
Frances. You just thought the storms were over until you were 
called to testify today. 

But let me just say, Mr. Chairman, that as someone who has 
known Porter Goss for 10 years, has had the opportunity to work 
with him unlike anybody on this Committee, someone who knows 
him better, I think, than anybody on this Committee, my support 
for him is very well-known publicly as well as privately. 

There was an op-ed that appeared in the Washington Times this 
morning that was written by me, and I would like to ask unanimous 
consent that that op-ed be inserted in the record. 

Chairman ROBERTS: Without objection, so ordered. 

[The information referred to follows:] 

            [From the Washington Times, September 14, 2004] 

                        FOR SMARTER INTELLIGENCE 
                      (By Senator Saxby Chambliss) 

Years before the United States entered World War II, it was General George C. 
Marshall's habit of jotting down names of exceptional officers with whom he came in contact. One of the names he had collected was Dwight Eisenhower who Marshall had promoted far ahead of his contemporaries and sent to Europe to lead the Allied forces to defeat Nazi Germany. 

General Marshall knew that individuals matter and that selecting the right person to carry out a plan is at least as important as the plan itself. Whenever there is a monumental task to be done, we know that critical tasks require exceptional people. 

If we are serious about reforming our intelligence community we will need more 
than structural changes; we absolutely must have quality people who have the leadership, vision, and drive to implement and manage change. In short, we need real reformers in the top positions of our intelligence community to help protect our country from another devastating terrorist attack. 

Porter Goss has been nominated by President Bush to be the Director of Central 
Intelligence at the most critical time in the history of the intelligence community. Intelligence is our first line of defense in our war on terrorism and it is critical for our national security that the next Director of Central Intelligence be successful in his job

The President and many members of both houses of Congress have accepted the 
9/11 Commission's recommendation to create a National Intelligence Director who will be separate from the Director of the Central Intelligence Agency to oversee our entire intelligence community. While some think it would be better to wait on Mr. Goss' confirmation until the new position of National Intelligence Director is enacted into law, the reality is that the intelligence community needs to have quality, experienced leadership in place right now to lead and implement the changes we all know are coming. 

The selection of Porter Goss is a brilliant choice, and he should be confirmed without delay. As a colleague, mentor, and friend of mine for ten years, I know his character, professionalism, leadership abilities, and dedication to duty as few others. 

Porter Goss was an officer in the Army's Military Intelligence Corps, a clandestine case officer in the Central Intelligence Agency, and more recently the Chairman of the House Permanent Select Committee on Intelligence. As the Chairman for almost eight years, he had the opportunity to meet with the heads of intelligence of our major allies. Porter Goss' personal credibility with these foreign intelligence agencies and their leaders is an important factor as we work with our allies to confront our shared threats. His unique and important background as a soldier, CIA clandestine officer, and legislator are unmatched. 

The country needs Porter Goss' leadership. He is committed to reforming our intelligence community. I know this first hand from working with him in the intelligence authorization process. He has been the intelligence community's most thoughtful and constructive critic, but also its most vocal advocate for greater investment in the parts of the intelligence discipline that were allowed to atrophy and that everyone else now realizes need our greatest attention. These areas, long flagged by Porter Goss, include human intelligence (HUMINT), competitive analysis, unilateral clandestine collection, investment in language training, collapsing intelligence 
bureaucracies and sharing of intelligence. 

As a former clandestine case officer who served overseas, Porter Goss knows 
about the hardships, dangers, family separations, and long-hours involved in 
HUMINT operations. He has the highest regard for our intelligence professionals and Porter Goss will work assiduously to improve the morale of the CIA at the same time he works to fix those problems we have identified in the intelligence community. 

Just as General Marshall knew that Dwight Eisenhower was the right person to 
bring our allies together to defeat Nazi Germany, I know that Porter Goss is the right person to implement reforms and fix the problems in the intelligence community. That's why as the United States Senate should confirm President Bush's nomination of Porter Goss to be the next director of the Central Intelligence Agency. 

Under his leadership, our great intelligence professionals will continue to help to strengthen the security of the United States and its allies. 

Senator CHAMBLISS: I think, Mr. Chairman, that I do bring a different 
perspective to this hearing than anybody else here, both pre- 
9/11 as well as post-9/11. I had the opportunity to work with then- 
Chairman Goss relative to the intelligence community, both the 
faults that came out following September 11 as well as the issues 
involved in the intelligence community prior to September 11 that 
came to the forefront on September 11. 

I've had the opportunity to see him operate in the public sector 
on a day-to-day basis from a hearing standpoint. I've had the opportunity 
to dialogue with him in private, both with and without 
other individuals, other Members of the House present, in a bipartisan 
way. And just let it be said for the record that as someone 
who has been there, who has been in the trenches with then-Chairman 
of the House Intelligence Committee, Porter Goss, I have 
never seen a partisan bone in his body. 

Does he advocate the position that he strongly believes in? You 
bet he does. That's his obligation to do that. Does he point out deficiencies 
and arguments from folks on the other side of the aisle or 
on his side of the aisle? You bet he does. He's always been that 
strong an individual. And I think it's incumbent on anybody who 
serves in the capacity of the DCI to be that type of individual. And 
that's one reason that I so strongly support his nomination by the 
President. 

There have been some questions here today not just relative to 
his partisan attitude, but questions relative to why he didn't promote 
legislation in his position as Chairman of the House Intelligence 
Committee to reform the community. Well, let me just say 
that in January of 2001, I went on the Intelligence Committee at 
the suggestion of then-Chairman Goss. 

The suggestion came from Chairman Goss after the Speaker of 
the House created a new Subcommittee on Terrorism and Homeland 
Security within the House Intelligence Committee and asked 
that I go on the Committee to chair that. And that was done only 
with the concurrence of then-Chairman Goss. And I can't overemphasize 
the fact that Chairman Goss, at that time, gave to Jane 
Harman, who was my Ranking Member, who is a very loyal and 
dedicated public servant who is now his ranking, or before he resigned 
was his Ranking Member, he virtually gave us a blank 
check to go anywhere in the world, do anything that we needed to 
do from a research standpoint to look into the terrorist community 
worldwide prior to September 11th. 

And we were in the process of trying to raise the elevation of the 
issue of the potential for a domestic attack by terrorists in the 
United States when along came September 11th and did that for 
us.

Following September 11th, he gave us a free hand in doing the 
initial congressional investigation of the deficiencies within the intelligence community that allowed September 11 to happen. He 
never came to us and said you're going too far, you're doing too 
much. His leadership and his directive to us was to leave no stone 
unturned, do everything you can to find what deficiencies and what 
faults exist within the intelligence community. 

And when we talk about the fact that he did not propose legislation, 
that really is not correct. I dare to say that I don't know 
what's in the Solomon legislation that Mr. Goss co-sponsored several 
years ago, but I'd venture to say if it involved reduction in the 
intelligence budget, it also involved reforming of the intelligence 
community. And I'll be interested to take a further look at that. 

But from a personal experience, after we experienced September 
11, there was a critical issue that Congresswoman Harman and 
myself felt was needed, that we needed to pursue from a legislative 
standpoint. And it had to do with information sharing, both within 
the intelligence community and from the intelligence community 
down to the State and local level. 

She and I worked very long and hard with the concurrence and 
with the day-to-day dialogue ongoing with then-Chairman Goss, as 
well as then-Ranking Member Pelosi in a bipartisan way to craft 
this legislation. 

And Chairman Goss insisted that it be inserted in the intelligence 
authorization bill, and it was inserted. The fact of the matter 
was that in the latter part of 2002 we were working on the 
Homeland Security Bill. And at Chairman Goss' suggestion at that 
point in time, we incorporated that information-sharing bill within 
the Department of Homeland Security legislation, and that is now 
law. 

Now, I don't know how much closer he can be involved in drafting 
and implementing legislation relative to the reforming of the 
intelligence community. 

Another issue that I remember very well was the issue of the 
hamstringing of the CIA subsequent to 1995 as a result of what's 
referred to as the Deutch Guidelines. Chairman Goss was the leader 
on the House side in trying to ensure that we remove that handicap 
from the intelligence community when it came to gathering information 
by way of human assets. And we did repeal the Deutch 
Guidelines in, again, intelligence authorization bills. We did it 
twice because it didn't get implemented. 

I again, specifically remember, the leadership of Chairman Goss 
and then-Chairman Graham on the Senate side in a bipartisan 
way. They went to the CIA and said, now, dadgummit, we have 
passed this legislation eliminating these guidelines, and ya'll need 
to implement them. 

And in fact, Director Tenet did subsequently remove those guidelines, 
so I get a little disconcerted when I hear Members on the 
other side really asking questions when they really don't understand 
the facts of what this man did in his eight years as Chairman 
of the House Intelligence Committee. 

That being said, I do want to say that I think it's incumbent 
upon the Minority to ask very tough questions, because there's no 
more important position in the United States Government today 
than ensuring that we have somebody as head of the intelligence 
Agency that can do the job that Mr. Goss is being asked to do. And 
I think he's done a very good job of taking on each and every one 
of those difficult questions and providing the right answers for 
them. 

Let me ask a couple of questions relative to the reform legislation 
that we were talking about. And none of us at this point in time 
know exactly what direction we're going to take, but I think it's 
safe to say there will be created the position of National Intelligence 
Director. 

And, Mr. Goss, do you as head of the CIA--or will you as head 
of the CIA--be willing to accept that position being created, whether 
you're considered for it or not? You're going to then be in the 
position of Director of CIA when certainly some of your power and 
authority will be diminished. 

But are you willing to work with the Administration to make 
sure that, whatever the terms and conditions of the National Intelligence 
Director legislation might be, that you'd be willing to work 
to make sure that it is fully implemented according to the way that 
it is passed by Congress? 

Mr. GOSS: Senator, I, of course, would be pleased to serve at the 
pleasure of the President and with the concurrence of the appropriate 
Committee here for any job that people found me useful in 
dealing with the intelligence and national security issues. 

We are a country at war. And I feel a very keen sense of duty 
and responsibility to that. But very clearly, I don't know either how 
the reorganization is going to come out--and there is uncertainty 
of what this DCI nomination, if I am confirmed, will actually lead 
to.

I will participate the best I possibly can, as I'm asked on behalf 
of our country and the people who lead it. 

Senator CHAMBLISS: You know that this issue of information 
sharing has really been of concern to me for the last four years. 
And you know how diligently particularly Jane Harman and I have 
worked on this. And it is an important fundamental issue, which 
I first addressed as Chairman of that Subcommittee on the HPSCI. 

Now, I was dismayed recently to hear the testimony of General 
Kern about the CIA's refusal to provide information to the Army 
in order to complete their investigation on the abuses at Abu 
Ghurayb. And I really find this attitude on the part of the CIA totally 
unacceptable. And I suspect that we'll have a lot to do, especially 
in the CIA, to improve our information sharing. 

Could you please tell us your views on information sharing and 
how you would make sure that information is better shared within 
and among all elements of the intelligence community? 

Mr. GOSS: Thank you, Senator. 

I totally agree with your suggestion about the need for full cooperation
--and I have made comment to that--by the CIA with 
any ongoing investigations. They are part of--they need to be cooperative. 
And I don't know the details. But if I'm confirmed, certainly 
I will be dealing with that. And you will see full cooperation. 

With regard to information, as I mentioned earlier in response to 
another question about information sharing, we have, when I was 
still in the position of Chairman of the HPSCI, this year put in our 
bill, which I hope you will all consider when you come to that legislative 
part, of a chief information officer. This is a new deal. It definitely 
requires some push and attention on that very subject of information 
sharing. 

We need the enterprise architecture. You have been a fabulous 
leader on this when you were on the Committee. I urge you to keep 
up your leadership efforts on it. It is unfinished business for sure. 
It is critical to the proper working of the community. 

I am very definitely open for suggestions, ideas and so forth, if 
confirmed, about how we make it better, but the whole direction of 
where we're going on the reorganization debate is to set up a community 
that does have information exchange that works better. 

We've had the advantage of a very good county sheriff down in 
my district who was sort of one of the people who volunteered to 
be a guinea pig. And under Senator Graham's leadership in Florida, 
we convened a group right after 9/11 to talk about vertical integration 
of information. 

I know it can work. I've seen it work. 

We had a success case. It turned out the person involved wasn't 
guilty of anything, but it was a roamer that was picked up in Georgia. 
The person was apprehended in Florida. It was done properly 
and it shows that a Federal input, properly handled, put through 
the process and put back out can get actionable attention in a timely 
way in this country. And that's something we definitely need 
with the kind of threat level we've got. 

Senator CHAMBLISS: Thank you. And thanks to you and Mariel 
for your willingness to continue to serve your country. 

Mr. GOSS: Thank you, Senator. 

Chairman ROBERTS: Senator Snowe. 

Senator SNOWE: Thank you, Mr. Chairman. 

I, too, want to join our colleagues here today and welcome you, 
Mr. Goss and Mariel. And also appreciate the fact that you've accepted 
this nomination. It means you're taking a detour in your 
own personal lives, embarking on this monumental journey. 

Your nomination comes at a seminal moment, not only for the 
country, but also for the Intelligence Committee, because there's no 
longer any question of whether or not we will be engaged in a comprehensive, 
critical restructuring of the intelligence community, unlike 
any reform or change the intelligence community has experienced 
since its origin. 

So I have no doubt about your character, your competence, your 
abilities. I can attest to your bipartisanship. 

I've served with Mr. Goss in the House of Representatives. And 
I think that you're extremely capable. Your experience in the field 
as a CIA officer, as well as having chaired the Oversight Committee, 
certainly I think gives you a breadth and depth of experience 
these times require. 

I think the real issue now is, and what is vital, particularly that 
comes on the heels of definitive reports, the Joint Inquiry by your 
Committee and this Committee in the previous Congress, the 9/11 
Commission Report, as well as our study on the investigation of 
weapons of mass destruction and the failure of the prewar assessments 
to reconcile with reality. 

So it's going to be vital to know how your experience and knowledge 
is going to be synthesized into tangible results and work to 
make the gears of the intelligence community totally synchronized 
and how it's going to function, and how we're going to execute all 
of this change, irrespective of what we do. 

Because the community is on the cusp and the precipice of major 
change. And you're going to be the first person who's going to enter 
the door of the intelligence community that's going to have the ability 
to lay the foundation for the intelligence community of the 21st 
Century. So I think your responsibilities, your leadership that has 
to be firm, bold and visionary, is going to be absolutely paramount 
in order to steer this Ship of State around during these transformational 
times. I see it that way. 

This is my first term on the Intelligence Committee, but I 
worked for 10 years in the House on terrorism issues, and I know 
it's hard to get people's attention when the time comes for change. 
The point is, it's not what we need to do today, it's what we're 
going to need to do tomorrow, and who's going to be able to look 
down the road. 

So you're entering a community that, you know, understandably 
is resistant to change. You know, we have thousands of excellent 
men and women who are doing extraordinary jobs and putting 
themselves on the line. But now the time has come for some monumental 
change, and there are diametrically opposed views as to 
whether or not that change should occur, how it should occur, it's 
already taken place. 

And that's, you know, some of the issues that I want to explore 
with you today. 

On the day in which we released our report on the stockpiles of 
weapons of mass destruction investigation that was based on a 
year-plus effort by the staff and the Committee, one of the highestranking 
members within the CIA had a press conference and indicated 
that, ``We recognize the shortcomings in the prewar Iraq intelligence 
and have taken a number of steps to address them and 
to ensure they're not repeated. It is wrong to exaggerate the flaws 
and leap to the judgment that our challenges with the prewar Iraq 
weapons intelligence are evidence of sweeping problems across the 
broad spectrum of issues with which the intelligence community 
must deal.'' 

Then on the other hand, on the other side of the spectrum, this 
summer in August we had a hearing with Dr. Kay, who, as you 
know, was the head of the Iraq Survey Group. And I asked him 
about all the proposed organizational changes, which, you know, I 
embrace. I mean, I did so during the course of this investigation. 
It's not change for the sake of change or changing boxes around; 
it's changing a whole community in terms of attitude, culture, predisposition, 
skills and professional management. 

Dr. Kay said--and I asked him, ``Would it have been a very different 
product, the National Intelligence Estimate, if we had had 
major organizational changes of the types that we were talking 
about creating, a National Director of Intelligence?'' 

He said, ``It could have been a very different product, in my judgment. 
It would not just be organizational changes, the failure you 
documented''--referring to some of the issues I raised in our report
--``so thoroughly were not just failures of organization. They 
were failures of tradecraft, failures of culture, failures of management, 
conscious mismanagement of the information flow.'' 

So, I guess the point is here that it's making sure that you are 
bringing about the spirit of leadership that it's going to require. It's 
not going to be an easy job; it's not going to transform overnight, 
we know that. But it's the spirit in leadership in that you're prepared 
to make the kinds of changes so that you can help the Agency 
because they're going to, first and foremost, face the greatest 
change, no matter what reorganization we ultimately enact. 

Mr. GOSS: Senator, thank you. 

You've talked about the blueprints. Reform within the agencies, 
getting things fixed within the individual agencies, is relatively 
simple. It's not totally easy, but it's relatively simple. 
Reform among the agencies is going to require blueprints. And 
it's going to require decisions on those. And those will be your decisions 
and the Administration's decisions. 

I will be, if I'm confirmed, a working stiff taking my direction on 
how this happens. Whatever cards are dealt to me I will play to 
the best I can to create the remedies for the problems that have 
been clearly pointed out in your very excellent WMD report. 

I don't disagree with some of the things Dr. Kay said. Some of 
the things he said the first time and some of the things he said the 
second time, I'm still rationalizing out. But I think, on balance, we 
understand what the problems were and that they're fixable, and 
they need to be fixed right now. 

I believe those things can be fixed. I wouldn't be sitting here otherwise. 
I am totally committed to reform in concept, because I've 
seen the problem for too long. 

I thoroughly believe the window is open and it will not stay open 
forever. I think it is very important for the people who can make 
reform happen, our legislators and so forth, to give us those blueprints 
in the community on the Executive side so we can go out 
and get on with the job of redesigning the capabilities to work the 
way we want them to get a better product so we don't have another 
Dr. Kay report. I believe that. 

Senator SNOWE: And I appreciate that. 

And I think the concern that I have for where we are going is 
whether or not we're going to have the ability to foresee the future. 
I mean, your predecessor, for example, former Director Tenet, was 
trying to get everybody's attention back in 1998. He didn't garner 
that attention. 

I mean, if you look at the emerging threat reports of the Central 
Intelligence Agency that were submitted to Congress on an annual 
basis from 1997 through 2001, terrorism was not viewed as the 
number one issue by the community until 2001 itself, when they 
recognized Usama bin Ladin and his global network would take on 
a greater prominence. 

But while there even was the realization that there was the potential 
for attack of some sort, they didn't, obviously, have the intelligence. 
Director Tenet obviously felt very strongly about it. He 
was trying to get everybody's attention including Congress, the 
President. His own community wasn't able to do that. 

How are we going to avoid just focusing on one single threat and 
not be overwhelmed by another threat that we didn't anticipate? 

One, it bothers me he wasn't able to and I'll be interested to hear 
your views. Did you think it was a failure of leadership, a failure 
of organization, a failure of culture? What was it that he was not 
able to do to garner people's attention to focus on an issue, on a 
risk and a threat to this country, and he wasn't able to get anybody's 
attention? 

And what are we going to do to avoid that scenario in the future? 
Because, you know, I believe that you have to look down the road 
and beyond. And that's my greatest concern of all, that we will be 
focusing on these charts. And I agree with them totally that we've 
got to change the flow charts, without a doubt. That's the beginning. 

But at the same time, we can't just be focusing on a single risk. 
Nuclear terrorism, for example. I mean, there's so many spheres 
and dimensions to threats that are going to pose a risk to our country 
and Americans and our interests abroad. 

So what was it that he failed to do that you have identified that 
you would do differently? How would you approach it in identifying 
emerging threats of the future and making sure it gets everybody's 
attention, irrespective if it's not on anybody's radar screen? 

Mr. GOSS: I think the manifestation of that is that our analysts 
were involved in crisis analysis and there was not enough analytical 
horsepower to go around to do the predictive type analysis that 
you talk about. 

The intelligence bill this year that the House put out on the floor 
that had some critical language in it was exactly on that point, 
that we were not covering the rest of the target. And we used some 
very strong language that caused the then-Director, the DCI, to use 
some very strong language back, to be very candid. 

I believe it takes sometimes very blunt, strong language. I don't 
like doing it. I call it tough love, but I think occasionally you have 
to do that. I believe that there are gaps that should not be there 
that need to be fixed. 

I can tell you that is the drift, that's the direction and that is 
now the mission. And if I'm confirmed, I understand those gaps 
have to be filled. We cannot be a one-target team here. We've got 
to be able to deal with a global world. 

Senator SNOWE: I appreciate that. Thank you. 

And thank you, Mr. Chairman. 

Chairman ROBERTS: I thank the Senator. 

Senator Rockefeller, are you prepared for additional questions? If 
so, I will yield to you and then I have just a couple. Well, I wasn't 
ready. I was, sort of, hoping that you would go first, but anyway. 

Let me just ask a couple here and then I want to respond to the 
comments by Senator Chambliss and indirectly to the concerns 
raised by Senator Levin and so comprehensively pointed out by the 
distinguished Vice Chairman. 

I want to talk about risk-aversion. And I have, sort of, what I 
call a computer speech--and you know what that is; that's when 
somebody in public office is asked the same question about 15 
times and, you know, you sort of press the computer and then this 
speech rolls out--in regards to risk-aversion. And I used it in a 
manner of speaking of connecting the dots. 

And I remember during the USS COLE investigation that we finally 
determined was necessary in the Senate Intelligence Committee, 
a young man, a DIA agent, quit on the day of that tragedy 
thinking that he had provided pertinent information that, if given 
to the appropriate policymakers, should have resulted in a threat 
warning and that hopefully the captain of the COLE would not 
have then gone into the Port of Aden. 

Back during that particular time, it seemed to me that if you had 
to have 10 dots to connect and you had a great deal of collection 
and you're an analyst, that you had to connect probably seven, 
eight, nine of them to make sure that you were not making a mistake 
or that you were risk-averse until you moved that product. 

And after 9/11 came along, the whole world changed and everybody 
said, ``My goodness, we can't be risk-averse,'' so out of 10 
dots--and there could be 100 dots or, for that matter, 1,000, to 
fully give a picture, sort of a jigsaw puzzle--but then if you had 
three or four dots and you connected them, you'd better push the 
product, because you don't want to be risk-averse. But you could 
be wrong. And so that's sort of the nature of the beast. You're 
darned if you do, and darned if you don't. And the seminal event 
of course was 9/11. 

Now I can go down all of the ``Oh, my God'' hearings that we 
have had in your former Committee and this Committee--``Oh my 
God, how did this happen?'' Khobar; the embassy bombings; Khartoum 
chemical plant--whoops, the wrong plant; India nuclear tests; 
9/11, of course; the COLE; probably want to put Somalia in there 
because it was the same people that were doing these things. 

And the big question was how could you connect the dots? And 
why couldn't you have come up with analysis that could be shared 
with a policymaker so a threat warning could be issued? 

So my question is: do you think there is a risk-averse mindset 
in the intelligence community, more especially today? And if so, as 
the DCI, what would you do to change the risk-averse mindset 
within the intelligence community? And the last part of that, is 
Congress part of this problem? 

Mr. GOSS: I certainly believe on the analytical side there is more 
hesitation about being bold and being innovative because a lot of 
people feel that they don't want to take the risk of being wrong, 
of getting outside the box, of doing the daring thing, as it were, because 
they are worried the sky will fall on them. That is one of the 
ripples, I believe, that is out there, Mr. Chairman. 

In the DO, I think that the word is getting around slowly. It is 
not a done deal, by any means. 

Senator Chambliss, very correctly, pointed out that he did some 
amazing things on the Committee to get that to happen, along with 
some other people. And I believe we finally got the action we wanted 
on the day after he made a public announcement about it. 

So I think it has taken a combined effort of a lot of people to 
send the message. The message is not completely understood. 

A lot of people don't understand that the nature of the intelligence 
business is if you are going out for win-win situations, you 
don't want to be in the intelligence business. That is what it is not 
about. You have got to take the risk. 

Now some have said, as you have correctly pointed out, sir, that 
we were not sufficiently alert before 9/11 and then, after 9/11, we 
were too alert. So the answer is yes, there is an operational climate 
that affects everybody. 

I believe that the message is out there in the DO right now that 
nice spies is not the formula right now, that risk will be rewarded. 
But I don't believe there is a full confidence in those words yet. 

What will I do? I will try and put confidence behind those words 
for our operators. I will give them the chance to make the mistakes 
out there, if I'm confirmed as the DCI. 

I will give them more leash, I will be very candid. And frankly, 
if I am confirmed as DCI, I will probably be up here explaining to 
you, hopefully in closed session, about why something went wrong. 

But sometimes the things that only have a 50 percent chance of 
success are worth doing. And I think it's very important that that 
risk be taken if it is sufficiently deserved for the information or the 
action that may be involved. I think those are judgment calls that 
the Oversight Committee certainly should be participating in. 

Do I think Congress has a role? Yes, I do, very definitely. I think 
Congress is understanding, and dealing with colleagues is very important, 
because not all colleagues are privileged to sit on these 
Committees. 

Chairman ROBERTS: I'm not going to get into the instant judgment 
business that I think that we have, including this Chairman, 
in regards to criticism when something goes wrong and then obviously, 
as has been said, why the intel community can't really talk 
about its successes. I just hope we're not too harsh on the one side 
and ignore the other. 

Let me just touch on--and I may run over time, Mr. Vice Chairman. 
And if so, I would be happy to yield back to you. 

But I now have the Balance the Budget Act by Congressman Solomon. 
This, as I recall in my previous days in the House when I 
had the privilege of being a House Member--by the way, I called 
the Senate the ``cave of the winds'' at that time. I was informed by 
Senator Kassebaum and Senator Dole that was not appropriate. 

But at any rate, here it is. And it's across the board. And it's a 
call to balance the budget of the United States Government by restructuring 
government, reducing Federal spending, eliminating 
the deficit, limiting bureaucracy and restoring federalism. That's a 
rather ambitious goal. 

And Congressman Solomon, bless his heart, a former Marine, 
would do this every year. And you know, as a Member of the Rules 
Committee, that every year this bill went nowhere, mainly because 
we were in the Minority. 

And then he got his chance. And this was the number one goal 
of the then-Majority party, the Republican Party, and the Congress 
of the United States: to achieve a balanced budget. But it involved 
everything from aardvarks to zebras, if I can use that term, as well 
as intelligence. 

And I have here, I think, that you were shifting things around-- 
I'm using the editorial ``you''--much in the same fashion as some 
of us are proposing today in order to achieve the savings. Now I'll 
let the statement stand by the distinguished Vice Chairman, who 
has that accurately. 

But basically--I'm losing my place here; oh, here we go--the Solomon-
Goss proposal was an effort to eliminate redundancy within 
the intelligence community and to put analysts in consolidated 
units so they can more easily share information. That almost 
sounds like the Roberts bill. 

Dana Milbank's article admits, in The Washington Post, some of 
the legislation sounds much like the current proposals, including a 
plan to reduce the redundancy. But as I say again, this was Solomon's 
bill, his pet project. And it was across the board. 

Senator Kerry proposed a $45 billion cut aimed at science, intelligence 
and defense projects within Committee. Basically, he decided 
when that became stalled that he would then go to the 
floor--if I have this right, and I stand to be corrected--and propose 
a $6 billion cut, a targeted cut, at intelligence, as opposed to an 
across-the-board cut. 

And he indicated that these were clearly pork barrel boondoggles. 
And in his view, I will give any Senator credit in terms of intent, 
but that was more of a directed cut. 

That did come to a vote. And it was defeated, 75 to 20. I think 
that's right; yes, 75 to 20. 

And it was aimed at the National Foreign Intelligence Program, 
or the NFIP program, the tactical Intelligence or TIARA program. 
And there are many comments about how that was not in the best 
interest of the Senate by his colleagues. 

So I think there is a difference. That might just be my personal 
opinion because I can remember my angst as Chairman of the Agriculture 
Committee in looking over Mr. Solomon's total package 
and indicating to the leadership that it just simply would not work, 
as far as I was concerned, on agriculture. 

And it never really went anywhere, as opposed to a more specific 
attempt in regards to intelligence. And then I think again there is 
a difference between trying to move things around. 

Now I say that only because it piqued my interest, because I certainly 
remembered that effort back when I was in the House. I was 
not favorable of the activity. I don't know if that answers the question 
for Senator Chambliss or if it sheds any light over and above 
the comparison that we are trying to make here on who is strong 
for intelligence. 

I might add that I think both Senator Kerry and Congressman 
Goss, at this particular day and age, clearly understand the need 
for better investment in intelligence and perhaps this should not be 
that much of an issue. 

With that, I have exceeded my timeframe. And I will be happy 
to recognize the Vice Chairman. 

Vice Chairman ROCKEFELLER: Thank you, Mr. Chairman, very 
much. And I understand the points that you are trying to make. 
But it remains a fact, Mr. Goss, and that's we have to just go on 
this. You say the record is the record. 

When you put your name on a bill, your name is on the bill. The 
bill usually--we produce 10,000 and pass 100--so there is always 
a good chance it's not going to pass. But you don't put your name 
on a bill if you don't agree with, for the most part, what is in the 
bill. 

In your case, you wouldn't have been as much interested in agriculture 
as you would have been in the intelligence part of it--or he 
might have been. 

Chairman ROBERTS: He has an organic farm, sir. I beg to differ. 

Vice Chairman ROCKEFELLER: And during that six-year period, 
1996 to 2001--I emphasize this because frankly, nobody is sort of 
taking this up at all. It's just been left to hang out there--the Republicans 
controlled both Houses of Congress. And that Republican 
Congress cut the President's request for intelligence in 1996, 1997, 
1998 and 2001. And in 1999, the Republican-controlled Congress 
initially cut the intelligence budget, but then passed a large, onetime 
appropriation. 

I'm not going to get back into it. I'm just going to say that the 
numbers are there. The numbers are there. I can't present them. 
They are there. 

And then I'll leave it at that. 

I want to get back to the declassification of Richard Clarke's testimony. 

Mr. GOSS: I'm sorry? 

Vice Chairman ROCKEFELLER: The declassification of Richard 
Clarke's testimony. I apologize. You know, of course, of his position. 
You know of the fact that when he spoke before the 9/11 Commission 
he was accused of perjuring himself by Senator Frist. 

People--they said what he said before the 9/11 Commission 
didn't agree with what he said before all of us when we were doing 
this together. And I just wanted to ask: did you ever suggest that 
Mr. Clarke may have lied or perjured himself before the Joint Congressional 
Inquiry on 9/11? 

Mr. GOSS: The answer to the question is I made a statement in 
response to a press question about a statement that Mr. Clarke 
made, which he subsequently backed down from. And I said that 
if he were saying that that were the case, then that would not be 
accurate; it would be close to a lie. 

It had to do with the question of whether or not there had been 
no attention whatsoever to the terrorist threat, which is what his 
statement was. I believe in public testimony Mr. Clarke said we all 
need to cool off and back down. And perhaps I was a little overzealous 
in what I said. 

Vice Chairman ROCKEFELLER: I think the NSC in 2004, they forwarded 
the declassified testimony of Richard Clarke to you. You 
have that. 

Mr. GOSS: I requested it, sir. 

Vice Chairman ROCKEFELLER: Yes. And you have it. Did you take 
any action to publicly release it? 

Mr. GOSS: No, sir. 

Vice Chairman ROCKEFELLER: Would you be willing to publicly 
release it? 

Mr. GOSS: I guess the way I answer the question, Senator, is I 
am no longer on the Committee. The reason I made the request 
was to get the information for the Committee to deliberate over to 
see if there was as much of an inconsistency as appeared at first. 

That matter has not substantially advanced, as far as I know, in 
the Committee. I'm just not in a position to tell you what the Committee 
is doing. 

Vice Chairman ROCKEFELLER: I understand that you aren't the 
head of the Committee. But it hasn't been very long that you 
haven't been. Then maybe I should just say: why didn't you release 
it?

Mr. GOSS: Frankly, I had other higher priorities to deal with as 
Chairman of the Committee. That was not something that came 
back to be on my plate as a mater of urgency. 

Vice Chairman ROCKEFELLER: You made a number of statements 
about the Clinton Administration and congressional Democrats for 
cutting human intelligence collection programs in the 1990s. And 
I need to talk about this, Mr. Goss, not because I don't have a very 
high regard for you and respect you very much, but because this 
is a confirmation process in which probably the single most important 
thing, other than qualifications and knowledge about the job-- 
knowledge about the job and you surely have that--is the question 
of independence, of the non-politicalness in an area where everything 
has become so political that the American people are turning 
away in droves. 

This is the worst sort of situation I have ever seen in 40 years 
in public life. And so that is why this question of independence, 
nonpartisanship and all the rest of it is so important. 

And you criticize Democrats for limiting the intelligence ability 
to carry out its mission. Now I have pointed out already I believe 
this claim is not only partisan, but it's also correct. 

On November 6th, you gave a speech entitled, ``A Blueprint for 
Intelligence in the 21st Century.'' And in it, you made the observation: 
``I am convinced,''--your words--``that the U.S. clandestine 
service, the CIA's directorate of operations, was, in the mid-to-late- 
1980s, too large.'' 

So in a sense, by your own assessment, you believe our human 
intelligence collection, if I'm correct in my quote, needed to be cut 
by the time the 1990s began. And I just want to know if that is 
a fair statement or if it is not a fair statement. 

Mr. GOSS: I believe it's a fair statement. 

Vice Chairman ROCKEFELLER: Thank you, sir. 

Mr. Goss, during the October 2002 House floor debate on whether 
to authorize the use of military force against Iraq, which obviously 
was a high point everywhere, you made the following statement: 
``Evidence supports Iraq's involvement in the first and probably 
the second World Trade Center bombing.'' 

Now as you know, the intelligence community, the Joint 9/11 
Commission congressional inquiry, which you co-chaired, the Kane- 
Hamilton Commission, looked into the al-Qa'ida plot of September 
11 and found no Iraq involvement in the attacks at all. I am just 
interested what evidence you might have in referring to your claim 
that there was involvement. And do you still stand by those claims? 

Mr. GOSS: Senator, that was in 2002. And that was based on the 
information that we had at the time. And it was my best judgment. 
I, like everybody else, was relying on information that was presented 
to us. And I thought it was accurate. 

It turned out it was not as conclusive evidence as we thought it 
was. There was some question, as you know about some things that 
happened or may not have happened or the significance of them 
happening was not properly interpreted. 

I believe it is fair to say that our analysts were giving us worstcase 
scenarios. And we were accepting worst-case scenarios. 

Vice Chairman ROCKEFELLER: Thank you. 

Chairman Roberts and I worked mightily--not always happily at 
the beginning, but mightily--about the collection and the analysis 
and the production of intelligence. And under our rules, one can go 
on and look at the use, misuse, whatever of that by policymakers. 

But that was not something that was going to happen. And so 
we sat down and we simply worked out our problems and have 
worked very, very hard at having a good bipartisan relationship 
and produced what you yourself have indicated was a really good 
report--and I'm really proud of that report and I know that Chairman 
Roberts is too--about pre-war intelligence. Now it didn't cover 
everything I wanted. But what it did was very important. 

You also had that responsibility. And I don't know where that report 
is that you all produced. I know there were press releases. I 
don't know if it's ever been completed. 

Was it conducted on a bipartisan basis with the involvement of 
Congresswoman Jane Harman and the Minority staff? I mean, 
given the fact that Members of this Committee--our Committee 
had to request--Bob Graham in particular had to request, and 
Richard Shelby--that the intelligence community produce a National 
Intelligence Estimate on Iraq in September of 2002, only 
three weeks, an unheard of way to put together an NIE, classified, 
much less unclassified or unclassified, much less classified. And 
that product was extremely hastily put together. Do you still hold 
to the opinion that Iraq intelligence assessments were timely? 

So number one, what about the report? Has your opinion of a 
year ago changed when you said that you had no reason to believe 
that intelligence assessments in Iraq were wrong, inaccurate, untimely 
or biased? 

Mr. GOSS: There are a number of questions there. I will try to 
get them, Mr. Vice Chairman. 

The first one on the Committee, I left the Committee at a time 
when the report is in work. The answer is yes. The Committee tries 
hard to turn out bipartisan--I would rather say nonpartisan, but 
bipartisan is right because there are two side-products. 

The planning, as was very clear to all Members of the Committee 
and it was no secret to anybody--was that we simply would do four 
projects this year in the Committee: the authorization bill; the language 
provision bill, which is included now in the authorization 
bill, which is a task that's been completed and I hope will be received 
well by this Committee; the WMD report, our view of it; and 
reorganization or reform of the community. 

Those were our four tasks, set out in an orderly way, to be done 
the way we do business on the HPSCI side, which is more often, 
frankly, in closed session. It's just the way we have done it over 
there. It's the tradition. 

I believe that that report is being prepared. I think there are differences 
in the goals for the two reports. Our report is focused on 
sufficiency of resources to the intelligence community. We did have 
one public hearing on that subject. There have been other closed 
hearings that are relevant to that. 

I believe that you will find that when that report is done that 
a lot of what you have already covered so well in your WMD report 
will not be necessary in that report. There will be some further attention 
to sufficiency. 

And more than that, we will have the advantage of the extra 
time that has gone by. We may have information from Mr. Duelfer, 
which is out there. We may have further information from interrogations 
of detainees and so forth that's out there. 

Originally, I believe your report was scheduled to be released 
somewhat earlier in the year. My thinking--and I fully informed 
the Committee on this and the staff, there is no question about 
that--was that perhaps we could do the best for the people of the 
United States if we had two reports during the year so we would 
have an ongoing picture, sort of a collage of how things were progressing. 

But the idea that you have come out with, as I have said publicly, 
what you found in your WMD report, I think, is very, very 
helpful and pretty much on the mark all over the place. 

Vice Chairman ROCKEFELLER: So when is it, sir, that we may expect 
your product? 

Mr. GOSS: Sir, this is not in any way---- 

Vice Chairman ROCKEFELLER: Not your product, but the Committee's 
product. 

Mr. GOSS: It's not a flip answer. 

Vice Chairman ROCKEFELLER: Yes. 

Mr. GOSS: I resigned---- 

Vice Chairman ROCKEFELLER: I understand that. 

Mr. GOSS: I think it was totally appropriate to get out of the 
business. 

Vice Chairman ROCKEFELLER: And I'm caught in that trap. But 
the record is the record and decisions were made to do this in a 
different way. 

Mr. GOSS: Yes, sir. That decision was made. 

Vice Chairman ROCKEFELLER: When might it be that the Committee 
might come out with this report, since that is what we were 
all charged to do? 

Mr. GOSS: We were aiming, sir, for after the break, after the 
summer break. 

Vice Chairman ROCKEFELLER: Thank you, sir. 

Chairman ROBERTS: I think it's Senator Levin. I apologize. 

Senator Wyden. 

Senator WYDEN: Thank you, Mr. Chairman. 

Congressman Goss, I want to come back to this point I made earlier 
about what I feel has been your slowness to get to the issue 
of intelligence reform. I cited earlier your being on the Committee 
for eight years. You put in a bill a couple of months ago. You have 
been in the House for 16 years. 

And when I asked you about why you had been slow to introduce 
legislation, earlier you said, well, it had been hard to get attention 
to the topic. Let me tell you, sir, I just think that is a ``hit your 
forehead'' kind of answer. 

You are the Chairman of the Committee. Of course you can get 
attention if you lay out a bold, aggressive kind of proposal. And 
that's what you get gavels for. I mean, chairmen, in effect, have a 
bully pulpit. And so I want to again, because of my affection for 
you, see if I can get a sense of why you did some of the things that 
you did and how you might change in the future. 

And let me start with the 1996 initiative where you were a member 
of the Brown-Rudman Commission, studied the intelligence 
community and it issued a set of recommendations for reform. So 
you would have had an opportunity then to lay out a legislative 
proposal for reform. My understanding is you did not. 

And I would like to know, on the basis of that 1996 initiative 
where you were centrally involved, why you did not try to reform 
the intelligence community at that time, given your role on the 
commission? 

Mr. GOSS: Senator, I was not the Chairman at that time. The 
Chairman at that time was choosing to follow the IC-21 formula. 
I did recommend strongly the Aspin-Brown recommendations. 

And one of those---- 

Senator WYDEN: But you introduced no legislation. 

Mr. GOSS: No, sir, I did not. 

Senator WYDEN: And why was that? 

Mr. GOSS: Because I introduced the report to the Chairman of 
the Committee and asked him to give it consideration. And he did. 
And that was not his decision to go forward with that. 

Senator WYDEN: All right. In 2002, you were part of the Joint Inquiry. 
There was a joint inquiry into 9/11, of course, the Senate 
and the House, another report with recommendations, including 
creating a strong national intelligence directorate. You were Chairman 
then. Again, no legislation to implement reforms. 

What I am trying to do, you have said, ``The record is the record.'' 
And I will tell you it's the record that I find so troubling. And what 
I would like to do is get a sense that your future record would be 
different. 

And perhaps you could tell me why, after 2002, where you were 
the Chairman, a proposal was made for changes in the intelligence 
community, why didn't you introduce legislation then? Why didn't 
you say, here is a chance to really make a difference and I'm going 
to use my chairmanship to initiate reform? 

Mr. GOSS: Senator, I think that what has happened that has 
opened the window to allow this engagement to reform is that our 
constituency now understands the problem. I think that had not 
happened before 9/11. We were focusing on a bite at a time type 
reform. A little bit, we could do, up until that time. 

After 9/11, it became very apparent that we needed a different 
form of protection. The understanding of the value of intelligence 
became more widespread. I think there is a very broad constituency. 

Look at the number of issues right now involving intelligence 
that are really on the front burner, on the front pages of the media. 
It's extraordinary. Four years ago, that was not the way it is. 

I am very proud that we have been able to move so fast in terms 
of the window being open and the engagement I am seeing with a 
great number of very thoughtful presentations coming forward on 
reform this year from the legislative side, to say nothing of the extraordinarily strong engagement from the Administration on this. 
I think we're going to get this done. I think now is the moment. 

Senator WYDEN: I will not try to make a definition of what ``fast'' 
is. But I will tell you that your idea of saying that the constituency 
wasn't ready and that that was again the rationale for going slow, 
that's just unacceptable to me. Leaders are supposed to lead. 

And I have just cited two examples where someone with your 
stature and your prestige could have led in recent years after it 
was documented that there were problems. You were a leader in 
the intelligence field. And nothing happened. 

And that is what I hope--and Mr. Chairman, I have already indicated 
I hope we will have a second day of hearings. I have a 
great deal more I am going to get into and try to use my 10 minutes. 
I'm anxious to meet with Congressman Goss in my office to 
again try to see if we're going to get a commitment to some reform. 
And we'll just use the rest of my 10 minutes for some additional 
questions. 

Now one reform that I think is important is the one that Senator 
Snowe and Senator Lott and I have in order to shake up the classification 
system. I think today this system is just wildly abused. It's 
more for political protection really than to protect the national security 
interests of the country. 

I don't expect you to take a position on the bipartisan bill that 
we have. But I would like to ask you about one feature in particular. 

We propose--Senator Snowe, Senator Lott and myself--to give 
Congress the right to appeal a declassification decision, so that we 
strike a balance between the Congress and the Executive Branch. 
And then when the Executive Branch in the future essentially tries 
to cover themselves--and make no mistake about it, I think it's 
gone on through all kinds of Administrations, Democrats and Republicans
--there will be an opportunity for Congress to appeal. 

Would you be supportive of the concept of Congress having a 
right of appeal for an Executive Branch decision on classification? 

Mr. GOSS: Senator, I believe there is a system already in place 
for both the House and the Senate to deal with matters that they 
disagree with. 

Senator WYDEN: Do you support reforming that? I think you and 
I know that is never used. I mean, you talk about water torture. 
I mean, in order to use something like that, that is a huge aroundthe-
mulberry-bush kind of exercise. 

My question then would be: will you support reforming the process 
so there can be an expeditious way for the Congress of the 
United States to appeal a classification decision? 

Mr. GOSS: I believe that there should be working arrangements 
that provide for those kinds of matters. We have seen that. I have 
participated myself and had some very strong public statements to 
say about how the system is broken on that. I believe it needs a 
new system. I certainly agree with that. 

Senator WYDEN: I appreciate that answer. I am going to emphasize 
there that it was a new system that you would be supportive 
of, because I take note of the fact if it hadn't been for Senator Roberts 
and Senator Rockefeller, even the Senate report would have 
been mostly black ink. And that certainly wouldn't have been in 
the public interest. And Senators Roberts and Rockefeller did the 
heavy lifting in order to ensure that the public got the facts. 

I want to ask you a question about the U.S. relationship with 
Israel. And I believe that the close strategic cooperation that our 
government has with Israel is very much in the national security 
interest of the country, very much in the interest of people in Florida 
and Oregon and everywhere else. 

I think it is to the benefit of our national security. And so I am 
concerned this afternoon about the allegations about this Defense 
Department analyst--and they are allegations--providing classified 
information to Israel and the effect that the case might have on the 
close U.S.-Israel relationship that I think is important. 

My question to you is, based on what you know, how would you 
deal with this situation as CIA Director so as to ensure that our 
laws were followed and also the close U.S.-Israel relationship, 
which I think is important in fighting terrorism, was maintained? 
How would you deal with it? 

Mr. GOSS: Senator, I am not informed of the details of that. I 
have been out of the loop for a while. But in a situation where 
there was a leak of concern, there is a system in place for the DCI 
for a referral to the Justice Department for appropriate investigation. 

That would certainly be the system I would use because it's the 
only system that is there. I believe that the leak problem is a problem 
that is worthy of oversight attention. That's the system we 
have to use and I would use it. 

As for any policy comments on our relationships with any foreign 
Nation, I don't think that it would be appropriate for me. And my 
record on that is my record on that as a Member of Congress. And 
I will just leave it at that. 

Senator WYDEN: Let me ask you about the part of the 9/11 Commission 
Report dealing with the millennium exception. They, in effect, 
in the 9/11 Commission Report say that this was an example 
where we seem to really have got it right, where the government 
acted in concert to deal with terrorism those last weeks of December 
of 1999. 

Information flowed freely, and the Counterterrorism Center and 
the Counterterrorism Security Group, that essentially in the summer 
of 2001, the millennium phenomenon was not repeated. That 
was what the Commission found, is that we weren't doing in 2001 
what we were doing in 1999. 

Since we know through the Commission's finding that successful 
information-sharing is possible, it just seems to me that somebody's 
feet ought to be held to the fire to make sure that the millennium 
exception becomes the rule. Do you believe that somebody should 
be held accountable for not sharing information prior to 9/11? 

Mr. GOSS: I know of no specific case where somebody had some 
information that was not willfully shared, with the exception of the 
matters that are covered. And the justifications are explained. That 
would be the wall, as it were. And that, in fact, the Congress has 
responded to that and removed the wall. 

Senator WYDEN: So you wouldn't have handled that pre-9/11 situation, 
as the head of the DCI, any differently than it was handled? 
You don't know---- 

Mr. GOSS: Which situation? 

Senator WYDEN: What I'm trying to do is find out what you 
would have done pre-9/11. Because we've got an example of something 
that worked. In 1999, the millennium situation, in terms of 
dealing with that threat, worked. We shared information alike. 

You just told me that you don't know of anything that you would 
do differently, I think. You said you didn't know of anybody who 
should be held accountable. 

I want to make sure I understand it. Because it looks to me like 
there were a lot of failures in that period before 9/11. In fact, we 
have had some testimony to that effect. And I just want to make 
sure that you have a chance to tell me, if you were the head of the 
DCI at that particular period, whether you would have handled it 
any differently. 

Mr. GOSS: Senator, I think that the 9/11 Report speaks for itself. 
There are various views on how well we were prepared for the millennium, 
how well we were prepared for 9/11 and where the weaknesses 
were. There has been a lot written and a lot discussed. And 
I don't think we have the complete mosaic yet. 

I will put it this way. It is very clear that there are systems 
breakdowns, management breakdowns and problems in the way we 
go about dealing with the threat that is in front of us today. I think 
we understand what those are. 

Now if you are asking me will I assess accountability where I 
find omission or where I find negligence, the answer is, of course, 
yes. I have to do it in a hypothetical sense, however. 

Senator WYDEN: My time is up. I just remain concerned that, if 
we are going to see the kinds of changes made, that you have a 
chance in the days ahead to say I would do things differently if I 
am approved to head the CIA. And that is what I continue to look 
for. 

And in that vein, Mr. Chairman, I'm going to have to be ducking 
out. And I have had a second round. But I do have additional questions. 
And I feel very strongly that we should have another day's 
worth of public hearings on this nominee. 

I intend to meet with him in my office. But if we're going to use 
the litmus test of ``the record is the record,'' I will say that I find 
the record troubling. And because of my personal affection for the 
nominee, I want to hear how his record as the head of the CIA will 
be different. 

And I am not satisfied yet that we will have the urgency behind 
the reform push that I think is warranted. So I assume that decisions 
are going to be made in the next couple of hours as to whether 
to wrap up the public portion of this hearing today. I just want 
it understood that I would like to have another day of public hearings 
because I have a number of additional questions. 

And you have been very generous with me. I have already had 
a second turn. We have a lot of colleagues who obviously would like 
to ask additional ones. And I hope we will have another day at 
least of public hearings. And I thank you. 

Chairman ROBERTS: I would inform the Senator and those 
present that there will be a series of votes at 2:20. And I wish to 
recognize Senator Levin and then Senator Chambliss for any further 
questions that they have. 

And I think probably my question could be submitted for the 
record. Let me say to the Senator that the Vice Chairman and I 
think that any need for further hearings should be Member-driven. 
And he has expressed a very strong desire in that regard. 

At the same time, I think all of us want to see this expedited, 
for the obvious reasons. And so on Monday, perhaps if Members 
would like to have another round and then have a business meeting 
to determine our vote, that would be the thing that I would 
suggest. 

Senator WYDEN: Would the Chairman yield? 

Chairman ROBERTS: Yes, certainly. 

Senator WYDEN: I think the Chairman is being very fair in that 
regard. And I know you are going to have to discuss this with colleagues 
and Senators. But that strikes me as very fair. 

Chairman ROBERTS: The Wednesday, Thursday, Friday situation, 
as we all know, because of Rosh--help me, Carl. 

Senator LEVIN: Rosh Hashanah. 

Chairman ROBERTS: Rosh Hashanah. We Methodists have problems 
with that. At any rate, many Senators simply will not be 
there. But it is the very strong desire of leadership to have this on 
the floor the 21st, which means that we could have a business 
meeting on the 20th. 

And if Mr. Goss would be available for possible additional questions, 
perhaps on Monday morning, that might work out. And we 
will determine that at that particular time. 

Senator Levin. 

Senator LEVIN: Thank you, Mr. Chairman. 

The Vice Chairman asked you about a statement that you made 
on the House floor on October 9, 2002 relative to the Use of Force 
Resolution, when you said that ``evidence supports Iraq's involvement 
in the first and probably the second World Trade Center 
bombing.'' 

And your answer to Senator Rockefeller was that the evidence 
was not as conclusive as you thought it was then. What evidence 
are you referring to? Because the President has said that we have 
had no evidence that Saddam Hussein was involved with September 
11th? 

Mr. GOSS: Senator, my view was at the time that there were 
some reports that led us to believe that Iraq was part of the war 
on terror. I don't recall specifically what the justification was. But 
I do recall I made a statement that I believed. 

Senator LEVIN: Do you disagree with President Bush that we 
have had no evidence that Saddam Hussein was involved with September 
11th? 

Mr. GOSS: I don't disagree with President Bush. I would point 
out that in hindsight our interpretation of the information has 
changed. 

Senator LEVIN: And there is no evidence that you know of? 

Mr. GOSS: Of which, sir? 

Senator LEVIN: Of Saddam Hussein's being involved with September 
11th? 

Mr. GOSS: Directly involved with the plot of al-Qa'ida? I have no 
evidence of that at this time. 

Senator LEVIN: Now there was a letter that was sent to Senator 
Bob Graham by DCI Tenet on October 7, in which he declassified-- 
that was in 2002, October 7, 2002--in which they declassified portions 
of the NIE relative to Iraq's weapons of mass destruction, in 
which the Director said that Iraq was unlikely to provide weapons 
of mass destruction to terrorists or to al-Qa'ida, called such a move 
an extreme step for Saddam Hussein that would be Saddam's ``last 
chance to exact vengeance by taking a large number of victims with 
him.'' 

If he had been attacked by the United States, it would be in response 
to an attack that he would take such a step, according to 
DCI Tenet's letter to Senator Graham. Were you aware of that intelligence 
relative to the lack of connection of Saddam Hussein to 
terrorism at the time you made your statement on the floor? 

Mr. GOSS: I don't recall whether I was or not. I remember seeing 
that at some point. And I don't remember the point. I think I will 
stick to my statement, sir, that the best judgment I had at the time 
was the judgment I spoke. That's what I believed at the time. 

Senator LEVIN: Now you were also asked about these budget 
numbers. And I just want to ask, just a statement relative to the 
budgets which were adopted, not comparing the bill that you cosponsored 
to Senator Kerry with this question, but relative to the 
votes on intelligence budgets which were made in Congress from 
the year 1995 to the year 2004, during those years, 1995 to 2004. 
The Republicans took control in 1994, so I'm going to pick it up 
from there. 

Congress cut funds from the budget requests of Presidents for 
the National Foreign Intelligence Program in seven out of 10 years, 
from 1995 to 1904, including the two years immediately following 
9/11. Did you vote for those budgets that were less than what was 
requested by the President? 

Mr. GOSS: Senator, I will have to go back to my statement. I 
don't recall all my specific hundreds of thousands of votes I made. 
The record---- 

Senator LEVIN: No, I'm talking about the intelligence budget. I'm 
just talking about on the intelligence appropriations. Did you vote 
for the appropriations bills in those 10 years, seven of 10 of which 
had reductions in the requests made for intelligence, in terms of 
the National Foreign Intelligence Program? 

Mr. GOSS: Most likely I did, sir. But I can't tell you with certainty 
that I voted for each and every one of them until I check the 
record or until the record is checked. 

Senator LEVIN: Do you remember whether you acted to restore 
cuts that were made by Congress in those seven budgets from the 
presidential requests in those 10 years? 

Mr. GOSS: Senator, what I can tell you, on the basis of what I 
recall from my time on HPSCI, the record there is clear and will 
show that for seven years in a row--I think it was in my chairmanship 
from 1997 to 2004--we plussed up every authorization budget 
that was given to us. In some years, it was just a tiny amount. But 
it was an add-on. We did plus it up. And in other years, it was 
very, very significant. 

That is a part of the process I control. The part of the process, 
once we got into conference and dealing with the appropriators, I 
took the best I could get. 

Senator LEVIN: Right. I understand that. You're in a pretty critical 
position as Chairman of the Intelligence Committee. And I am 
representing to you and assume it's true that there were reductions 
in appropriations from the requests of the Presidents in seven out 
of 10 years that the Republicans controlled the Congress. And I'm 
asking you whether you supported those appropriation bills containing 
those cuts in the requests. That's what I'm asking you. 

Mr. GOSS: Senator, I would have to go back to the record. And 
I apologize that my memory just doesn't recall each and every vote 
that I took on a Defense bill. I seriously doubt I voted directly for 
isolated intelligence cuts when I was the Chairman. 

Senator LEVIN: And the appropriations bills? 

Mr. GOSS: I don't know how the appropriations bills---- 

Senator LEVIN: Assuming that that is true, do you think it is fair 
to say that the Democratic Party did not support the intelligence 
community? Do you think that is a fair comment, given the bipartisan 
approach to intelligence which has been taken in the Congress, 
as far as I know, and given the fact that in those years when 
Republicans controlled the Senate and the House both, that there 
were reductions in the requests of both President Clinton and 
President Bush in terms of the requests for intelligence? Is that a 
fair kind of a comment, do you think? 

Mr. GOSS: Senator, that comment was made in the middle of 
floor debate. It is a matter of public record this year on the authorization 
bill, in a context that appeared appropriate at the time and 
in response to a challenge on the bill. I was defending a product 
of the bill. And I am happy to report the bill did pass on a bipartisan 
vote, a strong bipartisan vote. 

Senator LEVIN: And to my question, do you think that was a fair 
comment? 

Mr. GOSS: I think your question was a fair question, sir. 

Senator LEVIN: Do you think the comment you made was a fair 
comment? 

Mr. GOSS: The whole debate? 

Senator LEVIN: That the Democratic Party did not support the 
intelligence community? 

Mr. GOSS: I think in the context of what we were talking about, 
it was a reasonable comment. Yes, sir. Maybe it wasn't my best debating 
point, but I think it was a reasonable comment. 

Senator LEVIN: You will give us the numbers in the budgets for 
the last 10 years which are going to support that comment? 

Mr. GOSS: Which, sir? 

Senator LEVIN: That the Democratic Party doesn't support intelligence. 

Mr. GOSS: Sir, what I was just referring to is what I had said. 
And I would be very happy to supply any material you would like 
to have about our staff justification. 

Senator LEVIN: Is that an accurate statement now? Do you believe 
that the Democratic Party does not support intelligence? 

Mr. GOSS: Does not? No. I believe the Democratic Party does support 
intelligence now, very strongly. We have seen that in good bipartisan 
votes. 

Senator LEVIN: For how long? 

Mr. GOSS: We have had good bipartisan work in the Committee 
for a number of years. And I am very pleased about that. 

Senator LEVIN: You were asked, I believe by Senator Wyden, 
about--I think it was by Senator Bayh, I'm not sure--relative to 
the Doug Feith operation and the Department of Defense. And 
whoever asked you, your answer was that you are not sure that 
your portfolio would include going into the Secretary of Defense's 
operations, into the policy operations and that Feith is a policy person. 
That's his assignment. 

But the facts are that his operation got into intelligence pretty 
heavily. Are you familiar with their efforts inside that policy shop 
to affect intelligence for Iraq? Are you familiar with that? 

Mr. GOSS: Senator, I am familiar with the fact that policy is 
made from many threads. I don't know that I would characterize 
what Mr. Feith was doing as part of the intelligence community or 
an intelligence operation. I'm just not familiar with it to that degree. 

He did testify in front of our Committee and I think provided satisfactory 
testimony. But again, I think there is a very strong line 
between policy and capability. 

Senator LEVIN: I will just finalize this question and I'll have to 
get back to that issue on Monday. And we are going to get you 
some materials on that between now and then so you will be better 
in a position to comment on that. 

When I asked you earlier this morning about whether you agreed 
with the Senate Intelligence Committee report's summary that 
most of the major key judgments in the intelligence community's 
October 2002 National Intelligence Estimate overstated or were not 
supported by the underlying intelligence reporting, you indicated 
that you thought you agreed with that conclusion. Is that correct? 

Mr. GOSS: Generally, I think I do. 

Senator LEVIN: But in a letter that you wrote in September 2003, 
a letter that you wrote with your Vice Chair, where you had a very 
clear disagreement with Jane Harman, you said the following: that 
``we have a fundamental disagreement''--that's between you and 
Congresswoman Harman--``generally on whether the National Intelligence 
Estimate on Iraq's WMD programs and the intelligence 
on Iraq's ties to al-Qa'ida were deficient with regard to the analysis 
and presentation, especially in the certainty of the IC's judgments. 
The Ranking Member believes it was;''--in other words, deficient-- 
``the Chairman''--you--``believes it was not.'' 

And yet, this morning, you told us that you generally agreed 
with the conclusion of the Senate Intelligence Committee, which I 
just read to you. Have you changed your view on that issue? 

Mr. GOSS: I think that the Senate has provided a very excellent 
report that has provided a lot of new information, certainly to me, 
that has led me to change my conclusions. One of the points of disagreement 
I had with Ms. Harman on that was the question of 
caveating. And I think that may be in that letter. I'm not sure 
which letter you are referring to, but I believe that was the one. 

Senator LEVIN: Thank you. 

Chairman ROBERTS: Senator Chambliss. 

Senator CHAMBLISS: Thank you, Mr. Chairman. Just a couple of 
observations, I guess, and maybe in the way of a question. 

But we are here to decide whether Mr. Goss is fit for the position 
to head the intelligence Agency. And to sit here and ask him what 
he would have done differently relative to the situation leading up 
to September 11 reaches way beyond the fairness side of this. 

Certainly, if he had known that al-Mihdhar and al-Hazmi were 
in a meeting in Kuala Lumpur in the year 2000 and somehow, 
through a glitch in the intelligence system, they got in this country, 
we know what his answer is going to be. So I think to try to determine 
the fitness of this man to move forward in the intelligence 
leadership area, based upon what he would have done differently 
about pre-2001 is bordering on the ridiculous. 

With relevance to the---- 

Senator WYDEN: Would the gentleman yield? 

Senator CHAMBLISS: Yes, I will. 

Senator WYDEN: I wasn't asking him what he personally would 
have done differently. I was asking him, on the basis of what was 
said in the 9/11 Commission Report, whether he would hold anybody 
accountable. 

I think I read that the 9/11 Commission found that, in the summer 
of 2001, the millennium phenomenon of cooperation wasn't repeated. 
And that was what I was asking the nominee, whether he 
would hold anybody accountable, not whether he would have done 
something differently. 

Senator CHAMBLISS: I agree. You did ask that. But you also went 
ahead and you asked him what he would have done differently. 
And I think that is a very unfair question and an unfair position 
to put him in. 

Senator WYDEN: If the gentleman would yield? With respect to 
the---- 

Senator CHAMBLISS: Well, let me go on to what else I am going 
to ask and if I have more time, I will be happy to come back to 
you. 

Mr. Goss, I was, as every Member here, was involved in the 
budget issues that have been alluded to. And the fact that we increased 
the President's request for both Defense budgets and Intelligence 
budgets each and every year that the previous Administration 
submitted Intelligence budgets and Defense budgets and also 
that there were movements within those budgets from time to 
time, let me ask you if you recall that. 

Senator Levin alluded to a particular program where there was 
some support and a vote to reduce the funding for that particular 
program, the foreign intelligence service program. I'm sure I supported 
that reduction too. And we took that money and we used it 
in an area where we thought we would be better served and the 
Intelligence Community would be better served. 

Am I correct in that? Or do you recall that? 

Mr. GOSS: Senator Chambliss, I think you are correct. And as I 
said, I appreciate that clarification from you because that was my 
recollection. 

But I'm not that sure of it that I want to tell a United States 
Senator that I remember each and every vote. I believe that there 
were a number of tradeoff votes that came. And some of them could 
be characterized as cuts to intelligence if the whole story were not 
true. 

I just don't have the richness of that panoply of votes in front of 
me, nor frankly is my memory of that good of the thousands of 
votes that I have made. The question comprehensively though, if 
the question you are asking, is have I been a steadfast supporter 
of the intelligence community, to give them the resources they 
need? You very well know and helped me greatly on the Committee 
to provide as much resource as we could for the community that 
was justified for their work. 

Senator CHAMBLISS: Let me go to one other area that Senator 
Wyden was asking about, and that's our relationship with Israel. 
And he brings up a very interesting point. And I think it's a legitimate 
question. I don't disagree this one was unfair, Ron. 

I think it is a legitimate point. And I think this is one of the 
strongest assets that this man brings to the table, because I have 
been there with him when he sat down with the leaders of not just 
the Israeli intelligence community, but virtually every other ally 
that we have around the world in the intelligence community. 

And let me just say, Mr. Goss, if we had an issue with Israel, 
do you know and have you had dialogue with the leaders of the 
Shin Bet as well as the Mossad over the years? Do you know who 
they are? Do they know who you are? Do you have that kind of relationship 
with them that you could confront them with any intelligence 
issue, whether it's positive or whether it's relative to some 
issue, such as what Senator Wyden referred to? 

Mr. GOSS: Senator Chambliss, I want to answer that question as 
openly as I can, recognizing that this may be a very large audience 
and not wishing to put anybody on the spot. I have contacts around 
the world in professional business. And I have parliamentarians 
around the world that I have met doing this job who have come 
here, as you very well know. You have participated in some of 
those matters. 

Not all of them wish to acknowledge the fact that we have had 
conversations and do talk from time to time. So I want to be very 
circumspect. But it is well known that there has been a very good 
symbiotic working relationship with the professional forces of 
Israel. And I think that is of value to both nations. 

Senator CHAMBLISS: And that is, Mr. Chairman, an asset that I 
don't know of anybody else in the intelligence community, outside 
of those folks who are in leadership positions currently in the CIA, 
could bring to the table. And I do think that's one of the strongest 
assets that Mr. Goss has. 

Senator Wyden, I don't know whether there is anything else you 
want to ask about, but I've got a little time left if you do. 

Senator WYDEN: No, I think we have cleared it up. And I appreciate 
your thoughtfulness. I want to see--and I know you do, as 
well--what happened in the millennium situation in terms of information 
sharing. I want to see that become the rule, rather than 
what the Commission found as the exception. 

I think all of us do. And that was why I was asking the nominee, 
with respect to accountability, whether he thought someone should 
be held accountable. But I think we have cleared it up. And I look 
forward to continuing to work with my colleague and friend from 
Georgia on this and a lot of other matters. 

Senator CHAMBLISS: I don't know whether you were here when 
I was asking my questions in the first round, but I spent a lot of 
time with Mr. Goss relative to the issue of information sharing. I 
know how passionate he is because I had the chance to work with 
him day to day on the House side about this. 

And it is because of his strong leadership and insistence on inclusion 
of the information sharing package in the Department of 
Homeland Security bill that that broad information sharing provision 
was put in there. 

Thank you, Mr. Chairman. 

Chairman ROBERTS: The Chair would inform all Senators that a 
vote is taking place now. 

Senator Rockefeller, do you have any additional questions at this 
time? 

Vice Chairman ROCKEFELLER: Mr. Chairman, I will not, for the 
purposes of this day. I want to reflect and reorganize a few 
thoughts. And we discussed whether we would be meeting on---- 

Senator LEVIN: The Chairman, perhaps when you were gone, indicated 
that we would have an opportunity to ask questions on 
Monday. 

Vice Chairman ROCKEFELLER: Yes, I heard. I will have a couple 
of questions for that time. 

Chairman ROBERTS: I will search my recollection here. I think it 
should be Member-driven. And I know that Mr. Goss will be very 
accommodating and there may be an opportunity, as of Monday. 

But I do want to expedite this to a business meeting on Monday 
afternoon. So we will discuss that with all Members concerned. 
And we will notify Mr. Goss that we will proceed accordingly. 

Senator WYDEN: Mr. Chairman, would you yield just on that? 

Chairman ROBERTS: Yes. 

Senator WYDEN: Thank you. And again, I thank you for your 
thoughtfulness. Since we may not be able to talk, with Rosh Hashanah 
and everybody running for planes, your plan now is to try 
to go to the business meeting on Monday afternoon with respect to 
the Goss nomination. And for those of us that have additional questions 
and would like to ask them in a public forum, you would work 
with Senator Rockefeller to try to provide us that opportunity Monday 
morning. 

Chairman ROBERTS: That is correct. 

Senator WYDEN: Okay, I thank you. 

Chairman ROBERTS: You may stand at ease, sir. 

Mr. GOSS: Thank you, Mr. Chairman, Mr. Vice Chairman, Senator. 

[Whereupon, at 2:28 p.m., the hearing adjourned.] 

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>



                          NOMINATION OF THE HONORABLE 
                       PORTER J. GOSS TO BE DIRECTOR OF 
                        THE CENTRAL INTELLIGENCE AGENCY 

                           MONDAY, SEPTEMBER 20, 2004 

                                 SENATE OF THE UNITED STATES, 
                               SENATE SELECT COMMITTEE ON INTELLIGENCE, 
                                                            Washington, DC. 

The Select Committee met, pursuant to notice, at 9:31 a.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Pat 
Roberts, (Chairman of the Committee), presiding. 

Committee Members Present: Senators Roberts, Hatch, DeWine, 
Hagel, Rockefeller, Levin and Wyden. 

                 OPENING STATEMENT OF THE HONORABLE PAT ROBERTS, 
                                      CHAIRMAN 

Chairman ROBERTS: The Select Committee will come to order. 

The Senate Select Committee on Intelligence meets today to continue 
considering the nomination of the Honorable Porter J. Goss 
to be Director of the Central Intelligence Agency. Congressman, 
thank you for returning to make a second appearance before the 
Committee after 512 hours as of last week. 

I have one or two additional questions for the nominee, but before 
I get to them, I would have recognized the distinguished Vice 
Chairman for any remarks he might wish to make. We will recognize 
him just as soon as he attends the session. 

Congressman Goss, often we hear concerns about policymakers 
and intelligence, and the politics of same. Rarely, however, do we 
hear concerns about the flip side of the coin�\the intelligence community 
efforts to shape or influence policy. The latter is a very real 
and very unwise phenomenon. The intelligence community should 
provide the facts, let the policymaker simply sort them out. 

How will you ensure that the intelligence community does not 
cross the line into policymaking? 

           TESTIMONY OF THE HONORABLE PORTER J. GOSS, NOMINEE 
            TO BE DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY 

Mr. GOSS: Thank you, Mr. Chairman. 

As I stated last time, I feel very strongly that it destroys the 
credibility of the intelligence if it is thought to be contaminated by 
the policymaking process. I believe it is the DCI�fs responsibility to 
make sure that that does not happen in all the product, that the 
product has to be vetted and considered pure by the DCI before it 
is given to the policymakers. 

I think that that process can be worked out very well in a management 
form, and I would foresee no problems at all conveying 
that understanding to the people who are involved in the intelligence 
community. 

And I would have to point out, I think that understanding is 
pretty well there. There is a very strong line among the people who 
work in the community between those who are in the process of 
taking the product and analyzing, and taking information and analyzing 
it and delivering a finished product and those who are policy 
who are not part of that. Intelligence is to inform policy. And I 
think that the professionals do understand that, but I think that 
they have to be continually monitored and there have to be safeguards 
put into the system. 

If I am confirmed, I will certainly consider that a critical job, because 
it has been one that has caused the intelligence community 
a good deal of consternation in the past couple of years. 

Chairman ROBERTS: I appreciate that strong statement. 

Should the intelligence community have a voice and a vote at the 
interagency table on questions that first and foremost are policy 
decisions? 

Mr. GOSS: Absolutely not, sir. 

Chairman ROBERTS: Congressman, as you know, the President 
did direct the CIA and the FBI to co-locate their operational and 
their analytical counterterrorism components at the new TTIC facility. 
The FBI's Counterterrorism Division just finished moving 
into that facility. It's my understanding that almost all of the CIA's 
Counterterrorism Center is still at Langley. 

Do I have your absolute commitment that when you are confirmed 
you will take immediate steps to ensure that all of the operational 
and the analytical components of the CIA's 
Counterterrorism Center will be co-located with their FBI counterparts 
at the new TTIC facility? 

Mr. GOSS: Yes, sir. 

Chairman ROBERTS: Senator Wyden. 

Senator WYDEN: Thank you, Mr. Chairman. 

Congressman Goss, as you and I talked about in the office, what 
I am most troubled about is your willingness to be a change agent 
at the CIA. 

I think that we discussed over the course of the last week the 
matter of being partisan, the question of being objective, those 
kinds of issues. And my sense is I can give somebody the benefit 
of the doubt on those kinds of issues, but I have scoured your 
record and I just don't see any real evidence of your willingness to 
push for intelligence reform and be a true change agent. 

And it is heavy lifting; nobody underestimates that. But I think 
we saw with Tom Kean that it can be done. I mean, he went into 
that 9/11 Commission project. He had to take on the White House. 
They were reluctant to cooperate. He handled it in a thoughtful 
way and he was able to get a lot of the information that was needed.

What in your record shows that you're willing to be serious about 
pushing for intelligence reform, and particularly doing what Tom 
Kean did, which is to stand up to your Administration, stand up 
to a President of your party? 

Mr. GOSS: Senator, as I said last week, I believe it is the intelligence 
community's job to provide the best product to any Administration. 
It's not a partisan question at all. 

And as I explained last week, I well understand that I am leaving 
one arena and, if confirmed, heading to another arena that operates 
completely differently where partisan politics are not part of 
the job. In fact, I take that so seriously, I have made a down payment 
on that pledge: You have not heard a word from me publicly 
in any partisan possible way since the President nominated me. 

So I assure you that I understand that the product of the community 
is for the Administration that is running the country, whatever 
the voters choose on that. 

Now, with regard to your questions on what have I done, I did 
appreciate our conversation very much and I appreciate you taking 
the time last week to speak to me, especially on that. And I have 
compiled some information, which I hope will be persuasive to you, 
that we have not been just idling our time away in the past several 
years under my chairmanship. If you wish, I would start back a 
few years and give you some examples. 

Senator WYDEN: You can certainly do that, but I would like an 
answer to the question I asked. Tom Kean showed that he would 
stand up to the Administration of his party and that he would take 
them on in the name of intelligence reform. I'd like to have even 
one or two concrete examples of where you are willing to stand up 
to the Administration of your party to try to bring about intelligence 
reform. 

Mr. GOSS: Senator, again, without regard to the question of the 
partisanship or the party, which I believe is not appropriate, as I 
also said last week, even in the construct of the Oversight Committees 
that we have on intelligence, so I tried to practice, as I said, 
nonpartisanship. I didn't always succeed, but I tried to practice it, 
and I think seven out of the eight bills I pushed through came 
through on a bipartisan basis. 

I did find it necessary to push very hard on the Administration 
on some issues with regard to reform. One of them surely has to 
be the area of classification and declassification. We had quite an 
arm-wrestling discussion with the Executive Branch about that 
system, which I said last week is a broken system. It is a broken 
system. 

I tried very hard to do some reform with it, actually worked with 
Senator Moynihan. We did pass a bill, bicameral, bipartisan--a 
first step. It wasn't as much as either of us wanted, but it was a 
good step, and it is the law, and it has made it easier now in the 
declassification process. 

A second area that I think is critically important to remind ourselves 
of is that the Joint inquiry did turn out a report and it had 
a number of recommendations--19 to be exact--and a good number 
of those have been enacted by the Executive Branch at this time. 
So we have made some strong progress. 

Now, the major one was the question of the Director of National 
Intelligence, or the National Intelligence Director. I don't want to 
get mixed up in the alphabet soup, but the kingpin, as it were, the 
coordinator, the person with the overall accountability for the 
whole community, which is a huge issue as we talk about stitching 
together a network. 

I think we did put out a good report, and I think that the fact 
today that the work we did in that Joint Inquiry is out there and 
is being so thoroughly addressed on the Hill and downtown now is 
a sign of success. I consider it a victory. 

We have gotten to a place where we had not gotten to, despite 
even the good efforts of the Aspin-Brown and other commissions 
like that, which pointed out pretty much the same thing. Maybe we 
ought to consider this sort of stuff. So I think we have rolled the 
ball pretty well, sir. 

Senator WYDEN: The only thing about your answer is that you're 
essentially citing--you said, for example, the Executive Branch 
made some changes after 9/11. Of course. No one disputes that. 

But after 9/11, and you served on a commission, you could have 
introduced a piece of legislation that would have pushed us further 
and faster. It would have meant you would have had to take them 
on, and you didn't do it. 

But let me move on to the question of Iraq, and obviously on the 
basis of the pessimistic NIE that was reported in the press last 
week. And you obviously are not up on this and these are just 
press reports: You can't get into all of the details there. But I'd like 
to ask you, with respect to Iraq, about your ability to brief the 
President objectively on the Iraq issue. 

As you know, you voted in support of the President's decision to 
go to war in Iraq. The conflict continues. Obviously, there are a variety 
of different perspectives on the current situation and, of 
course, also what the future portends for that troubled part of the 
world. 

As part of the CIA Director's job, you're going to have to brief the 
President and the Cabinet on the situation in Iraq and how well 
or how poorly his policies are doing there, and whether the Administration's 
goals are going to be achieved or not. Yet as a policymaker, 
as a Member of the Congress, your decision to invade Iraq 
was a policy that you yourself supported and voted for. You voted 
for the policy to go into Iraq. 

How are you going to handle matters regarding Iraq and other 
foreign policy matters that you supported while in the Congress? 
It's pretty hard for a CIA Director to recuse himself, but how can 
you tell us, given your past history, that you're going to give the 
President unvarnished truth, despite having a stake in policies you 
voted for? 

Mr. GOSS: Senator, last week I said, and I will repeat again, I 
understand the difference in the jobs. My responsibilities as an 
elected Member of Congress on behalf of the people of Southwest 
Florida, Florida's 14th District, require one set of activities. This 
job, if I am confirmed, very clearly requires a very different set. 
And as I have explained, I totally understand the difference. 

What I am going to do is try and improve the product that the 
policymakers get, so that the policy is as best-informed as it can 
be by an unvarnished, straightforward intelligence product. That's 
my goal if I am confirmed to do that. 

Now, in answer to the Chairman's questions when we started 
out, I pointed out that I do believe the DCI, or whatever the equiv- 
alent role would be, who is speaking to the President, has that responsibility 
to be the bearer of all news, not good news or bad 
news, that comes legitimately out as a proper, professional job of 
creating intelligence product throughout the intelligence community. 

Obviously, there will be dissents. Obviously, there will be different 
views. And I think all of the issues of the formula of what 
do we know, what don't we know, and what would we like to know 
need to be clearly presented to the policymakers so that they can 
be well informed not only for the policy, but the tasking that inevitably 
the community will be asked to do. 

Senator WYDEN: Well, what is your reaction to these press reports 
last week with respect to the bleak assessment in Iraq? You 
obviously can't get into all of the details, but I would like to know, 
do you think, on the basis of the information that you now have, 
which, of course, is not what's in an NIE, that these bleak reports 
are warranted? 

Mr. GOSS: Which? I'm sorry? 

Senator WYDEN: The reports about the NIE last week and the 
situation in Iraq were pretty bleak. I mean, they painted a gloomy 
picture. 

Mr. GOSS: I'm sorry. I didn't understand. 

Senator WYDEN: You can't get into all of the details on something 
like that, but based on what you know, do you have any reason to 
question that NIE? 

Mr. GOSS: Senator, obviously I'm not going to comment on a 
product I haven't seen. I don't know anything about it and, frankly, 
I read some of the press reports and have heard some commentary 
on it, some opining about it. I would like to reserve judgment on 
that until I have a chance to see it myself. 

What my interest would be in it is, have we got the information 
we need for the policymakers? And if we haven't got the kind of 
information we need, how do we go about getting it for them? 
That's the job of the intelligence community. 

Senator WYDEN: My time has expired, but do you know anything 
that would indicate that that NIE of last week that painted a 
gloomy picture is off base? 

Mr. GOSS: Senator, as I said, I don't know anything about that 
NIE. I read in the papers that there was one; I haven't seen it. 

Senator WYDEN: Thank you, Mr. Chairman. 

Chairman ROBERTS: I would now like to recognize the distinguished 
Vice Chairman for any comments he might wish to make. 

Vice Chairman ROCKEFELLER: Thank you, Mr. Chairman. 

Good morning, Congressman Goss. 

I want to continue a little bit on Ron Wyden's theme. 
Chairman ROBERTS: It's 10 minutes, sir. You can have a Rockefeller 
theme or a Wyden theme, either one. 

Vice Chairman ROCKEFELLER: There was some of this questioning 
last week, and there was this question of ``My record is my 
record.'' And I think that you could tell that stirred up a sense of 
incompleteness, or unforthcomingness, which was not inaccurate in 
the sense of ``My record is my record,'' but we were looking for 
something more. 

And as I think I also pointed out, independence--which to me is 
the most important part of all of this--it's not how much does Porter 
Goss know? That's a lot. What kind of man is Porter Goss? He's 
a good man. Does he have experience with the CIA? Surely he does. 
It just comes down to telling truth to power, the independence. You 
indicated that you can separate your past life from your present 
life. 

I think you and I, in private conversations, have indicated neither 
of us are particularly political, but I'm not sure it's as easy as 
that. I've two volumes here that my staff collected, going back over 
10 years, of statements. I mean, they're thick. They're all political. 
They're not all about intelligence. They go back to some other 
things too, but most of them are about intelligence. 

And I'm trying to get into your mind a little bit about how it's 
so easy for you, in a position where you have, let's say, a powerful 
Vice President, a powerful Secretary of Defense, a powerful political 
adviser to the President, powerful people around him who are 
accustomed to exercising their power in powerful ways, that you 
just suddenly become a different person. And I need to understand 
that. 

I've never been in that position, where I've gone from I am who 
I am and I can sort of say that because my life has had a kind of 
continuum to it, but yours is now potentially probably going to 
change quite radically, and so I need to know how you do that. 

Now, for example, in the case of Mohammed Atta and the famed 
nontrip to Prague, which the Vice President is still referring to and 
talking about, ``proving,'' therefore, relationship between 9/11 and 
the Twin Towers, that's stunning to me, shocking to me. I mean, 
I don't know why he says that, how he says that. It's not responsible. 

Now, you're the head of the CIA, and he says that, but he says 
it publicly, as he does. What do you do about that? You can answer, 
``Well, that's a policymaking question and not a matter for me.'' On 
the other hand, you are the head of the CIA, and he is misusing 
intelligence. He is misleading the American people, in my view, in 
this Senator's view, about an incident which didn't happen, which 
the FBI, the intelligence communities can prove, and which I believe 
you know also. 

What do you do with that? Do you go to him? Do you just leave 
it lie there? 

Mr. GOSS: Senator, you've asked a lot of questions, and very good 
ones, and they are very hard ones. I will try, if I can answer them 
very shortly. 

I think very definitely, at any time that anybody with responsibility 
for delivering product to people in high places is concerned 
that that message is fully understood or what that product says, 
if there's doubt in their minds, that it's incumbent upon that person 
in the intelligence community--whether it's the DCI or the 
NID or the DNI or whatever it might be--to go to the customer and 
say, ``I want to make sure you understand that this is the range 
of what we know. This is the range of what we don't know. This 
is the amount of credibility we give this.'' And put in the caveats, 
if there's any doubt, if there's a need to go back and do that. I 
think that's appropriate. 

I do not think it's appropriate for the DCI or the NID or anybody 
else in that kind of a position to go and tell a policymaker how to 
use product. That would scare me a lot. If you had a very strong 
intelligence network with an intelligence person at the top who 
controlled the whole community, who was trying to say, ``this is our 
product and this is how you must use it,'' I think that would be 
a breach of the faith that we have in how the system is supposed 
to work. 

There has to be a clear delineation between delivering unvarnished 
product and allowing policymakers to do their job in the 
way they see fit, because, as I have been told many, many times, 
policymakers do not make their decisions just based on the input 
from the intelligence top person alone, that they get their information 
from a number of sources and they have a number of reasons 
for making judgments that quite often go beyond intelligence. And 
I would not want to try and affect that. 

Vice Chairman ROCKEFELLER: This isn't a question which would 
go beyond intelligence, would it? I mean, if the FBI and the CIA 
make their investigations, they look at ticket stubs and where people 
were, in a sense, it really does come down to you as head of 
the CIA as opposed to what the Vice President is saying to the Nation. 

Now, you're not making policy if you go to them and you say, 
``Mr. Vice President, I just want you to know, as your Director of 
the CIA, that what you are saying is not backed up by intelligence.'' 
That's not making policy. It's simply saying to him, that 
as the person in intelligence and Director of Intelligence, that you 
think he's wrong. 

Mr. GOSS: Senator, if I am confirmed and I am the person responsible 
for the intelligence product of the United States of America, 
all of those thousands of men and women doing all of that hard 
work, all of that investment of the taxpayers' money, all of the total 
machine, which is huge, and you bring that out, and I am the point 
of fusion to the decisionmakers, I can assure you I am going to defend 
that the product is pure and that the understanding is absolutely 
clear about that. 

And if there is a misunderstanding or if there's a question about 
that, I would be very quick to point it out. And if there were no 
intelligence---- 

Vice Chairman ROCKEFELLER: To the Vice President? 

Mr. GOSS: To anybody, sir. 

If there were no--if I had never myself or caused to have the 
community present intelligence to anybody and somebody went out, 
no matter who, and said, ``This is what our intelligence community 
said,'' I would certainly find out and advise that person very quickly 
that that was not this intelligence community. 

Vice Chairman ROCKEFELLER: Would you correct the public 
record on the matter? 

Mr. GOSS: I would certainly judge the situation at the time. I am 
not going to let the credibility of our intelligence community be in 
any way affected by the battles that swirl around on the question 
of the use of intelligence. 

Vice Chairman ROCKEFELLER: But then wouldn't that be the only 
way to make sure that that would happen, is by correcting the public 
record? 

Mr. GOSS: It would certainly be one of the ways. I am not sure 
public is the only way. Sometimes private words work. Sometimes 
other approaches work. I think power of persuasion sometimes is 
a good thing. Sometimes there's just plain misunderstanding. 

I don't believe that something as important and sensitive as intelligence 
can be, and the machinery we put into it, that the first 
thing to do is to go public. I think the first thing to do is to understand, 
are we damaging in any way our capabilities on how we 
handle this. And I always want to pay attention to the capabilities 
and how we handle any problem like that. 

But I agree, if somebody is abusing the product, I think it is important 
that the person who is in charge of that product, which 
would be the DCI or the subsequent equivalent of that, has a reason 
to go forward and say, ``That's not what we said.'' 

Vice Chairman ROCKEFELLER: Congressman Goss, you indicated 
in our last meeting--and there were a number of statements given 
that you had made with respect to the Democrats are damaging intelligence. 
I think you recall my question about John Kerry, what 
you said about John Kerry, the article that you wrote about John 
Kerry. 

Just help me understand how 10 years--this is 10 years of statements, 
which are partisan--I think this is honest questioning, Porter 
Goss. I really do. I really do. It gets to the core of what the CIA 
has to be. 

How does one simply become a different person? 

Mr. GOSS: Mr. Vice Chairman, I think I got through my adult life 
without giving a partisan speech until about 1988 or 1989. I was 
forced to chose a party in order to run under the system we have 
in this country, and I was very comfortable with it. Before then, for 
the great majority of my life, I don't believe I had made a single 
partisan speech. 

Of course, there have been times on partisan issues--I've been 
on the Rules Committee, as you very well know. We have a lot of 
partisan votes, and I had to support those partisan votes in the 
Rules Committee. 

But on the things that count, the things that are not just the 
interplay between the two agendas of the two parties, there's only 
one flag in the room, and it's that flag back there, and we all know 
that. 

National security is one of those areas. I am very proud that for 
every year I brought my bill in on a bipartisan basis. Even this 
year, even though we did not vote it out of committee on a bipartisan 
basis, we got, I think, five out of eight of the Minority party 
voted for it on the floor. So I have worked very hard in that direction. 

I have not always succeeded. As you know, in this town, there 
tends to be an outside atmosphere that tries to crowd in and affect 
these things. 

If I didn't think I could do this and give up public speaking-- 
which I would be happy to do, frankly, and have enjoyed the past 
few weeks immensely by not doing that--I wouldn't be sitting before 
you, because I feel just as strongly as you do about it, Senator. 

Vice Chairman ROCKEFELLER: Thank you, sir. My time is up. 

Chairman ROBERTS: I think that I have about 8 minutes remaining, 
or maybe 7, and then I will be more than happy to recognize 
Senator DeWine. 

In response to Senator Wyden's comments, I know that Governor 
Kean apparently, in your words, stood up to the President in regards 
to his efforts, or at least in your opinion, on the 9/11 Commission. 
But basically the Administration, in considering that, I 
think, has taken many forward steps in response to that. I am not 
sure that that was the result of Governor Kean. 

I would point out that I think the 9/11 Commission took 10 days 
to make 41 recommendations. The 41 recommendations were there 
encapsulated in a bill introduced by Senator McCain and Senator 
Lieberman. It was a marker bill. But basically, it was simply recommendations. 
It was like the Nike ad: Just do it. 

And so, you'd have the recommendations, and if Congressman 
Goss would be the National Intelligence Director, it would simply 
be, ``Here, Porter, here's the baby: You rock it,'' because it isn't a 
comprehensive bill. Right now, the Government Affairs Committee 
has that jurisdiction in writing a bill; we have some suggestions for 
that bill. 

I would say that if there's an example that Members of this Committee 
wish to take to stand up to the President, or for that matter 
anybody in their party, in terms of leadership, they should get on 
the bill that I've introduced along with seven other Members. That 
is real reform. That is standing up. 

Now, that bill has been described as everything from bold and 
far-reaching to nutty and radical. So in that regard I'm not sure 
that that comparison is really the best one. 

Let me just say that in asking staff--I have not asked the witness 
for this, but in terms of what the Congressman has done, in 
September, he and Representative Harman noted that the House 
Committee on Intelligence has held no less than 62 hearings on reform 
just this year alone. Even before 9/11, he was thinking ahead 
on the key issues like biological warfare threats, the Department 
of Energy, counterintelligence, the NSA, legal authorities. 

On Iraq, he has also been an informed and often a very cautious 
voice, as I have been, by the way. In September of last year--and 
many Members of this Committee--Mr. Goss and Ms. Harman also 
laid out their concerns and suggested improvements needed for better 
intelligence collection. 

I know that change comes in various forms, but I would think 
a step-by-step process, well thought out, would be the form I would 
prefer, at least in regards to change in the intelligence community, 
as opposed to 41 recommendations that came out of a 10-day deliberation. 

And I am not trying to perjure that effort. I think it's a great effort 
and has given us catalyst for reform. 

I just happen to have here the Joint Inquiry recommendations. 
That was the investigation conducted by this Committee and the 
House Committee, and really was the blueprint or the foundation 
given to the 9/11 Commission. And there are somewhere in the 
neighborhood here--I have 19 recommendations--one annual report, 
four one-time reports, three proposed reports, it seemed to me 
there was 21 long-range reports. 

That was in conjunction with Congresswoman Pelosi and the 
Chairman of this Committee at that time, Senator Graham, who is 
no shrinking violet in regards to recommending reform. 

I suggested at the time that they consider all these--by the way, 
these reports, some about, I don't know, 12 of them, mandatory reports, 
had to be done by June, and Congressman Goss signed onto 
those. We had some discussions about that. 

I said, you know, how in the world can anybody at Langley find 
any time to do anything if they had to do all of these 19 recommendations 
and 21 long-term steps and 12 mandatory reports 
by June? 

And he indicated that something must be done, and so basically, 
he is the godfather, if you will, along with three others, Senator 
Shelby and Congresswoman Pelosi and also Senator Graham, of 
the basic foundations of the 9/11 Report. So to say that he is not 
an agent of change or is against reform, I think, is a misnomer. 

Let me say that in terms of the use of intelligence, we had hoped 
to get to that in terms of phase two, but we find ourselves in the 
middle of 9/11 reform and we find ourselves in this nomination, 
which we are very pleased to do. 

And one of the things that I want to do very badly, along with 
the Vice Chairman, is the intelligence on postwar Iraq. Obviously, 
we are in the middle of an insurgency. You can call that a war if 
you want to. We have not had time to do that, but that would be 
the appropriate place to take a look, and we will look, at the National 
Intelligence Estimate that has been brought up by Senator 
Wyden, and we intend to be very aggressive. 

I don't know if raising issues of partisanship subject to opinion 
over 10 years is not being partisan as well. I hope to heck nobody 
in 10 years takes all the stuff that comes out of my mouth in regards 
to whether it's partisan. 

I have a reputation around this place of being somewhat obstreperous. 
I think that Congressional Quarterly, came down and said 
I'm pleasantly irascible. Well, I have been 2 hours in traffic this 
morning and I am very irascible. 

And so, consequently, if they took everything that I have said 
over 20 years of service and put it in context and said, Roberts is 
this partisan--I remember standing up, shaking a finger at Tip 
O'Neill in regards to the Speaker of the House; he told me to take 
off my ``Thou shalt not steal'' button when we thought that the 
other side had stolen an election. Was that partisan? You're darn 
right. 

If people don't understand that this is a partisan outfit in the 
Congress, they're either very naive or very disingenuous or have 
their head lodged firmly where there is no sun or light. 

And so, consequently, I hope to heck that after 10 years somebody 
could make a statement and then not pick and choose and 
say, that's partisan. 

Is that partisan? I think it's partisan from the other side, and I 
think it's time we quit this. 

The gentleman has indicated he is independent, he will be nonpartisan 
and he will be aggressive. I think sometimes you have to 
take a man at his word. Does this mean that no Member of the 
Senate or House in terms of 10 years going back over statements 
can serve in any kind of duty in this place? 

I'm sorry, my time's not up. 

[Laughter.] 

Chairman ROBERTS: But at any rate, I can name you 10 people 
in the House, probably 25 people in the House--I had the privilege 
of serving there for 16 years with this gentleman--who are very 
partisan. I can name you people in the Senate who I think are very 
partisan. 

This man is not part of that posse. He doesn't ride with the partisan 
posse. That's my considered opinion after knowing him for 16 
years and working with him on a weekly basis ever since I have 
had the privilege of being on this Committee. 

Senator DeWine. 

Senator DEWINE: Well, I get to follow up on that. Good. 

[Laughter.] 

Senator DEWINE: Congressman Goss, good to see you again. 

Mr. GOSS: Good morning, Senator. 

Senator DEWINE: Good to be back. 

For the record, I might add that you and I had the privilege of 
working on a bill, which was certainly not a partisan bill at all, and 
that was the Ricky Ray bill, where we, I think, did some good for 
some folks who had been hurt by the government and certainly had 
been hurt, who acquired AIDS because of the blood supply. 

And I certainly enjoyed working with you on that, and that certainly 
was an issue that had nothing to do with politics at all, but 
certainly had everything to do about trying to help people. And you 
were able to lead the charge on that and I thank you and salute 
you for that. 

Mr. GOSS: Thank you, sir. 

Senator DEWINE: Let me ask this question. Those of us on this 
Committee and you on the House Committee really are consumers 
of intelligence, as is the Executive Branch. 

It strikes me that we are many times in the position of wanting 
to have a consensus from the intelligence community, but it seems 
to me also that we also have the need to see where the dissent is 
coming from in the intelligence community, if there is dissent. 

And I bring this up because we have in front of us a number of 
proposals that seem to consolidate the power, and I wonder if there 
might be a tendency, if these proposals, any of these proposals are 
adopted, for the dissent to be stifled or at least for the ultimate 
consumer never to see the dissent. 

For example, INR, I've noticed, a few times has had a different 
opinion. At least on one occasion I've noticed they were right. Everybody 
else seemed to be wrong. 

Do you want to comment on that, and how we make sure that 
as we do these reforms that we make sure that the consumer--the 
President, the Congress--at least make sure when we see the consensus 
that we at least make sure that we still have somebody out 
there who is independent and getting an alternative view, and that 
we also see that alternative view? 

Mr. GOSS: Yes, sir, I agree with that very much. 

I think that there is a system in place now that has not worked 
as well as it should have or perhaps as it could have. I don't know 
the answer, whether it's a should or could, but it has not worked 
as well. 

I believe that the dissent is a critical part of the process. You 
want the differing opinions. You want the competitive analysis. 
You want to avoid group-think, things that you've pointed out very 
well in this Committee study, I think now recognized by the DI, in 
a paper that I understand you all are going to get. I mentioned it 
last week. It's a study that's worth taking a quick look at. 

I do believe that it's very important to have in the reorganization, 
however it is done, the understanding that the 15 elements 
within the intelligence community operate as elements but also as 
part of a larger whole, and that they have a responsibility not only 
unto themselves, to their own agencies--the FBI, INR, whatever it 
may be--but to participate into the network as a whole. That 
means we're going to have to take some mechanical steps like colocation 
and things like that. 

We've had some recent disputes. They are continuing to happen. 
This process is not going as well as I would like it to go. There is 
room for improvement, I will certainly say that. And part of the reorganization that you all decide is going to color very much what 
it looks like. But I think we all understand we have to do it. 

I think when you have dissent, you have to understand why the 
opposing opinions or views were rejected. I think it's not just simply 
it was a vote of 3-2. I think it's, this is because. When we added 
the pluses and minuses on the yellow sheet, we got three pluses 
and two minuses, and these were the pluses and these were the 
minuses, but what we don't know is this, and if we knew that, that 
might tip it. 

I think that enrichment process is very important. 

Now, not every customer is going to want to know that, but every 
customer needs to be able to get to that if they do want to know 
it. So I would suggest that it will work two ways. 
If you, as a customer on this Committee, want to go behind what 
the finished product is that you read, or what the daily SEIB is, 
or anything else, and want to get into that, then I suggest you have 
the right to do that and should do that, and the community has the 
responsibility to come forward and say, look, this is how we weigh 
it.

Senator DEWINE: It seems also to me, though, that as a report 
is prepared, there is some responsibility in the intelligence community 
to give us that alternative view, even if we don't ask for it, 
because many times, we don't know the question to ask sometimes. 
You don't know if there was a minority view unless someone says 
it.

Mr. GOSS: That's absolutely correct, sir. 

One of the problems that we have is a system now of trying to 
protect our sources and methods in sensitive matters where we use 
a system that doesn't work very well. It's, you know, how much 
credibility can we give this? Do we have high confidence in it? 

Well, what does ``high confidence'' mean? If you say ``high confidence'' 
4 times and it's only right 3 times, it turns out to be right 
only 3 times, then the next time you hear ``high confidence,'' it's not 
quite that high. 

So I think we do need a different way of telling our consumers-- 
and I agree that those dissents are important to point out. I mean, 
some people say footnotes do it. Actually footnotes don't do it. Most 
people don't have the time. 

Senator DEWINE: Let me ask another question, somewhat related 
to this, and that is a problem that we have seen, and that is when 
the analysts are so separated from their sources that they do not 
have the ability--and we have seen this, in some cases were mistakes 
were made--they don't have the full ability to analyze or to 
judge how good the sources are. And we've seen several specific 
cases where they did not really know that, and there was this wall. 

Now, I understand sometimes why there is a wall there; you 
have to protect your sources. How do you deal with that problem? 
How do you protect the source but at the same time make sure the 
analyst, who is going to ultimately be giving us the information or 
the President of the United States the information, can make a fair 
judgment about how good the quality of the source is so he or she 
can make that good opinion to us? 

Mr. GOSS: Senator, you've correctly described a problem which 
we obviously need to fix rather quickly. And there've been efforts 
in the past to try and get the DI and the DO, to use one agency's 
area, working more closely together. There is an esprit de corps in 
both of those elements, and it's a good thing to have, but it's got 
to work more closely. 

There are a number of ways that have been suggested. The white 
paper that the DI has put out talks about a number of things. If 
there were resources, we would like to put some of our analysts out 
in the field, working with some of the case officers so that they can 
understand better what the problems are out there, and so the case 
officer can understand better what it is the analyst absolutely 
needs. 

But unfortunately, it's not just--the problem doesn't just lie 
there. It goes beyond that, that we do not have analysts talking to 
analysts as opposed to analysts talking to collectors. We find analysts 
in one agency not talking to analysts in another agency. 

Now, hopefully TTIC, in terms of terrorism, is going to deal with 
that, but that's only terrorism. There are other problems out there. 
There's WMD problems, there's narcotrafficking problems, there's 
racketeering problems, there's political intelligence, all of those 
things that you need to deal with which aren't covered in the TTIC, 
necessarily. 

So I think the area you have focused on is the area that is broken 
in the analytical part, and that it does need attention, and we 
have some ideas. And the people involved in that are aware that 
we are looking for ideas. So I think we have a will to do a correction, 
and I believe you will see progress. And if I am confirmed, I 
assure you, you have my word on that. 

Senator DEWINE: As you're aware, we passed a few years ago the 
Nazi war crimes bill, which called on the CIA to provide additional 
new information, to go back in their files, open up the files. That 
has worked fairly well. I don't want to get into great detail about 
this today, but there is still information that needs to come out, 
and I would just like your assurance today that--I was the author 
of that bill here in the Senate--I would like your assurance today 
that you will continue to work with us on that. 

Mr. GOSS: Yes, sir, of course I will continue to work on that if 
I am confirmed. 

Senator DEWINE: I appreciate that. Thank you. 

Thank you, Mr. Chairman. 

Chairman ROBERTS: Senator Hagel. 

Senator HAGEL: Mr. Chairman, thank you. I have no questions 
for Mr. Goss. I will just add one comment. 

I think the President has chosen wisely in his nomination of Mr. 
Goss. But more to the point, I think he has placed a very appropriate 
amount of confidence and trust in Mr. Goss. I enthusiastically 
support Mr. Goss's nomination and look forward to our vote 
and getting him to the floor of the Senate and getting him to work. 
Mr. Goss, thank you. 

Mr. GOSS: Thank you, Senator. I appreciate that very much. 

Chairman ROBERTS: Senator Hatch. 

Senator HATCH: Mr. Chairman, I echo those sentiments. I feel exactly 
the same. I've watched Congressman Goss for years. I'm 
aware of how much he did in a bipartisan way to make the Committee 
work well over in the House. 

And I'll reserve the balance of my time. 

Mr. GOSS: Thank you, Senator. 

Chairman ROBERTS: Senator Levin. 

Senator LEVIN: Thank you, Mr. Chairman. 

I think the most important quality that I'm looking for in a Director 
of Central Intelligence is somebody who will reliably provide 
objective intelligence assessments that are independent of the policy 
and the political agenda of the White House. Frankly, we 
haven't had that lately in George Tenet. Too often his public statements 
were exaggerated, shaded, distorted to support policy positions 
of the White House. 

Whether you agree with that or not, there's a 500-page report of 
this Committee that identifies the errors, omissions, exaggerations 
of the CIA. 

Phase two will get to the question as to what the impact of those 
were on policymakers and the policymakers' statements themselves, 
but I think even you agree that there were significant failures 
in the area of intelligence prior to both Iraq and to 9/11. Although 
you've hesitated to use the word ``failure'' in the past repeatedly, 
I think that at the last hearing, you were willing to acknowledge 
that there were significant failures--intelligence failures. 

Is that a fair statement? 

Mr. GOSS: Senator, I said in response to your question--I believe 
it was your question--that I agree that there are failures involved 
in intelligence and that require fixing, and that is one of the reasons 
why I seek your confirmation, sir. 

Senator LEVIN: And that these significant failures that you are 
referring to were failures prior to Iraq and 9/11? 

Mr. GOSS: Yes, sir. There are shortcomings, very definitely, in 
both areas. And as I said last week, I believe your report on weapons 
of mass destruction, your 500-some-page report--much of 
which, sadly, was redacted--was extremely helpful and very informative 
to me. 

Senator LEVIN: Was it troubling to you? 

Mr. GOSS: Yes, sir, in the sense that the depth of some of the analytical 
problems is as great. I agree with your group-think. And 
I would point out, again---- 

Senator LEVIN: You agree with our group-thinking? 

Mr. GOSS: Your group-think. Well, sir, you did have a consensus 
product, which I am pleased that the Chairman was able to deliver, 
but I don't suggest that you were the one doing group-think. I suggest 
that the group-think problem, the failure of competitive analysis
--Ms. Harman and I actually wrote a letter in September of 
2003, I think--which I'm sure you have; about four pages or so-- 
which is pretty tough, and it went to some of the same areas. 

So I feel that the work that you've done and, frankly, the work 
that I hope the HPSCI is going to continue to do--and I have every 
reason to believe they will deliver a report--will follow up on the 
interim letter that Ms. Harman and I wrote with regard to WMD. 

Senator LEVIN: One part of that letter said something similar to 
what you said this morning, which is that, ``Where public officials 
cite intelligence incorrectly, the intelligence community has a responsibility 
to go back to that policymaker and make clear that the 
public statement mischaracterized the available intelligence.'' 

In your conversation with Senator Rockefeller, you seemed to 
avoid committing yourself to correcting public misstatements by 
public officials relative to intelligence in a public way so that the 
public misinformation could be corrected. You seemed to avoid saying 
that public corrections were appropriate. You say you'd like 
other approaches first. You want to personally talk to that person 
and so forth. 

And when there are very public misstatements about what the 
intelligence provides, it's the public that's been misinformed, and 
a private comment to a policymaker doesn't correct that public misinformation, 
of which there was a vast amount prior to the Iraq 
war. 

But let me ask you this specific question: Can you give us some 
examples of where, in your judgment, policymakers prior to the 
Iraq war mischaracterized the available intelligence? For instance, 
were the Atta comments, the meeting in Prague comments, or the 
comments relative to uranium, or the comments relative to the use 
of aluminum tubes, the vast number of comments characterizing 
intelligence that were made by public officials, which went beyond 
the intelligence, can you give us an example where you believed 
that the public statements of policymakers mischaracterized the 
available intelligence prior to the Iraq war? 

Mr. GOSS: Senator, I don't believe any public official in a position 
of responsibility has deliberately mischaracterized or misled anybody 
in the United States or anyplace else. 

Senator LEVIN: That wasn't my question. 

Mr. GOSS: You asked me if I could give you an example. 

Senator LEVIN: I didn't use the word ``deliberately'' or ``intentionally'' 
or ``purposefully'' or ``willfully.'' I just simply said 
``mischaracterized the intelligence.'' 

Mr. GOSS: I don't believe---- 

Senator LEVIN: I mean, we're looking for independence here. 

Mr. GOSS: Well, I understand. 

Senator LEVIN: We've got a lot of examples where intelligence 
was mischaracterized, not necessarily intentionally--that's a very 
difficult thing to assess--but where it was exaggerated. There's 
many examples which have been out there in the public, and I am 
going to go through a few of them with you if you would like. 

I just wanted to know whether you're wiling to acknowledge that 
intelligence--can you give us any examples where in your opinion, 
this Administration or any of our policymakers mischaracterized, 
exaggerated the underlying intelligence? 

I'm looking for independence. Can you give us an example to 
show that you are willing to challenge the policymakers, that you 
are willing to speak truth to power? 

Mr. GOSS: Senator, I've been a policymaker for the past several 
years. I don't know all the intricacies of how the decisions have 
been made in the Executive Branch. I have had a perch, from the 
Oversight Committee of HPSCI, to look at intelligence. 

The intelligence problems that we have looked at lead to questions 
about, have there been sufficient caveats to warn the users 
of the product? That was a question that Ms. Harman and I had 
a disagreement on. It's certainly a question this Committee has 
studied very intently and has come up with conclusions about the 
difference between the NIE and the white paper and why those caveats 
were dropped. 

It is very clear that there are different needs to present intelligence scenarios, which are admittedly scenarios. They are best estimates. They are not hard fact. 

If you are a warfighter, you want a worst-case scenario. You 
want to know what is the worst to expect, to protect your troops. 
If you are, perhaps, in the diplomatic corps, you do not necessarily 
want the worst-case scenario. So if you're asking me if I know of 
anybody who has deliberately mischaracterized or exaggerated intelligence, 
I don't believe that's the case. 

Senator LEVIN: That's not what I asked you. You are, again, responding 
to a question that wasn't asked. 

Let me give you an example. December 9, 2001, Vice President 
Cheney said that, ``It's been pretty well confirmed that 9/11 al- 
Qa'ida hijacker Mohammed Atta did go to Prague and he did meet 
with a senior official of the Iraqi intelligence service in Czechoslovakia 
last April, several months before the attack.'' Now, that 
went significantly beyond what the underlying intelligence said. 

Do you agree that went beyond the underlying intelligence? It's 
all been declassified now. 

Mr. GOSS: Senator, I don't believe it all has been declassified 
now. 

Senator LEVIN: Well, let me read you the declassification, that 
``no credible information that the meeting occurred.'' That's declassified. 

Mr. GOSS: That's declassified, yes, sir. And I have no reason to 
question that summation. What I don't know is what is behind it. 

The classified---- 

Senator LEVIN: You've read--haven't you read the material on 
the Atta meeting as Chairman of the Intelligence Committee? 

Mr. GOSS: Yes, sir, I have. 

Senator LEVIN: I'm just asking you a very simple question: Do 
you believe the statement that was made on December 9th, 2001, 
by Vice President Cheney, that it's been pretty well confirmed that 
that meeting took place, was an accurate reflection of intelligence 
that existed at the time, that it's been pretty well confirmed? I'm 
just asking you a direct question. 

Mr. GOSS: Is the statement itself that it was pretty well confirmed? 
If that's your question, I don't think it was as well confirmed 
perhaps as the Vice President thought. But I don't know 
what was in the Vice President's mind. And I've certainly never 
talked with him about this. So I don't know how he came to that 
conclusion. 

Senator LEVIN: Is that a kind of statement that's worthy of correction 
when it's made publicly? 

Mr. GOSS: I would suggest that it probably is something--in that 
case, it's a hypothetical, but if I were confronted with that kind of 
a hypothetical, where I felt that a policymaker was getting beyond 
what the intelligence said, I think I would advise the person involved. 
I do believe that would be a case that would put me into 
action if I were confirmed. Yes, sir. 

Senator LEVIN: Thank you, Mr. Chairman. 

Chairman ROBERTS: Senator Rockefeller. 

Oh, I'm sorry. Well, I had you first and then Senator Wyden. But 
we can reverse that. 

Senator Wyden. 

Senator WYDEN: Thank you. 

Congressman Goss, in your view, what was the most important 
recommendation of the Congressional Joint Inquiry on 9/11? 

Mr. GOSS: The most important was probably the first one, sir, to 
get on with the job of trying to find a way to create a better management 
of the intelligence community. We suggest it through a 
DNI. 

Senator WYDEN: Through the DNI? 

Mr. GOSS: Yes, sir. 

Senator WYDEN: And did you introduce a piece of legislation to 
do that? 

Mr. GOSS: Directly, I don't believe I did, sir. 

Senator WYDEN: Well, I guess it makes my point. That would be 
an area where somebody could aggressively push for change and 
aggressively be a change agent, and you passed on it. I was frankly
--if I can finish. I want to give you another chance to answer it. 

I was going to be charitable and say, all right, the Congressional 
Joint Inquiry is completed in December of 2002. You put in your 
bill in 2004. It didn't really do what the 9/11 Commission talked 
about, but at least I think you were moving in that direction. So 
it took you a year-and-a-half to really do anything on the subject. 

So how does someone like myself, who, A: likes you personally; 
B: I'm willing to give you the benefit of the doubt on the question 
of partisanship and objectivity--but I'm still looking for somebody 
who is aggressively going to be a change agent. 

And here's an example where you had an opportunity to do it, 
and you are the Chairman, and it just doesn't seem to be done. So, 
if you could, respond to me on that. 

Mr. GOSS: Senator, you asked me if I had directly put in a piece 
of legislation related to the number one recommendation of the 
Joint Inquiry. The answer is, I did not put in directly, as I said. 
As you did properly point out, I did work to try and find the right 
moment, the right way, the right combination to go forward to get 
that job done in another bill, which I did, as you properly pointed 
out, introduce in our reform bill, which was an announced work 
product of the HPSCI for this year. 

That statement was made, I believe, probably at the end of 2003, 
sir. I am not sure exactly. It would be in the HPSCI records. But 
it was an organized way to go after a problem. 

And I did this, frankly, after consulting with this Committee, too, 
the leadership of this Committee, about how we were going to proceed, 
and with the former Chairman, Chairman Graham, Senator 
Graham. And we did sort of take stock. At one point we had a 
meeting to discuss where we were on the 9/11 recommendations. 

It was my judgment--and I think it's been borne out--that having 
the horsepower and the additional awareness and understanding 
of the work product of the 9/11 Commission, that we did 
set up and there was specific action taken by me and our Committee 
in the intelligence authorization, of which I am very proud, 
to come up with a good Committee, the Hamilton-Kean Committee 
and the people who served on it, the commissioners who served on 
it, who have done a fabulous job of keeping the issue of reorganization 
before the public, before the Hill, before the Administration, 
before the world, I guess. 

And I think that was a pretty good way to proceed. And in the 
annals of getting things done around here, speaking as a Congressman, 
I tend to feel moving in a year-and-a-half to get where we 
have gotten is pretty good speed. 

I am committed to reorganization. We are going to have it. Once 
that reorganization is in place, sir, then it will be a little easier to 
do some of the reform you are asking me to commit to. I commit 
to improving the product. That is going to take reform. 

It's a little hard for me to be specific about what precisely I am 
going to do if I don't know exactly what the blueprints are of the 
network. 

So I am asking, if I am confirmed, for a close working cooperation, 
positive leaning forward, complementary efforts by the oversight 
committees and the community to make the reform happen 
and to make the reorganization happen. 

Senator WYDEN: I am going to move on, Congressman, but my 
concern remains because I have asked you for example after example. 
And the very first question at the first hearing you said, ``Well, 
gosh, there wasn't a constituency for the subject. It was hard to get 
attention.'' And I said, ``Well, you are the Chairman. You have the 
bully pulpit.'' 

And so, in example after example, I will tell you I remain concerned 
about your willingness to lead, and I am going to ask you 
about some other areas where, again, I think you will have an opportunity 
to lead if you are so inclined. 

The President's proposal to restructure the intelligence community 
includes a provision that wasn't recommended by the commission, 
and I am not sure many people are aware of it. It seeks to 
give the President an exemption from some existing laws on oversight 
of the intelligence community. And these are the laws requiring 
that the Congress be kept--and I will quote here--``fully and 
currently informed, especially about covert action operations.'' 

The President is proposing explicit language that takes the carefully 
worked out limitations and oversight requirements and only 
applies them to the extent consistent with the constitutional authority 
of the President. 

Now, given the very broad interpretation of the President's authority 
that we saw in these memos with respect to torture, the 
torture memos that finally came to light this summer in which the 
Justice Department lawyers argued, in effect, that the President 
didn't really have to comply with the torture laws, what assurance 
does this Committee have that language like that advocated by the 
President wouldn't be used to undermine the congressional oversight 
that the 9/11 Commission says needs to be strengthened? 

Mr. GOSS: Senator, is that the amendment to 12333 you are 
speaking to? 

Senator WYDEN: I am talking about the language that the President 
has proposed to give the Administration exemptions from the 
laws with respect to informing the Congress. 

Mr. GOSS: Is that a law that is---- 

Senator WYDEN: It's the draft reform bill. 

Mr. GOSS: It's the draft reform bill. 

Senator WYDEN: Right. 

Mr. GOSS: Senator, that's going to be your decision on how that 
goes, how you want to handle that. 

Senator WYDEN: But I want to know if you are for that, because 
it seems to me this puts in a huge loophole and a loophole that 
goes in the exact opposite direction of what the 9/11 Commission 
called for. They want Congress to do a better job of oversight. The 
President in his draft bill has now proposed going the other way 
and giving Congress fewer tools. 

Mr. GOSS: I believe very strongly, Senator, that there should be 
strong congressional oversight. I have actually had a hearing at the 
point of my transition out of the Committee. I did get instructive 
testimony from Governor Kean and from Congressman Hamilton 
on that subject, and it's actually very important. 

And I am very glad you asked the question, because their comment 
went very much to the issue of the dysfunction of oversight 
as it is now and the need to fix it, and they both went to some 
pains to say they were not picking on your Committee, on this 
Committee, or on HPSCI, on our Committee, and they were not 
comments about us. They were comments about the system, basically 
the jurisdictional problem. 

And I think that the thing I take away from that, in supporting 
the 9/11 recommendations for strong oversight, is that Congressman 
Hamilton made it very clear, and I think his words to me 
were, look, if you don't get the oversight piece done, if Congress-- 
this was when I was a congressman--if you don't get the oversight 
piece done, none of the rest of it's going to work either. 

And that's why I make the strong statement about a forward, 
willing, complementary relationship between the Director of National 
Intelligence and the Oversight Committees. I certainly be- 
lieve that we need to have the safeguard for the American people 
of strong oversight, and I do not believe it should be nullified by 
any shortcuts that have not passed muster with the Congress. 

Senator WYDEN: Could you envision any situation that justifies 
withholding oversight information from this Committee for an indefinite 
period of time? 

Mr. GOSS: I don't believe I can think of any right now, but I 
would point out that there needs to be work on the statutory requirement 
when you say this Committee, on the statutory requirement 
on the gang of eight and which gang of eight are we talking 
about. 

It turns out there are more than one gang of eight, as I think 
you know, which has confounded us a number of times. But there 
is one statute, and that would, therefore, preclude some types of information 
being shared, under the notification process, with all 
Members of the Committee. So I don't want to mislead you in any 
way on that. 

Senator WYDEN: Just so we are clear--because you mentioned 
Governor Kean--Governor Kean did not make any recommendation 
at all with respect to congressional oversight along the lines of 
what's in the President's draft bill, and that's why I am so troubled 
by it. 

Let me, if I might, turn to the question of the PATRIOT Act, 
with you. As you know, it will be expiring in December of 2005. Do 
you support the PATRIOT Act in its current form? Senator Murkowski 
and I have introduced a bipartisan bill to make changes in 
this area. And I would like to know your position generally with 
respect to the PATRIOT Act. And then I have a couple of specific 
questions about it. 

Mr. GOSS: Senator, when I was a Member of Congress, and the 
PATRIOT Act was before us, I supported it. And I stated my reasons 
in the record for doing that. I think it has been useful. I think 
we have testimony in this report about the breaking down of the 
wall and in other areas. 

You asked me about the future legislation or pending legislation. 
Obviously I'm going to respectfully demure from that. The job I 
seek has no business making comment on legislation that you all 
might be considering, in my view, if it comes to policy. And I don't 
think I want to be trying to wear two hats at the same time, sir. 

Senator WYDEN: Mr. Chairman, can I ask one additional question 
on this point? I will be very brief. 

Chairman ROBERTS: Certainly. 

Senator WYDEN: Thank you, Mr. Chairman. 

Do you know of instances, Congressman Goss, where the Agency 
needed the library lending records provision? This has been very 
controversial, as you know, librarians up in arms about this across 
the country. Do you know instances where the Agency needed that 
provision in its current form? 

Mr. GOSS: Senator, we are in open hearing, and I can tell you 
that the answer is yes. 

Senator WYDEN: Are you open--the Chairman has been very gracious. 
Are you open to working with myself and Senator Murkowski
--as I say we have had a bipartisan bill--on looking at 
changes to parts of the PATRIOT Act? 

Mr. GOSS: Yes, sir, of course, if confirmed, in the appropriate role 
of the DCI, not as a Member of Congress. 

Senator WYDEN: Mr. Chairman, you have been very kind. I 
would like the nominee, either when we are in closed session or in 
another arrangement that you and Senator Rockefeller could put 
together, to have him furnish to us the matter that he felt needed 
to be kept secret this morning with respect to the library lending 
records. 

Chairman ROBERTS: I think we can do that without having a 
closed hearing, and I will be more than happy to address the Senator's 
request. Has the Senator concluded? 

Senator WYDEN: My time has expired. And you have been very 
gracious. 

Chairman ROBERTS: Senator Rockefeller. 

Vice Chairman ROCKEFELLER: Thank you, Mr. Chairman. 

Congressman Goss, you discussed your intelligence community 
reform proposal at our last meeting. I didn't visit that with you. 
But there's one particular provision that troubles me, and perhaps 
you can lift me from those troubles. Your June bill, as I understand 
it, would amend the current ban against the CIA exercising police 
subpoena or law enforcement powers inside the United States by 
adding the language ``except as otherwise permitted by law, or as 
directed by the President.'' 

I don't have any problem, obviously, with the first part, but the 
second phrase, ``or as directed by the President,'' has been of concern 
to me and to some others, who believe it would give the President 
the power to issue secret findings to the CIA, which would 
then direct the CIA to conduct covert operations inside the United 
States, something which you know is currently prohibited. 

Did I get that wrong? Does your legislation place any limitations 
on what the President could do to direct the CIA to do intelligence 
gathering inside the United States that is traditionally an FBI 
thing? Under your proposal, what guidelines would the CIA have 
with respect to that matter? Lift that burden from me, if you can, 
sir. 

Mr. GOSS: Mr. Vice Chairman, you did not get it wrong. 

The reason, as I stated last week, that that provision is in that 
bill is because we need to address the issue of the PATRIOT Act 
and the whole question of the balance between protection and privacy 
in this country. This report and others, and a lot of the conversation 
that's going on now and a lot of the proposals that are 
out there for consideration legislatively, tend to blur, some more 
than others, the line between the national foreign--and I emphasize 
``foreign''--intelligence program, which is what the 1947 Act, 
as you very well know, sets up, and it precludes domestic spying. 
Americans don't spy on Americans; it's sort of that area. 

We are now for the first time blurring that line, and talking 
about, because the terrorist beds are thought to be here, nests of 
them and so forth, ways to find those people without spying on 
Americans or guests in this country. And so we need to craft some 
clarity for what is replacing the blurred line. 

I put that provision in there in order to encourage that debate. 
I gave a number of options that might want to be considered. You 
have named them properly. I have never suggested that there 
should be any absence of oversight in that whatsoever. I'm not in 
any way suggesting change in oversight, so I'm not saying the 
President could do something unilaterally. 

What I am saying is we need to understand at what levels we're 
going to allow things to happen in the United States, who's going 
to be in charge, who's going to be accountable. And I think that's 
very important, not only from the point of view of the efficiency of 
getting the terrorists who are here and disrupting them before they 
can do dangerous things, but just plain for the whole question of 
the protection of our operatives in the field, who are charged to do 
this work, so they don't find themselves with some huge liability 
because they violated a civil liberties provision at the same time 
they've stopped a terrible thing from happening. 

I think that's the responsibility of the Legislative Branch of government 
to deal with, and that's why that issue is there. There is 
nothing sinister in it. 

As I said last week, I totally believe the Central intelligence 
Agency should not--repeat ``not''--have arrest power in the United 
States. I have argued that for years. It would ruin the ability of 
this country to have a CIA if it did have arrest powers, in my view. 
That's one of the things that distinguishes this democracy from any 
other in the world. 

Vice Chairman ROCKEFELLER: And it's interesting, because that 
does somewhat help me, because the 9/11 Commission does suggest 
an approach which I think will cause certain controversies, but 
with which I agree--that there needs to be a kind of transnational 
approach to a lot of things, including intelligence, on our part. 

And so what you are saying is that you just simply did that so 
you would get that debate going? 

Mr. GOSS: Yes, sir. I truly hope that debate is enjoined. 

Vice Chairman ROCKEFELLER: On October 2, 2003, the House Intelligence 
Committee received a highly classified briefing from 
David Kay, who was the special adviser to the DCI in Iraq on 
weapons of mass destruction, as you know, and he updated your 
Committee on the progress of the Iraq Survey Group's search for 
evidence of weapons of mass destruction in Iraq. 

Following the briefing, you issued a press statement that stated, 
``From the information uncovered to date''--that's to be noted--``it 
is clear that the threat Saddam presented to the region and to the 
world was real, growing, and grave. Further, the brief highlights 
the fact that the intelligence regarding Iraq's WMD was properly 
used and is being properly used today. There continues to be no indication 
that anyone was misled by the intelligence analysis.'' 

That's the end of your quote. The Senate Intelligence Committee 
received the same briefing from Dr. Kay as your Committee did. 

And I'm puzzled about the basis for your public statements. And 
I come back, therefore, to information uncovered to date by the 
Iraq Survey Group that made it clear that Saddam Hussein represented 
a real, grave, growing threat to the United States and the 
rest of the world. I do not recall Dr. Kay's briefing in that highlight, 
and I would be interested if you could give me your reading 
on that. 

Mr. GOSS: Senator, I think it's pretty simply that Dr. Kay said 
this is unfinished business. We don't know where we're going. We 
do know for sure that we need to keep looking. 

I believe Dr. Kay said the right decision was made to go to war. 
I believe that Dr. Kay said that Saddam was a very dangerous person. 
I believe Dr. Kay said we don't know what happened to the 
weapons. And I believe that our concern about the gravity of the 
problem is we still don't know what happened about the weapons. 
I think that's generally the context in which I made those remarks. 

Vice Chairman ROCKEFELLER: But you're suggesting that he at 
some point suggested that he was on the trail of something? 

Mr. GOSS: No, sir. He was doing an investigation. In fact, it got 
turned over to Mr. Duelfer. And as I understand, Mr. Duelfer is 
going to be making a report soon. 

That, frankly, was one of the things we wished to include in our 
WMD report on the HPSCI side, which I no longer can speak for, 
obviously, but we had hoped to have not only the work of the Commission 
and your work but the work of Mr. Duelfer to add to try 
and give a more accurate and up-to-date snapshot this fall of where 
we actually were on the review of the WMD matter. 

Vice Chairman ROCKEFELLER: Just one final question for me, and 
I asked you this at our last meeting, and that was about the 
HPSCI report, which did not actually come forth. And we discussed 
what we called the collection, the analysis, the production, the dissemination 
of intelligence. 

And then I think--and I may be wrong, in which case you need 
to correct me--that we also talked about use of, or misuse of, whatever, 
and in the Senate rules about our Committee, that is a part 
of what we studied, and it goes across all of government. There's 
no part of government which is untouched by that. 

And for a particular set of reasons we didn't do that. And as the 
Chairman has indicated, we're going to go ahead and do that, and 
I hope we will because I think it's, kind of, the ball game. 

But you indicated that the House rules did not have that flexibility. 
We looked at them and couldn't find that. And, therefore, I'm 
wondering as to whether or not you discussed that at all, whether 
you ever planned to discuss that. We didn't, because of a particular 
reason, but I'm not sure if that applies to you. 

Mr. GOSS: Sir, actually we did rewrite the rules of the House a 
couple of years ago. What we tried to do was point out where the 
jurisdiction of the HPSCI was in the House. And it was basically 
anything to do with intelligence, with the intelligence community, 
the process of how it works, and those types of things. And it 
stopped very abruptly at that point. We have other committees of 
jurisdiction who wanted to be clear where that line was, and I 
think we came up with a rule in the House that worked pretty 
well. 

So I was pretty careful about observing that we not get into 
other people's business on that. And it didn't go entirely smoothly. 
There were a lot of people who came to our Committee who felt 
that there were things that they needed to know that we claimed 
was intelligence and part of the intelligence community product, 
but it's worked pretty well. 

Now, within the Committee itself you are asking me, did we have 
some conversation about this? The answer is, yes, sir. I have got 
to be very candid and say that I'm not entitled to talk about what 
goes on in a closed session with my other colleagues, who would 
rightfully be upset if I did. 

I can simply say what I said to you last week in the hearing, 
which I think is not violating any confidences of the Committee 
work. And that is, as the Chairman, I made the judgment that we 
were responsible for the product, not the use of the product. But 
I did clarify and say if I felt the product had been misunderstood 
or there were needs for the people who delivered the product to 
have further conversation for the users of the product, that should 
happen. 

But we didn't go that way in our WMD. We went to the question 
of sufficiency, because we knew you were going that way here. I 
made the point to the Committee--and they seemed to agree with 
it, at least some Members did, because this is what we did--that 
we would study the sufficiency, that when you asked the question 
of why we didn't know this, and you got the answer there weren't 
enough collectors, and then you ask the next question of why there 
weren't enough collectors, well, because there wasn't enough 
money. Well, why wasn't there enough money? 

When you start asking those why questions and peeling back this 
onion, you come to some bedrock sufficiency questions, and those 
are the questions which I hope the HPSCI report on WMD will 
take up. 

Again, I can no longer speak for them, but that would be my 
hope, as the former Chairman. 

Vice Chairman ROCKEFELLER: If the Chairman will indulge me 
to just read this particular part of what governs HPSCI: ``the collection, 
analysis, production, dissemination, or use of information that 
relates to a foreign country, a government,'' et cetera, et cetera, et 
cetera, et cetera. So it doesn't appear, again, to be precluded. It 
was just that you were going to wait upon what we did? 

Mr. GOSS: Senator, primarily I interpreted the HPSCI role to be 
a capabilities committee. It's a permanent select committee in the 
House, as you know. It is a capabilities committee. It is not a policy 
committee. International Relations does that over there. I tried to 
stay out of there. 

Now, obviously, we bridged two other committees to expedite our 
jurisdictional problems. I would agree that there's no prohibition 
against it in that language, but I can tell you from the practice and 
from my own design, I don't believe that once we build the car and 
deliver it, we should be telling the operator exactly where and how 
to drive it, for a very simple reason: I think it's a little scary if the 
person in charge of intelligence is trying to inform policy by telling 
the policymakers, this is---- 

Vice Chairman ROCKEFELLER: This question is not you as CIA 
Director, let's say. This is an oversight function. 

Mr. GOSS: Yes, sir. It is an oversight function. 

Vice Chairman ROCKEFELLER: The use of intelligence would seem 
to me to be highly relevant with respect to the build-up of this Iraq 
war. 

Mr. GOSS: I would interpret that to mean having the ability to 
provide intelligence for use, for our policymakers. I believe the insufficiency of intelligence has been a big problem, as you have 
heard me say a number of times. 

Vice Chairman ROCKEFELLER: Thank you. 

My time is up. 

Chairman ROBERTS: Senator Hatch. 

Senator HATCH: I'll reserve the balance of my time. Hopefully 
this is the last round. 

Chairman ROBERTS: I think you have 8 minutes from the previous 
round, and now 10 minutes, so you have 18 minutes that has 
been reserved. 

Senator HATCH: I'll reserve it. 

Chairman ROBERTS: Senator Levin. 

Senator LEVIN: Thank you, Mr. Chairman. 

Congressman Goss, I sent you some documents over the weekend 
relative to the operations of the Office of Under Secretary of Defense 
for Policy, Doug Feith. And I don't know whether you have 
had an opportunity to read those documents or not. Did you receive 
them and did you have the opportunity to read them? 

Mr. GOSS: Senator, thank you. I did receive the documents over 
the weekend, with one exception, and I did review them. Some I 
read very closely, extremely closely, in fact. 

One I did not receive, and it was just because it's a classified document. 
I got it over the weekend. I have no storage facilities. And 
it was the letter, sir, that was referred to on that footnote. And perhaps 
we can talk around that. 

Senator LEVIN: All right. Relative to that letter, by the way, it's 
an extremely disturbing letter because of the factual inaccuracies, 
the factual misrepresentations which were made to this Committee 
by Secretary Feith. But since you haven't had an opportunity to 
read it, I'd just simply urge you to read that. And we will lay out 
for you in the next 24 hours those misrepresentations for you to 
comment on for the record, if you would. 

Mr. GOSS: Senator, of course. The letter is a letter from CIA to 
Defense, was it? 

Senator LEVIN: Yes. And the misrepresentations were what Mr. 
Feith represented to the Senate as to what was in that letter, until 
we saw it for the first time when it was referred to in that footnote 
that is in the 9/11 Report. So what we will provide to you in a classified 
basis will be what he represented was in that letter to--what 
he represented to the Senate was in that letter, comparing it to 
what was in that letter, and to ask for your comments for the 
record on that. 

Mr. GOSS: Senator, you will have those, of course, and I promise 
you I will tend to that as quickly as I can get to the place where 
I can read a classified memo. 

Senator LEVIN: Thank you. I appreciate that. 

And relative to the materials you did receive, was there anything 
in there that troubled you about the operations of the Feith policy 
office? 

Mr. GOSS: Obviously there is a lot of material, and it looks like 
to me like your Committee did an extraordinary job of going over 
the material. And I am very well aware there were dissenting opinions 
to the unanimous Committee conclusions on the issues. 

There were some things that I, if I am confirmed in this position, 
want to be very much on guard about, and that would be the kinds 
of concerns about policy sliding into the production of intelligence. 
I think you do have to make sure that the watchdogs are watching 
on that. 

On the other hand, I don't want to discourage dissent. I do want 
to have dissent, and I think that's extremely important. 

And one other area that came to my mind is that I hope that we 
will have some guidance. And, frankly, I speak as an American citizen. 
I hope the Nation will have guidance from the Hill on how 
we are going to deal with the relationship between the Secretary 
of Defense and the National Intelligence Director, or whatever the 
position is. Because it strikes me that the informal program that 
we've had over the years that's worked fairly well perhaps does not 
provide quite the scope in what I will call informal meetings to get 
to some of the issues that are discussed in the packet that you provided 
me. 

I do believe that that's not just a throw-away comment. Senator 
Wyden asked me if I had done anything. One of the things that we 
did do a couple of years ago, which I am very pleased with, is we 
raised the level of intention to some issues that needed to be adjudicated 
between the Secretary of Defense and now the DCI, but 
whatever the position will be. That is an area that has troubled me 
for some time. 

Senator LEVIN: Thank you. 

To be more specific about some of the matters in those documents, 
the Senate Intelligence Committee report that you referred 
to describes a DOD e-mail that recounts that Deputy Secretary of 
Defense Wolfowitz wanted the Department to, quote: ``prepare an 
intel briefing on Iraq and links to al-Qa'ida for the SecDef and that 
he was not to tell anyone about it.'' 

The same e-mail referred--the writer in that e-mail, who was 
quoting Wolfowitz--referred to the ``Iraq intelligence cell inside the 
Office of the Under Secretary of Defense for Policy,'' which is Doug 
Feith's office. 

Now, that intel briefing was given to the Secretary of Defense 
and then to the DCI. A modified version was given directly to the 
staffs of the Office of the Vice President and the National Security 
Council with material that the DCI had never seen, including a 
chart that was highly critical of the intelligence community for the 
fundamental problems with its analysis of the Iraq-al-Qa'ida relationship. 
It promoted a view of a very close relationship between 
Iraq and al-Qa'ida and cooperation in a slide that talked about 
``known contacts between Iraq and al-Qa'ida,'' including a meeting 
between Atta and the Iraqi intelligence officer in Prague. That was 
called ``a known meeting.'' 

I thought it was very different from the CIA view. 

Now, that varied significantly with the intelligence community's 
assessment, but was presented to the White House Office of the 
Vice President and to the National Security folks. 

Now, my first question to you is whether or not--one final point 
before my question, which is that DCI Tenet told us in an open 
hearing, in response to my question, that he was not aware of the 
briefing to the Office of the Vice President or the NSC staffs until 
just a few weeks before when I brought it to his attention and that 
he had never had a chance to review the contents before it was provided. 

Do you believe it's appropriate for such rogue intelligence to be 
hot-wired directly to the White House without the knowledge of the 
DCI and without the opportunity for review by the intelligence 
community? 

I am not asking you whether the dissenting views are appropriate; 
we obviously want dissenting views. That's not the issue. 
We want alternative views. The question is, when there is a formal 
briefing that is made, an intelligence briefing, an assessment, an 
analysis of the kind that you are now familiar with and that was 
in this report, when that is being presented to the Office of the 
Vice President and to the National Security Council, do you think 
it is appropriate that the DCI not even be informed of that so he 
could have an opportunity to comment on it? 

Mr. GOSS: If appropriate--and this is your question, Senator--I 
think it's appropriate that DCI should always be informed about 
anything that is coming from the intelligence community that purports 
to be intelligence product. 

There is a problem here, and it's one that I hope the reorganization 
is going to address rather directly. That is, we've got 15 agencies. 
Some of them have Cabinet-level Secretaries that have different 
discourses with the White House or the National Security 
Council on different levels. It is very hard to suggest that everything 
that everybody has when they go to a meeting is or is not 
from the intelligence community. And so I don't want to try and sit 
here and tell you that there's a hard and fast line somewhere. 

I certainly believe that any Administration has the right to go to 
its secretaries, the right to go to its agencies in the Executive 
Branch, and deal with it as it should. But is it appropriate, if we 
are going to have a coordinated intelligence network, to keep the 
top man on the intelligence community involved if it's something 
that purports to be intelligence? The answer, sir, is yes. 

Senator LEVIN: That's what George Tenet, when he found out 
about it, said was unusual. 

Mr. GOSS: I did read the packet, sir. 

Senator LEVIN: Do you agree with him? 

Mr. GOSS: I agree with him that---- 

Senator LEVIN: That that was an unusual thing and he was 
going to talk to the folks at the---- 

Mr. GOSS: Sir, I don't know if it was an unusual point, because 
I've never been DCI. 

Senator LEVIN: All right. All right. Now, there's another aspect 
to this as well, and that is that The Weekly Standard published excerpts 
from an alleged classified document that was prepared by 
Under Secretary Feith. 

And the article in The Weekly Standard alleged an operational 
relationship between Iraq and al-Qa'ida. In the words of the author, 
``The picture that emerges is one of a history of collaboration 
between two of America's most determined enemies.'' And the arti- 
cle flat out says that Usama and Hussein had an operational relationship. 

Now, Tenet said at that hearing I referred to that the CIA did 
not clear that document and did not agree with the way the data 
was characterized in that document. It was apparently leaked to 
The Weekly Standard. 

Nonetheless, the Vice President referred to The Weekly Standard 
article, saying that it was based on a Defense Department study 
that was sent to the Senate Intelligence Committee, and called it 
``the best source of information'' on that issue, being the relationship 
between al-Qa'ida and Saddam. 

Do you believe it is appropriate for a senior Administration official 
to refer to a leaked classified document, publicly, as the ``best 
source of information on the subject''? 

Mr. GOSS: Senator, I have absolutely no way of knowing what 
was behind that comment. And I, therefore, can't shed any light on 
it.

Senator LEVIN: You don't know what was behind it. So that if 
there is a highly classified document that is referred to in public, 
and it is validated by being called the best source, you are not troubled 
by that? 

Mr. GOSS: If there is a classified document that is released in 
public, I am troubled by it. 

Senator LEVIN: My time is up. Thank you. 

Chairman ROBERTS: Senator Wyden. 

Senator WYDEN: Mr. Chairman, I have only one other question. 
Let me also say to you, Mr. Chairman, I want to thank you for the 
time that you've given. I think this is probably going on my fifth 
round, and I appreciate it. 

Congressman Goss, the last question I had for you is, in your 
judgment, what went wrong on the matter of the Iraqi nuclear 
threat? As you know, we documented at some length in our Committee 
the matter of the aluminum tubes. The President of the 
United States in his address talked about a mushroom cloud. I 
would be interested in your judgment on what went wrong with respect 
to how the matter of the Iraqi nuclear threat was handled. 

Mr. GOSS: There are several threads, Senator. I think that the 
first one is the atmosphere that the subject of the nuclear threat 
was brought up. I believe that the lesson we learned early in the 
1990s when we got into Iraq, discovered that they were much closer 
to the capability for nuclear weapons than anybody had estimated, 
that they were perhaps within two years if I'm not mistaken. 
I want to be careful about what's classified and what's not 
here. 

I think that the pendulum swing from, oh, my gosh, we didn't get 
that one right and that was dangerous led us to look at the worstcase 
scenario properly, as we did with the other WMD, the chembio, 
that we were convinced that if our troops went in there, they'd 
have to have special protective equipment, which they did, which, 
of course, is extremely unpleasant in the circumstances there. So 
I think there was an abundance of caution. 

Now, there are some other problems, as well, that are very clear. 
I think that there was the problem of conventional wisdom, that 
when we started getting some of the people who were involved in 
the nuclear program--you've asked me to talk--their credibility, 
unless they picked up on where we thought the thread had gone, 
where the analysts had thought the thread had likely gone given 
Saddam's continued intent and desires and public statements about 
rewarding his nuclear people and so forth that were out there, I believe 
that there was some dismissal of the statements that were 
out of line with what we expected to hear in the analysts' terms. 

I think that's a mistake, and I think it's been well pointed out 
in the problems of conventional wisdom in the work that's been 
done by your Committee and others. 

I think that there was some intentional denial and deception by 
Saddam. I think that the public statements and the accolades--and 
I don't remember whether he gave ribbons or medals or just words 
of encouragement, but it did hint the international media to the 
wonderful work being done. 

So I think he was trying to at least convince us that he had the 
nukes. And we had been convinced before, having been slow before 
to get our guard up. 

Then there were specific bits of information, which I will not 
speak of publicly, but I can tell you, I think this Committee is fully 
aware of them, as was ours. There were things that were dug up, 
as it were. There were materials that indicated very clearly that 
as soon as the watchdogs get out of here, we're ready to go back 
to work in the nuclear area. 

I think that, given the threat and given the war on terrorism and 
the statements by the fundamentalist leaders that they wanted to 
get weapons of mass destruction and deliver them to this country, 
seemed to me to be the kind of thing that we should be focusing 
attention on. And I think we did. And I think it was an area that 
we should have pursued. 

Senator WYDEN: Thank you, Mr. Chairman. 

Chairman ROBERTS: Senator Rockefeller. 

Vice Chairman ROCKEFELLER: Thank you, Mr. Chairman. I will 
have just one more question. 

The predicate again, Congressman Goss, of all of this is not 
about you as a person. It's not about you as somebody who knows 
the business. We haven't gotten into the business of management 
of a large agency, which you haven't done, but I don't choose to do 
that. It is about the question of independence and I think there's 
sort of two approaches to take to that. 

One which has been mentioned here this morning is that we're 
being political. And the other is that it might be that we're genuinely 
concerned, because we're the only ones who can, in a sense, 
on behalf of the Senate other than the final vote, is to vet you. 

And the questions virtually all have been in the same line--the 
independence of you. There has been, as far as I know, one other-- 
at the very beginning, as you know, I said, and we talked about 
it in my office, that nobody who has been in politics, particularly 
recently, should do this. And looking back, I think that the President's 
father, obviously, for I don't think quite a year, but he was 
head of the CIA 

Mr. GOSS: Yes, he was. 

Vice Chairman ROCKEFELLER: One could argue about Bill Casey 
because he wasn't in the Congress, but he had worked with the 
RNC and that kind of thing. 

But, for the most part, people have not come from that arena. 
And I think that's a fairly genuine basis from which to ask the 
kinds of questions that we're asking. 

And so, let me just ask one final thing. During the kind of hearings 
which we had some of and need to have more of about pressure 
on analysts in the Central intelligence Agency, it was quite interesting. 
There was Richard Kerr, who had been a former Deputy 
Director. And he had some things to say. 

And then there was, for me more interestingly, the CIA ombudsman 
who indicated that the pressure on the analyst to come up 
with certain kinds of products--this is outside. This is across the 
great divide. You know, we don't want to go one way from analysis 
to policy. Well, then, we don't want to go the other way from policy 
to analysis. And that's a fair trade. 

And he said that in his 32 years in his position he had never 
seen so much hammering on the part of the Administration on analysts. 
That's a severe statement. I don't happen to know him, so I 
can't judge whether he would make a statement which was offbase, 
but I don't think he would have that position. 

George Tenet himself indicated that there were people who came 
to him with these concerns. So the question I guess I would like 
to ask you is, what would you do as CIA Director? How would you 
go about the business, to whatever extent you could, of protecting 
your analysts from pressure, from whatever kind of Administration 
on whatever kind of subject in the business of intelligence, which 
is more delicate, more sacred. Because it's so secret, it's also so 
much more volatile. 

Mr. GOSS: The, by analysts, Senator, I'm going to take your question 
to mean across the community. 

Vice Chairman ROCKEFELLER: Yes. 

Mr. GOSS: Because we're talking generically, I believe. It's not 
just the Agency you're talking about. 

Vice Chairman ROCKEFELLER: Yes. The Agency is what I'm talking 
about. 

Mr. GOSS: Okay, I'll answer for both if I can. 

What I would try and do, in fact what I would do if confirmed, 
is to set up a very clear direct line between the analysts' management 
and the top office, which would presumably be whatever the 
top office running CIA for them, or the top office of any of the other 
agencies that have analytical capability where they fall in line to 
the overall Director of National Intelligence or whatever we're 
going to call that person. So there are two stops at least other than 
the normal management. 

And anybody who feels pressed as an analyst--whether it's the 
pressure of the time, it's the pressure of the questions, it's the complexity 
of the problem, it's the pressure of not having enough information, 
whatever it is, those pressures need to be understood in 
the product itself and undue outside influence has got to be kept 
out of it; there's no question about it. 

I believe we have a system like that that can be used and enforced. 

I've read very carefully what Senator Levin sent over. I read the 
deliberations of this Committee, which were pretty exhaustive, on 
the subject. I read the dissenting views, which raised the concern 
which you have echoed. I agree it is an area for watchdogs. It is 
an area where you'll have to have clear access to the top. 

And let me tell you how personally I feel about that, if I may, 
very briefly. That is, if I am confirmed, I do not want to be the person 
standing in front of the President of the United States or anybody 
even close to that rank with information that I do not have 
full confidence in. And I am not going to have full confidence in information 
that has been contaminated by policymaking. 

So I think I have a double reason to do it--one, because of the 
community; and the other because I don't want to be put in a position 
of not delivering the product I say I've got. 

Vice Chairman ROCKEFELLER: And I understand that statement. 
I think it's a very good one. 

Mr. GOSS: Thank you. 

Vice Chairman ROCKEFELLER: My question was: How would you 
set about to try to--I mean, obviously, what has worked up to this 
point has not quite, at least in recent years, worked sufficiently. 

Mr. GOSS: Sir, you can't isolate the analysts. There has to be 
some kind of co-location. There has to be some type of interface 
with, as we've pointed out, with the collectors. So you run the risk, 
at any point, that you start getting product that's as pure as you 
can get it, but getting it as good as you can get it, of drawing that 
line. 

And all I can suggest is that you put on the door the sign that 
says if you think you're being pressured or somebody's interfering 
with your product unduly, you are invited to call your friendly director. 

And I don't mean that flippantly. I think it's that kind of level. 
It's a little bit like our whistle-blower law or our 1-800 number we 
use. If you've got a problem with this, call your Intelligence Committee. 
That's our job to oversee this. If there's an abuse we want 
to know it. 

I've made that work fairly successfully as the Chairman of 
HPSCI, actually. 

Vice Chairman ROCKEFELLER: Thank you, Congressman Goss. 

Thank you, Mr. Chairman. 

Mr. GOSS: Thank you very much, Vice Chairman. 

Chairman ROBERTS: During our two days of open hearings, all 
Members have had an ample opportunity to ask questions. The 
nominee has been, I think, very forthcoming and very generous 
with his time, as have Members. We are about at the 8th hour-- 
3 hours by the current three Members, plus private meetings. We 
have created a thorough record here, it seems to me. And we have 
expressed our concerns to Mr. Goss, and he has given us important 
commitments. 

The intelligence community needs leadership, and the need is 
now. It seems to me it's time to move the nomination. In that regard, 
we have noticed a business meeting for tomorrow for this 
purpose. I look forward to a good turnout. 

Will the nominee make himself available today if any Member 
would like a private meeting? 

Mr. GOSS: Yes, sir, of course. 

Chairman ROBERTS: Mr. Goss, to refer back briefly to a question 
from Senator Wyden, I ask you now, would you support any effort 
on the part of anybody in the Executive, or for that matter--and 
I can't imagine this, in the intelligence community--of weakening 
the congressional oversight of the intelligence community or activity? 

Mr. GOSS: No, sir. 

Chairman ROBERTS: I have a note here that Senator Levin wants 
to ask an additional question. I will recognize him for that purpose. 

Senator LEVIN: Thank you very much, Mr. Chairman. 

Congressman Goss, as reported by the Senate Intelligence Committee 
Report, the intelligence community report or assessment relative 
to the question of whether or not Saddam Hussein had 
trained al-Qa'ida operatives in chemical and biological warfare, 
said, in the classified form, that the sources relative to that were 
of varying reliability and sometimes contradictory. The National 
Security Adviser said that ``we know that there was training of al- 
Qa'ida in chemical and perhaps biological warfare.'' 

Would you agree that that statement, that we know that there 
was training of al-Qa'ida in chemical and perhaps biological warfare, 
goes beyond the intelligence which said that reports thereof 
come from sources of varying reliability and are sometimes contradictory? 
Would you just agree that that statement of the National 
Security Adviser did not reflect the underlying intelligence? 

Mr. GOSS: Sir, if that were the totality of the issue or the picture, 
I would feel obliged, I think, if I were confirmed as DCI, to ask the 
National Security Adviser what exactly was the basis for the statement. 

Senator LEVIN: If that were the totality? 

Mr. GOSS: If that were. I'm not sure that is the totality, because 
I will tell you, totally honestly, I'm not sure right now what's what 
with the training, but I honestly believe there was training. Again, 
this is getting into classified stuff. And I'll be happy to talk to you 
privately about why I believe that. 

Senator LEVIN: I understand that. 

My question is, whether or not if that were the totality, that the 
underlying intelligence said--if--I'm giving you this question--it 
says that the report of training was based on sources of varying reliability, 
which are sometimes contradictory, if that's the underlying 
intelligence, and if the statement made by the policymaker, 
as we know there was training, would that be a fair characterization 
of the underlying intelligence, if that's the totality? 

Mr. GOSS: I would say that the source description of that situation 
that you've outlined, the totality is we're not sure of our 
sources, would not qualify me to say, as the DCI, that we know. 
I would qualify it and caveat it. 

Senator LEVIN: All right. Now, in your judgment, when the National 
Security Adviser said, on September 8, 2002, that, ``We do 
know that there have been shipments going into Iraq of aluminum 
tubes that are really only suited for nuclear weapons programs, 
centrifuge programs''--and that is an exact quote--did that accurately 
reflect the underlying intelligence? 

Mr. GOSS: Senator, I have no idea what intelligence the National 
Security Adviser had received. 

Senator LEVIN: You know what the estimates were. I'm asking 
you, from what you know of the intelligence relative to that issue, 
did that statement, in your judgment, reflect the underlying intelligence 
accurately? That's all I'm asking you. 

Mr. GOSS: On September 8 of 2002, I don't honestly remember. 
I do know that my assessment of the question of the suitability of 
those tubes for anything other than a devilish nuclear purpose has 
changed as information has changed. I can't tell you the exact time 
line. 

And I do know there were dissenting opinions. What I can't tell 
you is when I knew there were dissenting opinions. So, I'm trying 
to answer your question faithfully and say that I just don't know 
when that cognizance came to me. But if I knew that there were 
other possibilities for dual-use equipment, I would say so, yes. I 
would certainly say so. 

Senator LEVIN: And if at the time the intelligence indicated that 
there were other uses that were possible, that then to state that 
we know that they are really only suited for nuclear purposes 
would be an exaggeration in your judgment? 

Mr. GOSS: Sir, in a hypothetical sense, that would be an exag-
geration if that were the totality. But in a specific case, in the past, 
I simply do not know what people knew or what other information 
they had. 

Senator LEVIN: All right. 

You've indicated, Congressman Goss, that national security is 
one area where bipartisanship is essential. And I think you include 
in that intelligence estimates. And I couldn't agree with you more. 
We just unveiled a portrait of Arthur Vandenberg from my home 
State of Michigan who surely led the way in that regard. 

We've seen over the decades too many instances where intelligence 
has been manipulated or politicized. Secretary of Defense 
McNamara used classified communication intercepts to push for 
passage of a Gulf of Tonkin resolution, which was then used by 
President Johnson as the legislative foundation to expand the war 
in Vietnam. 

Bill Casey as CIA Director--and here George Shultz's book just 
lays out what really amounts to an indictment but, in any event, 
a case that during the Iran-Contra period, the CIA Director, and 
here I'm quoting from the Iran-Contra Report in this case, not from 
Secretary Shultz's book, but from the Iran-Contra Report, a bipartisan 
report, said that that Director Casey ``misrepresented or selectively 
used available intelligence to support the policy that he 
was promoting.'' 

We saw much too much shaping and exaggeration of intelligence 
prior to the Iraq war. And we've got to do everything we can, in 
my judgment, to try to prevent that from happening. There's been 
too much of it in the past. It's not limited to Republican or Democratic 
Administrations. And I'm just wondering if you would comment 
on that. 

Mr. GOSS: Sir, I agree with you on that. And I'm guilty, too, as 
I have said, of slipping into some partisan comments in areas of 
national security. And I'm sorry that I have. 

And it's usually because I've had to respond to a question or a 
situation which I considered provocative in order to defend what I 
think needed to be defended on behalf of national security. 

My judgment's not perfect. I've been wrong, and certainly I regret 
sometimes being sucked into those things. I do understand the 
need to get out of the debate. And I do understand the need, if I'm 
confirmed, to get into the management business. And I do understand 
the need to make sure that there's not only no partisanship, 
but that we keep the politics out of it. 

Senator LEVIN: Thank you. 

Thank you very much, Mr. Chairman. 

Thank you very much, Congressman. 

Chairman ROBERTS: Are there any other questions by the Members? 

Not wanting to beat a dead horse, or split the shingle--I'm not 
referring to you, sir--did numerous statements by Members of this 
Committee, or the House Committee, or any other Member of Congress, 
just as declarative, just as aggressive, in regards to those 
concerns that have been raised here today by Members of Congress, 
without the benefit of the WMD report that was done by this 
Committee, did that represent an exaggeration of the use of intelligence? 

Mr. GOSS: Sir, I think that the WMD report done by this Committee, 
the conclusions you've received, were the right conclusions. 
I would have supported those conclusions, had I been on this Committee. 

Chairman ROBERTS: Well, I think the conclusions represented a 
shotgun--no, a flashlight of truth, if you will, that spread a broad 
light not only on those in the Executive, but those in the Legislative. 
And I can cite you statements made by myself and others on 
this Committee and the House Committee, and by many Members 
of Congress that were very declarative, very assertive, very aggressive, 
and all pertaining to the concerns that have been raised here. 
And we were wrong. 

Now, I didn't exaggerate it. I stated what I thought to be true. 
But the intelligence that was provided was not accurate. And so, 
consequently, when we get to the use of intelligence, as to whether 
it's exaggerated or not, or whether I felt pressured or whatever-- 
and I'm not going to get into all that again--I think that's a consideration. 

I'm not sure that you as the CIA Director or the National Intelligence 
Director would feel comfortable, however, if somebody made 
the statement on the floor of the House or the Senate or in public 
or on television that you would immediately feel an obligation to 
come to them and say, ``Senator Roberts, I think you're wrong.'' You 
may feel that way, but you wouldn't have any time to do anything 
if you were trying to correct Members of Congress when perhaps 
they exaggerated anything. 

With that, this hearing is concluded. I thank all Members for 
their participation, and I thank the witness for his patience and 
perseverance. 

Mr. GOSS: Thank you for your consideration, Mr. Chairman, Mr. 
Vice Chairman. 

[Whereupon, at 11:28 a.m., the hearing adjourned.] 

</pre></body></html>
